App. 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

AMERICAN INSTITUTE FOR
INTERNATIONAL STEEL, INC., SIM-TEX, LP,
KURT ORBAN PARTNERS, LLC,
Plaintiffs-Appellants
v.
UNITED STATES, MARK A. MORGAN,
ACTING COMMISSIONER OF U.S.
CUSTOMS AND BORDER PROTECTION,
Defendants-Appellees
-----------------------------------------------------------------------

2019-1727
-----------------------------------------------------------------------

Appeal from the United States Court of International Trade in No. 1:18-cv-00152-CRK-JCG-GSK,
Judge Claire R. Kelly, Judge Gary S. Katzmann, Judge
Jennifer Choe-Groves.
-----------------------------------------------------------------------

Decided: February 28, 2020
-----------------------------------------------------------------------

ALAN MORRISON, George Washington University
Law School, Washington, DC, argued for plaintiffsappellants. Also represented by STEVE CHARNOVITZ;
DONALD CAMERON, JR., JULIE MENDOZA, BRADY MILLS,

App. 2
R. WILL PLANERT, Morris, Manning & Martin, LLP,
Washington, DC; GARY N. HORLICK, Law Ofﬁces of Gary
N. Horlick, Washington, DC; TIMOTHY MEYER, Vanderbilt Law School, Nashville, TN.
TARA K. HOGAN, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, argued for defendants-appellees. Also
represented by JOSEPH H. HUNT, JEANNE DAVIDSON,
STEPHEN CARL TOSINI, JOSHUA E. KURLAND.
ILYA SHAPIRO, Cato Institute, Washington, DC, for
amicus curiae Cato Institute.
JEFFREY S. GRIMSON, Mowry & Grimson, PLLC,
Washington, DC, for amicus curiae Basrai Farms. Also
represented by BRYAN CENKO, JILL CRAMER, KRISTIN
HEIM MOWRY; PEGGY CLARKE, Law Ofﬁces of Peggy A.
Clarke, Washington, DC.
CHARLES ALAN ROTHFELD, Mayer Brown LLP,
Washington, DC, for amicus curiae United States Steel
Corporation. Also represented by MATTHEW MCCONKEY.
ALAN H. PRICE, Wiley Rein, LLP, Washington, DC,
for amici curiae American Iron and Steel Institute,
Steel Manufacturers Association. Also represented by
MAUREEN E. THORSON, JOSHUA S. TURNER, CHRISTOPHER
B. WELD.
-----------------------------------------------------------------------

App. 3
Before TARANTO, SCHALL, and STOLL, Circuit Judges.
TARANTO, Circuit Judge.
On March 8, 2018, the President of the United
States imposed a 25-percent tariff on certain imported
steel products, exercising authority granted to the
President by section 232 of the Trade Expansion Act of
1962, as amended, 19 U.S.C. § 1862, a provision that
traces its lineage to 1955. See Fed. Energy Admin. v.
Algonquin SNG, Inc., 426 U.S. 548, 552 (1976). The
American Institute for International Steel, Inc.; SimTex, LP; and Kurt Orban Partners, LLC (collectively,
AIIS) sued the United States in the United States
Court of International Trade, arguing that the statute
is unconstitutional on its face because the authority it
confers is so unconstrained as to constitute legislative
power that is Congress’s alone under Article I of the
Constitution and so cannot be delegated. The Court of
International Trade rejected the challenge, concluding
that the issue is controlled by the portion of the Supreme Court’s Algonquin decision that declares section
232 not to violate the nondelegation doctrine. American Inst. for Int’l Steel, Inc. v. United States, 376
F. Supp. 3d 1335, 1339–45 (Ct. Int’l Trade 2019). We
agree, and we therefore afﬁrm.
I
A
Section 232 begins with mention of two other
statutory provisions, codiﬁed at 19 U.S.C. §§ 1821,
1351, that grant the President certain discretionary

App. 4
authority regarding tariffs on goods from foreign nations
with which the President might enter into executive
agreements. See American Ins. Ass’n v. Garamendi, 539
U.S. 396, 414–15 (2003) (noting longstanding use and
approval of such agreements). Section 1821 states that
the President “may,” for any of the broad trade-related
purposes identiﬁed in 19 U.S.C. § 1801, enter into trade
agreements and, among other things, raise or lower duties (within limits) to carry out such agreements. 19
U.S.C. § 1821. Section 1351, which dates to 1934, see
Tariff Act of 1934, ch. 474, 48 Stat. 943, confers similar
authority. 19 U.S.C. § 1351. This court’s predecessor,
the Court of Customs and Patent Appeals, upheld section 1351 against a delegation-doctrine challenge in
Ernest E. Marks Co. v. United States, 117 F.2d 542
(CCPA 1941).1

1

Congress also conferred discretionary tariff authority on the
President in 19 U.S.C. §§ 2251–2254, providing for action based
on a wide range of considerations, including national security, id.,
§ 2253(a)(2)(I). See Silfab Solar, Inc. v. United States, 892 F.3d
1340 (Fed. Cir. 2018) (holding that certain presidential determinations under that authority, the so-called “escape clause,” are
not judicially reviewable). The Supreme Court has pointed to
other grants of authority to the President (some of it discretionary), from the earliest Congresses, involving import or other measures
involving foreign commerce or exactions. See, e.g., United States
v. Curtiss-Wright Export Corp., 299 U.S. 304, 322–24 (1936) (historical recitation); Panama Reﬁning Co. v. Ryan, 293 U.S. 388,
422 (1935); J.W. Hampton, Jr., & Co. v. United States, 276 U.S.
394, 402 (1928); B. Altman & Co. v. United States, 224 U.S. 583
(1912) (applying Tariff Act of 1897, § 3, 30 Stat. 151, 203); Marshall Field & Co. v. Clark, 143 U.S. 649, 683–92 (1892). We do not
rule on what legal signiﬁcance those grants, and Supreme Court
rulings about them, would have in the absence of Algonquin.

App. 5
The statute at issue in the present case, section
232, both restricts and adds to the authority granted
in 19 U.S.C. §§ 1821 and 1351. It bars any reduction or
elimination of duties under those provisions “if the
President determines that such reduction or elimination would threaten to impair the national security.” 19
U.S.C. § 1862(a). And, in subsections (b) through (d),
section 232 provides the President with authority to
“adjust the imports” of an article if the Secretary of
Commerce, after a process of consultation and information-seeking, “ﬁnds that [the] article is being imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.” 19 U.S.C. § 1862(c)(1)(A).
The statutory process for an adjustment based on
national security begins with the Secretary of Commerce performing an “appropriate investigation to determine the effects on the national security of imports
of the article.” Id., § 1862(b)(1)(A). The statute requires
consultation with the Secretary of Defense and other
appropriate ofﬁcers of the United States and, if appropriate, public hearings or receipt of comments from
interested persons. Id., § 1862(b)(2)(A). When the investigation is completed, the Secretary of Commerce
must provide the President with ﬁndings and recommendations for action or inaction. Id., § 1862(b)(3)(A).
If the Secretary ﬁnds that importation of the article
threatens to impair the national security, the President then must determine whether he concurs with the
Secretary’s ﬁndings and, if so, what action to adjust

App. 6
imports, in nature and duration, is necessary to avoid
the threat to the national security. Id., § 1862(c)(1)(A).
One possible action is “the negotiation of an agreement which limits or restricts the importation into, or
the exportation to, the United States of the article that
threatens to impair national security.” Id., § 1862(c)(3)(A).
If an agreement is not negotiated within 180 days,
however, or if an agreement that is reached is not being
carried or is ineffective in eliminating the threat, the
President “shall” take other actions he deems necessary. Id. The statute thus provides leverage, in the
form of tariff adjustments, for the President to use in
negotiating international executive agreements, much
as do 19 U.S.C. §§ 1821 and 1351, though with a speciﬁc focus on national security.
Subsection (d) sets forth a number of “relevant factors” to which Secretary and the President shall “give
consideration” in making their determinations regarding national security. Id., § 1862(d). These factors include the “domestic production needed for projected
national defense requirements,” the “capacity of domestic industries to meet such requirements,” and the
“requirements of growth of such domestic industries.”
Id. They include, as well, “the impact of foreign competition on the economic welfare of individual domestic
industries” and whether the “weakening of our internal economy may impair the national security.” Id. The
statute enumerates other considerations as well, but

App. 7
the enumeration is set forth “without excluding other
relevant factors.” Id.2
B
1
On April 19, 2017, pursuant to section 1862, the
Secretary of Commerce opened an investigation into
the impact of steel imports on the national security. On
April 26, 2017, the Commerce Department published a
notice in the Federal Register soliciting public comments and setting a public hearing for May 24, 2017.
82 Fed. Reg. 19,205 (Apr. 26, 2017). On January 11,
2018, the Secretary provided the President with a report of ﬁndings and recommendations. U.S. Dep’t of
Commerce, Bureau of Industry and Security, The Effect
of Imports of Steel on the National Security: An Investigation Conducted Under Section 232 of the Trade Expansion Act of 1962, as Amended (2018) (Steel Report).
The Secretary examined a variety of steel mill
products: carbon and alloy ﬂat products, carbon and
2

Congress has elsewhere recognized connections between
economic interests and national security. See, e.g., 50 U.S.C.
§ 3043(b) (annual “national security strategy report” must address “economic . . . elements of the national power of the United
States”); 8 U.S.C. § 1189(d)(2) (“ ‘[N]ational security’ means the
national defense, foreign relations, or economic interests of the
United States.”) (quoted in Holder v. Humanitarian Law Project,
561 U.S. 1, 9 (2010)); see also Crosby v. Nat’l Foreign Trade Council,
530 U.S. 363, 375–76 (2000) (holding State’s measure preempted
by federal statute that conferred on the President “discretion to
exercise economic leverage . . . with an eye toward national security”).

App. 8
alloy long products, carbon and alloy pipe and tube
products, carbon and alloy semi-ﬁnished products, and
stainless products. Id. at 21–22. He found that steel is
important to “national security” because a variety of
steel products are needed to support the country’s defense and to supply industries that are critical to minimum operations of the economy and government. Id.
at 23.3
The Secretary took account of a conclusion the
Secretary of Defense communicated during the investigation and stated as follows in a post-report letter:
“[T]he U.S. military requirements for steel and aluminum each only represent about three percent of U.S.
production. Therefore, DoD [the Department of Defense] does not believe that the ﬁndings in the reports
impact the ability of DoD programs to acquire the steel
or aluminum necessary to meet national defense requirements.” Letter from James Mattis, Secretary of
Defense, to Secretary of Commerce (Feb. 22, 2018); J.A.
3

The Secretary noted that, while neither section 232 nor its
implementing regulations, 15 C.F.R. Part 705, deﬁnes “national
security,” the term includes, at least, “national defense.” Steel Report at 13. He also cited the conclusion of an October 2001 Commerce report prepared under section 232 that “ ‘national defense’
includes both defense of the United States directly and the ‘ability
to project military capabilities globally’ ” and encompasses the
general security and welfare of certain industries critical to the
minimum operations of the economy and government. Id. (citing
U.S. Dep’t of Commerce, Bureau of Export Administration, The
Effect of Imports of Iron Ore and Semi-Finished Steel on the National Security (2001) (2001 Report)). The 2001 Report, for its
part, notes that earlier section 232 investigations did not include
critical industries within the scope of “national security.” 2001
Report at 5.

App. 9
3056. That statement does not expressly refer to future
DoD steel needs or to the total demand needed for domestic steel plants to sustain, over time, operations
that might be needed for future national-security (including defense) needs. The Secretary of Commerce
broadened the economic analysis. He found that no
company could proﬁtably run a steel mill to supply
only defense needs and that there were already no domestic suppliers for some kinds of steel products
needed by DoD. Steel Report at 23, 45–46. To meet
DoD’s varied needs, including possible future needs,
the Secretary determined, domestic steel mills must
attract sufﬁcient commercial business. Id. at 23, 46.
The Secretary found that many domestic steel
mills had been driven out of business due to declining
steel prices, global overcapacity, and unfairly traded
steel, id. at 33, and that remaining steel mills were ﬁnancially distressed, id. at 37–48. Relying on industry
analysts, the Secretary found that, to remain proﬁtable, steel mills generally need to operate at a utilization rate—the amount of production expressed as a
percentage of the maximum production capacity—of
80 percent or greater. Id. at 47–48. The Secretary found
that the average utilization rate was 74 percent for the
most recent six-year period and that in 2016 the utilization rate was only 69.4 percent. Id. at 47.
The Secretary concluded that the then-current importation of steel threatened the national security by
jeopardizing domestic steel production. Id. at 56–57. To
alleviate this threat, the Secretary recommended immediately implementing tariffs or quotas in an amount

App. 10
sufﬁcient to enable domestic steel plants to operate at
utilization levels of at least 80 percent. Id. at 58. The
Secretary determined that such a utilization rate could
be achieved by reducing steel imports from 36 million
to 23 million metric tons. Id. The Secretary presented
several alternatives to achieve that reduction: an import quota limiting imports of steel to 63 percent of
2017 levels; a tariff of 24 percent on all steel imports,
no matter the country of origin (on top of alreadyapplicable antidumping or countervailing duties); or a
tariff of 53 percent for steel imports from twelve countries (again, on top of already-applicable antidumping
or countervailing duties). Id. at 59–60.
2
On March 8, 2018, the President issued Proclamation 9705, in which he concurred with the Secretary’s
ﬁndings and imposed a 25-percent tariff, effective
March 23, 2018, on all steel articles from all countries—except for Canada and Mexico, which involved
recited special circumstances and were already engaged in negotiations with the United States. 83 Fed.
Reg. 11,625, 11,626–27 (Mar. 15, 2018). The President
determined that the tariff was “necessary and appropriate” and would help “ensure that domestic producers can continue to supply all the steel necessary for
critical industries and national defense.” Id. at 11,626.
The President also welcomed any country with which
the United States has a security relationship to “discuss . . . alternative ways to address the threatened impairment of the national security caused by imports

App. 11
from that country.” Id. The President stated that, upon
reaching an alternative arrangement with a country,
he may “remove or modify the restriction on steel articles imports from that country and, if necessary, make
any corresponding adjustments to the tariff as it applies to other countries.” Id.
On March 22, 2018, the President issued Proclamation 9711, temporarily exempting Australia, Argentina, South Korea, Brazil, and the European Union
from the tariff. 83 Fed. Reg. 13,361 (Mar. 28, 2018). The
President determined that the United States has an
important security interest with each of the exempted
sovereigns and that—in light of ongoing negotiations
with each—the appropriate way to address the threat
to the national security was to continue discussions
and increase strategic partnerships, “including those
with respect to reducing global excess capacity.” Id. at
13,362. The exemption was to last only until May 1,
2018, thereby encouraging the conclusion of satisfactory agreements. Id. at 13,362–63.
On April 30, 2018, the President issued Proclamation 9740, reporting that the United States had successfully concluded negotiations with South Korea on
an alternative means to address the threat to the national security. 83 Fed. Reg. 20,683 (May 7, 2018). The
countries agreed to a “range of measures,” including a
quota restricting the quantity of articles imported from
South Korea. Id. The President therefore excluded
South Korea from the tariff. Id. at 20,684. In the same
Proclamation, the President exempted Argentina, Australia, and Brazil, which had reached an agreement in

App. 12
principle with the United States, and postponed until
June 1, 2018, the effective date of applicability to Canada, Mexico, and the EU, which were engaged in negotiations sufﬁciently promising to warrant that
postponement. Id. at 20,684–85.
On May 31, 2018, the President issued Proclamation 9759, announcing that the United States had
agreed with Argentina, Australia, and Brazil on alternative means to reduce excess steel production and capacity. 83 Fed. Reg. 25,857 (June 5, 2018). In light of
those agreements, the President determined that steel
imports from those countries no longer threaten the
national security and, therefore, imports from those
countries would be excluded from the tariff. Id. at
25,858.
On August 10, 2018, the President issued Proclamation 9772, stating that imports of steel had not declined as much as anticipated and that capacity
utilization had not increased to the target level. 158
Fed. Reg. 40,429 (Aug. 15, 2018). Noting that the Secretary’s January report recommended applying higher
tariffs to a set of countries that includes Turkey (one of
the twelve identiﬁed by the Secretary, Steel Report at
60), the President determined that it was necessary
and appropriate to increase the tariff rate to 50 percent
for steel articles imported from Turkey. 158 Fed. Reg.
at 40,429–30.

App. 13
C
On June 27, 2018, AIIS ﬁled a complaint with the
Court of International Trade, asserting—without contradiction from the United States—that the Institute’s
members (including the two other plaintiffs) are adversely affected by the tariffs on imported steel imposed pursuant to section 232. AIIS did not allege a
failure to adhere to required procedures or action beyond the statutory constraints. AIIS stated a single
claim: that section 232, on its face, is an unconstitutional delegation of legislative power to the President.
AIIS sought an injunction against enforcement of the
tariff increase imposed under the section. The Court of
International Trade had jurisdiction under 28 U.S.C.
§ 1581(i)(2), (4), and a three-judge panel was designated to hear AIIS’s constitutional challenge under 28
U.S.C. § 255.
AIIS ﬁled a motion for summary judgment, and
the government moved for judgment on the pleadings.
The Court of International Trade held that the Supreme Court’s decision in Algonquin requires rejection of the constitutional challenge, and it therefore
granted the government’s motion. American Institute for Int’l Steel, 376 F. Supp. 3d at 1339–45. Judge
Katzmann, while agreeing that Algonquin is controlling, expressed doubt that section 232 should be
deemed constitutional in the absence of Algonquin.
American Institute for Int’l Steel, 376 F. Supp. 3d at
1345–52. The court entered ﬁnal judgment on March
25, 2019.

App. 14
AIIS ﬁled a timely notice of appeal that same day.
We have jurisdiction under 28 U.S.C. § 1295(a)(5).
II
On appeal, AIIS urges that Algonquin does not
control this case and that section 232 is facially unconstitutional because it improperly delegates legislative
authority to the President. We review questions of law
de novo. Princess Cruises, Inc. v. United States, 201 F.3d
1352, 1357 (Fed. Cir. 2000). Agreeing with the Court of
International Trade that Algonquin controls, we afﬁrm
without deciding what ruling on the constitutional
challenge would be proper in the absence of Algonquin.
A
In Algonquin, the Court considered a challenge to
the President’s authority to adjust imports using license fees. Pursuant to section 232, the President had
issued a proclamation increasing license fees imposed
on certain petroleum products. Algonquin, 426 U.S. at
553–55. Several states, along with other complainants,
sued the Secretary of the Treasury, alleging that section 232 did not give the President authority to adjust
imports using license fees and that, if so read, the provision would be an unconstitutional delegation of legislative authority.4 Id. at 556. The Court upheld the
license fees. Id. at 558–71.

4

At the time of Algonquin, section 232 gave the Secretary of
the Treasury the responsibilities now given to the Secretary of

App. 15
Decisively for current purposes, the Court began
by rejecting the “suggestion that [it] must construe
§ 232(b) narrowly in order to avoid a serious question
of unconstitutional delegation of legislative power.” Id.
at 558–59 (internal quotation marks omitted). The
Court ruled: “Even if § 232(b) is read to authorize the
imposition of a license fee system, the standards that
it provides the President in its implementation are
clearly sufﬁcient to meet any delegation doctrine attack.” Id. at 559.
Speciﬁcally, the Court quoted its ruling in J. W.
Hampton, Jr., & Co. v. United States that there is no
forbidden delegation if “Congress shall lay down by
legislative act an intelligible principle to which the
[President] is directed to conform,” 276 U.S. 394, 409
(1928), and concluded that “[s]ection 232(b) easily fulﬁlls that test.” 426 U.S. at 559. The Court explained
that section 232 “establishes clear preconditions to
Presidential action”—the Secretary’s ﬁnding that an
article is being imported in such quantities and under
such circumstances as to threaten the national security—and that “the leeway that the statute gives the
President in deciding what action to take in the event
the preconditions are fulﬁlled is far from unbounded.”
Id. The Court added that the President “can act only to
the extent ‘he deems necessary to adjust the imports
Commerce—to whom Congress transferred the responsibilities
effective January 2, 1980, as part of an Executive Branch reorganization. See Reorganization Plan No. 3 of 1979—Reorganization of Functions Relating to International Trade, § 5(a)(1)(B), 93
Stat. 1381, 1383.

App. 16
. . . so that such imports will not threaten to impair the
national security’ ” and that the statute “articulates a
series of speciﬁc factors to be considered by the President.” Id. (quoting 19 U.S.C. § 1862(b) (1975)); see also
Trade Act of 1974, Pub. L. No. 93-618, § 127(d), 88 Stat.
1978, 1993 (1975). For those reasons, the Court held
that there was “no looming problem of improper delegation.” Id. at 560.
B
The Court’s ruling in Algonquin answers the question of the constitutionality of section 232 presented
here. The Court’s rejection of the nondelegation-doctrine challenge to section 232 was a necessary step in
the Court’s rationale for ultimately construing the
statute as it did, and the constitutional ruling is therefore binding precedent. See Seminole Tribe of Florida
v. Florida, 517 U.S. 44, 67 (1996) (“When an opinion issues for the Court, it is not only the result but also
those portions of the opinion necessary to that result
by which we are bound.”). Moreover, the rationale of
the Court’s rejection of the nondelegation-doctrine
challenge rests on the determination that the standards governing the President’s and Secretary’s determinations under section 232 are constitutionally
adequate. The same standards are at issue here.
The court did not limit its reasoning in the delegation-doctrine portion of its opinion to the license-fee
authority in dispute in Algonquin. When the Court
said at the end of its opinion that its “holding . . . is a

App. 17
limited one,” Algonquin, 426 U.S. at 571, it was not curtailing its nondelegation holding. Rather, it was referring to its statutory-construction ruling. The Court
explained what it meant by “limited”: the conclusion
that “the imposition of a license fee is authorized by
§ 232(b) in no way compels the further conclusion that
any action the President might take, as long as it has
even a remote impact on imports, is also so authorized.” Id. That caution about what actions might be
outside section 232’s authorization does not narrow the
Court’s conclusion that section 232 is not an unconstitutional delegation of legislative authority.
In any event, we see no basis on which Algonquin
can be properly distinguished for purposes of the question presented here. For one thing, the tariffs at issue
here are “monetary exactions,” like the “license fees”
that were at issue, and contrasted with “quotas,” in Algonquin. Id. at 552. Even if Algonquin’s nondelegation
ruling were viewed as tied to the form of presidential
action authorized, AIIS has presented no persuasive
explanation for distinguishing the tariffs at issue here
from the license fees at issue there. For another, AIIS’s
claim is a claim of unconstitutionality of the statutory
provision on its face, that is, in all its applications. See
Bucklew v. Precythe, 139 S. Ct. 1112, 1127 (2019) (“A
facial challenge is really just a claim that the law or
policy at issue is unconstitutional in all its applications.”). Algonquin necessarily rejected that claim
when it held that there was no constitutional problem
with the grant of authority in section 232.

App. 18
C
MIS argues that later decisions of the Supreme
Court have undermined at least one crucial premise of
Algonquin, making it no longer binding. But the Supreme Court has ruled: “If a precedent of [the Supreme
Court] has direct application in a case, yet appears to
rest on reasons rejected in some other line of decisions,
the Court of Appeals should follow the case which directly controls, leaving to [the Supreme Court] the prerogative of overruling its own decisions.” Rodriguez de
Quijas v. Shearson/American Express, Inc., 490 U.S.
477, 484 (1989). If there are cases justifying an exception to that principle, this case is not one of them.
We will not project an overruling of the delegationdoctrine standard stated in Hampton on which Algonquin rested. Five members of the Court have recently
expressed interest in at least exploring a reconsideration of that standard. See Gundy v. United States, 139
S. Ct. 2116, 2131–42 (2019) (Gorsuch, J., dissenting,
joined by Roberts, C.J., and Thomas, J.); id. at 2130–31
(Alito, J., concurring in the judgment); Paul v. United
States, 140 S. Ct. 342 (2019) (mem.) (Kavanaugh, J.,
statement respecting the denial of certiorari) (stating
that the issues raised in the Gundy dissent “may warrant further consideration in future cases”). But such
expressions give us neither a license to disregard the
currently governing precedent nor a substitute standard to apply.
We do not have full brieﬁng on issues that might
demand exploration under a standard different from

App. 19
the one stated in Hampton. Such issues might include
the signiﬁcance of text, history, and precedent bearing
on circumstances in which Congress, exercising its constitutional power, strengthens authority within the
President’s “independent” constitutional power. See
Loving v. United States, 517 U.S. 748, 772 (1996) (explaining that the delegation doctrine is less restrictive
in such circumstances, citing United States v. Mazurie,
419 U.S. 544, 556–57 (1975), and United States v.
Curtiss-Wright Export Corp., 299 U.S. 304, 319–22
(1936)); see also Gundy, 139 S. Ct. at 2136 (Gorsuch, J.,
dissenting); cf. Zivotofsky ex rel. Zivotofsky v. Kerry, 135
S. Ct. 2076, 2083–84 (2015) (stating that the Court
uses “Justice Jackson’s familiar tripartite framework”
from Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S.
579, 635–38 (1952) (concurring opinion), under which
the President’s authority is greatest when supported
by Congress. The Supreme Court has recognized that
the President has some independent constitutional
authority over national security and dealings with
foreign nations, including in the form of executive
agreements. See, e.g., Ziglar v. Abbasi, 137 S. Ct. 1843,
1861 (2017) (national security); American Ins. Ass’n,
539 U.S. at 414–15 (executive agreements); see also
Trump v. Hawaii, 138 S. Ct. 2392, 2419–20 (2018)
(“The upshot of our cases in this context is clear: ‘Any
rule of constitutional law that would inhibit the ﬂexibility’ of the President ‘to respond to changing world
conditions should be adopted only with the greatest
caution,’ and our inquiry into matters of entry and national security is highly constrained.” (quoting Mathews
v. Diaz, 426 U.S. 67, 81 (1976)). We will not guess at

App. 20
precisely what analysis might be needed in the absence of Algonquin or conduct such an analysis without the parties’ brieﬁng developed under any new
standard.
AIIS argues that one pertinent change of law has
already occurred. It argues that decisions of the Supreme Court after Algonquin—particularly Franklin v.
Massachusetts, 505 U.S. 788 (1992), and Dalton v. Specter, 511 U.S. 462 (1994)—foreclose judicial review that
would have been available at the time Algonquin was
decided. We see no basis in this argument for declaring
Algonquin to be no longer binding. Nothing in Algonquin’s analysis rests on a premise about judicial review
that later Supreme Court decisions have changed.
In Franklin, the Court ruled that the President’s
actions are not reviewable under the Administrative
Procedure Act (APA) because the President is not an
“agency.” Franklin, 505 U.S. at 800–01. In Dalton, the
Court ruled that recommendations and reports submitted to the President are not reviewable under the
APA—because they are not ﬁnal agency actions—
when the President has discretion whether to act pursuant to such recommendations and reports. Dalton,
511 U.S. at 469–70; see Franklin, 505 U.S. at 796–98.
But the Court’s analysis in Algonquin does not turn on
APA review of the President’s action, or of the Secretary’s ﬁndings and recommendations, under section
232.
To the extent that AIIS suggests that the Court
in Algonquin presupposed the availability of judicial

App. 21
review of the factual or discretionary presidential determinations under section 232, there is no basis for
such a suggestion. Nor has AIIS established that, at
the time of Algonquin, such judicial review was available. See United States v. George S. Bush & Co., 310
U.S. 371, 380 (1940) (“For the judiciary to probe the
reasoning which underlies this Proclamation would
amount to a clear invasion of the legislative and executive domains. Under the Constitution it is exclusively
for Congress, or those to whom it delegates authority,
to determine what tariffs shall be imposed.”); Dalton,
511 U.S. at 474 (indicating that discretionary presidential decisions were already unreviewable under
longstanding case law); American Inst. for Int’l Steel,
376 F. Supp. 3d at 1341–42 (citing authorities).
At the same time, in Algonquin the Court did rule
on the statutory issue of whether section 232 authorized license fees (not just quotas) as well as on the constitutional challenge. But AIIS has not identiﬁed any
material change in the availability of judicial review in
those respects. It is enough to say that some non-APA
review remains available for constitutional issues,
questions about the scope of statutory authority, and
compliance with procedural requirements. See Dalton,
511 U.S. at 474; Franklin, 505 U.S. at 801; Dames &
Moore v. Regan, 453 U.S. 654, 669–74 (1981); Silfab Solar, 892 F.3d at 1346 (citing Maple Leaf Fish Co. v.
United States, 762 F.2d 86, 89 (Fed. Cir. 1985) (“For a
court to interpose, there has to be a clear misconstruction of the governing statute, a signiﬁcant procedural
violation, or action outside delegated authority.”)). The

App. 22
government has agreed, in its brief, Appellee Br. at 24,
and at oral argument, Oral Arg. at 16:25-17:06, http://
oralarguments.cafc.uscourts.gov/default.aspx?f1=20191727.mp3. In short, there has been no material change
to the judicial review of presidential action pursuant
to section 232 that undermines the controlling force of
Algonquin.
III
For the foregoing reasons, we afﬁrm the judgment
of the Court of International Trade.
AFFIRMED

App. 23
United States Court of Appeals
for the Federal Circuit
-----------------------------------------------------------------------

February 28, 2020
ERRATA
-----------------------------------------------------------------------

Appeal No. 2019-17827
AMERICAN INSTITUTE FOR INTERNATIONAL
STEEL, INC., SIM-TEX, LP, KURT ORBAN
PARTNERS, LLC,
Plaintiffs-Appellants
v.
UNITED STATES, MARK A. MORGAN,
ACTING COMMISSIONER OF U.S.
CUSTOMS AND BORDER PROTECTION,
Defendants-Appellees
-----------------------------------------------------------------------

Decided: February 29, 2020
Non-Precedential Opinion
-----------------------------------------------------------------------

Please make the following changes:
On page 16, line 12: change “Congress.” to “Congress).”.
On page 16, line 25: change “(1976)).” to “(1976))).”.

App. 24
Slip Op. 19-37
UNITED STATES COURT OF
INTERNATIONAL TRADE
AMERICAN INSTITUTE
FOR INTERNATIONAL
STEEL, INC., SIM-TEX, LP,
and KURT ORBAN
PARTNERS, LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United
States Customs and
Border Protection,

Before: Claire R.
Kelly, Jennifer
Choe-Groves &
Gary S. Katzmann,
Judges
Court No. 18-00152

Defendants.
OPINION
[Denying Plaintiffs’ motion for summary judgment
seeking a declaration that section 232 of the Trade Expansion Act of 1962 contains an impermissible delegation of legislative authority and granting Defendants’
motion for judgment on the pleadings. Judge Katzmann ﬁles a separate dubitante opinion.]
Dated: March 25, 2019
Alan B. Morrison, George Washington University Law
School, Donald Bertrand Cameron and Rudi Will Planert, Morris, Manning & Martin, LLP, of Washington,

App. 25
DC, and Gary N. Horlick, Law Ofﬁces of Gary N. Horlick, of Washington, DC argued for plaintiffs, American
Institute for International Steel, Inc. a/k/a AIIS, SimTex, LP, and Kurt Orban Partners, LLC. With them on
the brief were Steve Charnovitz, George Washington
University Law School, Julie Clark Mendoza and
Brady Warﬁeld Mills, Morris, Manning & Martin, LLP,
of Washington, DC, and Timothy Lanier Meyer, Vanderbilt University Law School.
Tara Kathleen Hogan, Assistant Director, Commercial
Litigation Branch, Civil Division, U.S. Department of
Justice, of Washington, DC, and Jeanne E. Davidson,
Director, Commercial Litigation Branch, Civil Division, U.S. Department of Justice, of Washington, DC,
argued for defendants. With them on the brief were
Joshua E. Kurland and Stephen C. Tosini, Attorneys,
and Joseph H. Hunt, Assistant Attorney General.
Kelly, Judge: Before the court are American Institute for International Steel, Inc., Sim-Tex LP, and Kurt
Orban Partners, LLC’s (“Plaintiffs”) motion for summary judgment and Defendants’ motion for judgment
on the pleadings, and their respective supporting
memoranda. See [Plaintiffs’] Mot. Summary J. & Mem.
Supp., July 19, 2018, ECF No. 20 (“Pls.’ Br.”); Defs.’
Mot. J. Pleadings & Opp’n Pls.’ Mot. Summary J., Sept.
14, 2018, ECF No. 26 (“Defs.’ Opp’n Br.”). Plaintiffs
seek declaratory and injunctive relief against enforcement of section 232 of the Trade Expansion Act of 1962,

App. 26
as amended 19 U.S.C. § 1862 (2012)1 (“section 232”), on
the grounds that, on its face, it constitutes an improper
delegation of legislative authority in violation of Article I, Section 1 of the U.S. Constitution and the doctrine
of separation of powers.2 See Pls.’ Br. at 16–42; see also
U.S. Const. art. I, § 1. Defendants argue that Plaintiffs’
claim is foreclosed by Fed. Energy Admin. v. Algonquin
SNG Inc., where the Supreme Court stated that section 232’s standards are “clearly sufﬁcient to meet
any delegation doctrine attack.” Defs.’ Opp’n Br. at 13
(quoting Fed. Energy Admin. v. Algonquin SNG Inc.,
426 U.S. 548, 559 (1976)).3 Alternatively, Defendants
argue that the statutory scheme “amply satisﬁes the
nondelegation doctrine.” Id. at 14.
BACKGROUND
Section 232 authorizes the Secretary of Commerce
to commence an investigation “to determine the effects
on the national security of imports” of any article. 19
1

Further citations to the Trade Expansion Act of 1962, as
amended, are to the relevant provisions of the United States
Code, 2012 edition.
2
Basrai Farms appears as amicus curiae in this action and
ﬁled a brief in support of Plaintiffs’ position and in opposition to
Defendants’ position. See generally Br. Basrai Farms Opp’n Defs.’
Mot. J. Pleadings & Supp. Pls.’ Mot. Summary J., Oct. 5, 2018,
ECF No. 39.
3
American Iron and Steel Institute (“AISI”) and Steel Manufacturers Association (“SMA”) appear as amici curiae in this action and ﬁled a brief in opposition to Plaintiffs’ position. See
generally Br. Amici Curiae [AISI] & [SMA] Opp’n Pls.’ Mot. Summary J., Sept. 14, 2018, ECF No. 30.

App. 27
U.S.C. § 1862(b)(1)(A). The Secretary of Commerce
must “provide notice to the Secretary of Defense” of the
investigation’s commencement and, in the course of
the investigation, “consult with the Secretary of Defense regarding the methodological and policy questions raised[.]” 19 U.S.C. § 1862(b)(1)(B); 19 U.S.C.
§ 1862(b)(2)(A)(i). The Secretary of Commerce must
also “(ii) seek information and advice from, and consult
with, appropriate ofﬁcers of the United States, and
(iii) if it is appropriate and after reasonable notice,
hold public hearings or otherwise afford interested
parties an opportunity to present information and
advice relevant to such investigation.” 19 U.S.C.
§ 1862(b)(2)(A)(ii)-(iii). The Secretary of Defense shall
also, if requested by the Secretary of Commerce, provide to the Secretary of Commerce “an assessment of
the defense requirements of any article that is the subject of an investigation conducted under this section.”
19 U.S.C. § 1862(b)(2)(B).
Upon the investigation’s completion or within the
timeline provided, the Secretary of Commerce must
provide the President with a report of the investigation’s ﬁndings, advise on a course of action, and if the
Secretary determines that the article under investigation “is being imported into the United States in such
quantities or under such circumstances as to threaten
to impair the national security,” advise the President
of the threat. 19 U.S.C. § 1862(b)(3)(A).
After receiving the Secretary of Commerce’s report, if the President concurs with the ﬁnding that a
threat exists, he shall “determine the nature and

App. 28
duration of the action that, in the judgment of the President, must be taken to adjust the imports of the article
and its derivatives so that such imports will not
threaten to impair the national security.” 19 U.S.C.
§ 1862(c)(1)(A)(ii).
Additionally,
By no later than the date that is 30 days after the date on which the President makes
any determinations under paragraph (1), the
President shall submit to the Congress a written statement of the reasons why the President has decided to take action, or refused to
take action, under paragraph (1).
19 U.S.C. § 1862(c)(2).
Finally, section (d) lists the following factors that the
Secretary and the President should consider when acting pursuant to the statute:
(d) Domestic production for national defense; impact of foreign competition on economic welfare of domestic industries
For the purposes of this section, the Secretary
and the President shall, in the light of the requirements of national security and without
excluding other relevant factors, give consideration to domestic production needed for projected national defense requirements, the
capacity of domestic industries to meet such
requirements, existing and anticipated availabilities of the human resources, products,
raw materials, and other supplies and services essential to the national defense, the

App. 29
requirements of growth of such industries and
such supplies and services including the investment, exploration, and development necessary to assure such growth, and the
importation of goods in terms of their quantities, availabilities, character, and use as those
affect such industries and the capacity of the
United States to meet national security requirements. In the administration of this section, the Secretary and the President shall
further recognize the close relation of the economic welfare of the Nation to our national
security, and shall take into consideration the
impact of foreign competition on the economic
welfare of individual domestic industries; and
any substantial unemployment, decrease in
revenues of government, loss of skills or investment, or other serious effects resulting
from the displacement of any domestic products by excessive imports shall be considered,
without excluding other factors, in determining whether such weakening of our internal
economy may impair the national security.
19 U.S.C. § 1862(d).
JURISDICTION AND STANDARD OF REVIEW
This Court has jurisdiction under 28 U.S.C.
§ 1581(i)(2),(4) (2012). Summary judgment is appropriate “if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” USCIT R. 56(a). “Judgment on the pleadings is appropriate where there are

App. 30
no material facts in dispute and the party is entitled to
judgment as a matter of law.” Forest Labs, Inc. v.
United States, 476 F.3d 877, 881 (Fed. Cir. 2007) (citation omitted). Plaintiffs challenge the constitutionality
of section 232. Compl. ¶ 11, June 27, 2018, ECF No. 10;
Pls.’ Br. at 3, 16–42. The issue of a statute’s constitutionality is a question of law appropriate for summary
disposition, which the court reviews “completely and
independently.” See, e.g., Demko v. United States, 216
F.3d 1049, 1052 (Fed. Cir. 2000).
DISCUSSION
Article I, Section I of the U.S. Constitution provides that “all legislative Powers herein granted shall
be vested in a Congress of the United States.” U.S.
Const. art. I, § 1. The Supreme Court established the
standard by which delegations are to be judged in J.W.
Hampton, Jr., & Co. v. United States, 276 U.S. 394, 409
(1928), explaining that “[i]f Congress shall lay down by
legislative act an intelligible principle to which the person or body authorized to ﬁx such rates is directed to
conform, such legislative action is not a forbidden delegation of legislative power.”
Since 1935 no act has been struck down as lacking
an intelligible principle. See Panama Reﬁning Co. v.
Ryan, 293 U.S. 388 (1935); A.L.A. Schechter Poultry
Corp. v. United States, 295 U.S. 495 (1935). The Supreme Court has upheld delegations of authority as
sufﬁcient to guide the executive branch where they
contained standards such as: regulating broadcast

App. 31
licensing as “public interest, convenience, or necessity”
require, National Broadcasting Co. v. United States,
319 U.S. 190, 225–26 (1943); ensuring that a company’s
existence in a holding company does not “unduly or unnecessarily complicate the structure” or “unfairly or inequitably distribute voting power among security
holders[,]” American Power & Light Co. v. SEC, 329
U.S. 90, 104–05 (1946); and setting nationwide airquality standards limiting pollution to the level required “to protect the public health.” Whitman v. Am.
Trucking Ass’ns, Inc., 531 U.S. 457, 472 (2001). Most
importantly for the challenge here, in Algonquin, the
Supreme Court found that section 232 “easily” met the
intelligible principle standard because
[i]t establishes clear preconditions to Presidential action[,]—[i]nter alia, a ﬁnding by the
Secretary of the Treasury that an “article is
being imported into the United States in such
quantities or under such circumstances as to
threaten to impair the national security.”
Moreover, the leeway that the statute gives
the President in deciding what action to take
in the event the preconditions are fulﬁlled is
far from unbounded. The President can act
only to the extent “he deems necessary to adjust the imports of such article and its derivatives so that such imports will not threaten to
impair the national security.” And § 232(c),4

4

Section 232 has been amended since the Supreme Court issued Algonquin. Under the current law, section 232(d) mirrors
what was previously section 232(c) and section 232(c) enumerates
the President’s authority, as was previously codiﬁed in section

App. 32
[a]rticulates a series of speciﬁc factors to be
considered by the President in exercising his
authority under § 232(b). In light of these factors and our recognition that “(n)ecessity . . .
ﬁxes a point beyond which it is unreasonable
and impracticable to compel Congress to prescribe detailed rules . . . ,” we see no looming
problem of improper delegation.
Algonquin, 426 U.S. at 559–60 (citation and footnote
omitted). This court is bound by Algonquin.
Plaintiffs argue unpersuasively that Algonquin
does not control because the plaintiffs in Algonquin
“did not bring a facial challenge to the constitutionality
of section 232,” but rather challenged the President’s
statutory authority to impose a speciﬁc kind of remedy
and argued for a narrow statutory construction to
avoid a nondelegation problem. See Pls.’ Br. at 31–33;
Resp. Mem. Supp. Pls.’ Opp’n Defs.’ Mot. J. Pleadings
& Reply Mem. Supp. Pls.’ Mot. Summary J. at 4–7, Oct.
5, 2018, ECF No. 33 (Pls.’ Reply Br.”). This argument
fails to carry the day, given that the parties in Algonquin argued the nondelegation issue, and the District
Court for the District of Columbia and Supreme Court
squarely addressed it. The district court ruled that section 232 is “a valid delegation of authority by Congress
to the President and confers upon him the power to impose import license fees on oil imports once he determines the fact of threatened impairment of the
national security.” Algonquin SNG, Inc. v. Fed. Energy
232(b). Section 232, substantively, remains the same in relevant
part.

App. 33
Admin., 518 F.2d 1051, 1063 (D.C. Cir. 1975) (Robb, J.,
dissenting) (attaching, in the Appendix, the U.S. District Court for the District of Columbia’s opinion and
order in this action stating that one thrust of the challenge is whether the proclamation at issue “is an unconstitutional delegation by Congress of legislative
power”). Reversing the District Court, the U.S. Court of
Appeals for the District of Columbia found that the
President’s license fee program was not authorized by
the statute, see id. at 1055, 1062. Thereafter, the Supreme Court squarely confronted the nondelegation
challenge in response to the arguments put forth by
parties in their briefs. Algonquin, 426 U.S. at 559–60.
Plaintiffs also argue that Algonquin does not control because, since its issuance, “the legal landscape of
judicial review of presidential decisions involving implementation of federal statutes has changed markedly[.]” See Pls.’ Br. at 29–30. Speciﬁcally, Plaintiffs
argue that the Supreme Court’s decisions explaining
that the President is not an agency and therefore not
subject to review under the Administrative Procedure
Act (“APA”) undercut Algonquin’s relevance. See id. at
29–31 (citing Franklin v. Massachusetts, 505 U.S. 788
(1992); Dalton v. Specter, 511 U.S. 462 (1994)). Thus,
Plaintiffs premise their quest to overcome Algonquin
on their view that the Supreme Court and all parties
in Algonquin assumed a more searching standard of
judicial review, see id. at 29–30, and that without the
availability of such review, the standards articulated
in section 232 must be considered anew to ascertain

App. 34
whether they meet the intelligible principle standard.
See id. at 30–33, 42.
Plaintiffs’ premise cannot withstand scrutiny. Dalton and Franklin did not change “the legal landscape
of judicial review” with respect to section 232. See Pls.’
Br. at 29–30. Indeed, no court before or after Algonquin
held that the President was subject to the APA. See 1
Kenneth Culp Davis, Administrative Law Treatise
§ 1.2 at 8 (2d ed. 1978); 1 Kristin E. Hickman & Richard J. Pierce, Jr., Administrative Law Treatise § 1.2.4
at 15 (6th ed. 2019); see also Franklin, 505 U.S. at 796,
800–01 (holding, deﬁnitively, that the President is not
subject to review under the APA).5 More importantly
for purposes of this case, the APA did not expand judicial review to include review of matters committed to
presidential discretion. The Attorney General’s Manual on the Administrative Procedure Act, considered
an authoritative interpretation of the APA and entitled
to deference, see Vt. Yankee Nuclear Power Corp. v.
Nat. Res. Def. Council, Inc., 435 U.S. 519, 546 (1978),
makes clear that presidential determinations committed to the President’s discretion by an enabling statute
5

Courts had suggested, without deciding the question, that
the APA applied to the President. See Amalgamated Meat Cutters & Butcher Workmen of North America, AFL-CIO v. Connally, 337 F. Supp. 737, 761 (D.D.C. 1971) (Leventhal, J., for
three-judge panel) (noting scholars who believed the President
was an agency under the APA); DeRieux v. Five Smiths, Inc., 499
F.2d 1321, 1332 & n.13 (Temp. Emer. Ct. App. 1974) (relying on
Amalgamated Meat Cutters to review an executive order and
stating that the court’s analysis assumed, for the sake of argument, “that the President is an agency within the meaning of the
APA.”).

App. 35
are not subject to review for rationality, ﬁndings of fact,
or abuse of discretion. See U.S. Dep’t of Justice, Att’y
Gen.’s Manual on the APA at 94–95 (1947) (“Manual”)
(noting, for example, that United States v. George S.
Bush & Co., 310 U.S. 371 (1940), held that the President’s actions under section 336(c) of the Tariff Act of
1930 were unreviewable because the statute left the
determination to the President “if in his judgment” action was necessary); see also Amalgamated Meat Cutters & Butcher Workmen of North America, AFL-CIO
v. Connally, 337 F. Supp. 737, 760 (D.D.C. 1971) (Leventhal, J., for three-judge panel) (noting the rare occasions when Congress commits matters to executive
discretion to avoid judicial review for errors of law and
abuse of discretion). In fact, Dalton acknowledged that
prior decisions similarly found that matters committed
to presidential discretion could not be reviewed for
abuse of that discretion. Dalton, 511 U.S. at 474 (quoting Dakota Cent. Tel. Co. v. S.D. ex rel. Payne, 250 U.S.
163, 184 (1919), for the proposition that “where a claim
‘concerns not a want of [presidential] power, but a mere
excess or abuse of discretion in exerting a power given,
it is clear that it involves considerations which are beyond the reach of judicial power’ ”). Thus, prior to Dalton, and at the time of Algonquin, there was no judicial
review of matters that Congress had committed to
presidential discretion—such as those the President
makes under section 232—for rationality, ﬁndings of
fact, or abuse of discretion. See George S. Bush & Co.,

App. 36
310 U.S. at 379–80; 19 U.S.C. § 1862(c)(1)(A)(ii).6 Instead, both before and after Algonquin, courts assessed
presidential determinations committed to presidential
discretion pursuant to nonstatutory review for being
unconstitutional or in excess of statutorily granted authority.7

6

Plaintiffs, perhaps unintentionally, touch upon this idea in
their reply brief, stating that “even if there w[as] an express provision for judicial review, the courts would be assigned an impossible task.” Pls.’ Reply Br. at 20. Indeed, the task would be
impossible not because Dalton and Franklin changed the legal
landscape for judicial review of presidential action, but because
section 232 commits requisite determinations to the President’s
discretion. See 19 U.S.C. § 1862(c). Judicial review was as much
of an “impossible task” in Algonquin as it is here; neither Dalton
nor Franklin made it any more or less practicable. The delegation
of decision-making authority in section 232 existed at the time of
Algonquin and the Supreme Court nonetheless found that it “easily fulﬁlls” the nondelegation test. Algonquin, 426 U.S. at 559.
This court is thus bound by Algonquin.
7
In addition to establishing judicial power to review the constitutionality of statutes, Marbury v. Madison, 5 U.S. 137 (1803),
demonstrated that courts can review the President’s power under
a statute and determine whether the President acted in excess of
such statutory powers. This latter form of review has been described as nonstatutory review and is to be contrasted with the
type of judicial review provided for by a speciﬁc statute, such as
the APA. See Jonathan R. Siegel, Suing the President: Nonstatutory Review Revisited, 97 Colum. L. Rev. 1612, 1613–14 (1997)
(discussing nonstatutory review). For example, in United States
v. Yoshida International, Inc., 526 F.2d 560 (C.C.P.A. 1975), the
Court of Customs and Patent Appeals (“CCPA”) addressed
whether Presidential Proclamation 4074 was within the President’s delegated authority. Proclamation 4074 declared, inter
alia, a national emergency related to the country’s economic position, and assessed a supplemental duty of 10% on all dutiable
products. Yoshida International, 526 F.2d at 567–68. Further, the

App. 37
Here, determinations pursuant to section 232 are
committed to presidential discretion. See 19 U.S.C.
§ 1862(c). Section 232 empowers the President to either concur or not in the Secretary’s ﬁnding as to
whether an article under investigation constitutes a
threat to national security and to “determine the nature and duration of the action that, in the judgment
of the President, must be taken to adjust the imports
of the article and its derivatives so that such imports
will not threaten to impair the national security.” 19
proclamation authorized the President to, at any time, modify or
terminate, in whole or in part, any proclamation made under his
authority. Id. at 568. The CCPA held that although neither the
Tariff Act of 1930 nor the Trade Expansion Act of 1962 authorized
the proclamation, its adoption fell within the powers granted to
the President under the Trading with the Enemy Act, i.e., to regulate or prohibit importation of goods during periods of war or
national emergency. Id. at 576. The court reviewed the action not
under the APA or any statute conferring judicial review but
sought to answer the question of whether Proclamation 4074 was
an ultra vires presidential act. Id. at 583.
Likewise, U.S. Cane Sugar Reﬁners’ Ass’n v. Block, 683 F.2d 399
(C.C.P.A. 1982), addressed whether the President acted within
his delegated authority in issuing Proclamation 4941, which limited entry of sugar to a speciﬁc quantity between May 11, 1982,
and June 30, 1982, and then to an amount as set by the Secretary
of Agriculture. Under section 201(a) of the Trade Expansion Act
of 1962, the President could proclaim additional import restrictions as deemed appropriate to carry out a trade agreement
entered pursuant to section 201 between June 30, 1962, and July
1, 1967. Id. at 401. The CCPA upheld the President’s action, holding that the Geneva Protocol of the General Agreement on Tariffs
and Trade, which the President invoked in the proclamation, is a
trade agreement for purposes of section 201, and thus the President’s act was authorized by statute. Id. at 402, 404. Such reviews
of presidential action demonstrate the availability of nonstatutory review separate and distinct from review under the APA.

App. 38
U.S.C. § 1862(c)(1)(A)(i)-(ii). The President’s determination of whether to concur is not qualiﬁed by any
language or standard, establishing that it is left to
his discretion. Accordingly, the President’s determination as to the form of remedial action is a matter
“in the judgment of the President[.]” 19 U.S.C.
§ 1862(c)(1)(A)(ii). By committing the determinations
of whether to concur with the Secretary and what remedial action to take, if any, to the judgment of the
President, Congress precluded an inquiry for rationality, fact ﬁnding, or abuse of discretion. See Manual at
94–96; George S. Bush & Co., 310 U.S. at 379–80. Notwithstanding Dalton and Franklin, because the statutory language here commits determinations to the
President’s discretion, the review available for presidential action has always been limited to constitutionality and action beyond statutory authority. Thus,
there has been no change in the legal landscape since
Algonquin as far as section 232 is concerned.
Nonetheless, Plaintiffs ask the court to consider
the broad authority given to the President that triggers executive action, i.e., the “essentially unlimited
deﬁnition of national security,” as well as the “limitless
grant of discretionary remedial powers,” as indicative
that the statute does not have an intelligible principle.
See Pls.’ Br. at 5–6, 19–20; see also 19 U.S.C. § 1862(c)–
(d). Plaintiffs emphasize the expansive options available to the President to confront what he deems a national security issue. See Pls.’ Br. at 6, 19–20. Plaintiffs
argue the President is only limited by his imagination,

App. 39
see id. at 20, and that the President could take any
number of actions under the statute, including
imposing tariffs on goods that are currently
duty-free and increasing tariffs above those
currently existing under the law for the subject article—with no limit on the level of the
tariff. Thus, section 232 permits the President
to impose tariffs—taxes—in unlimited
amounts and of unlimited duration on any imported articles—or, as in the case with the
steel tariff, on an entire class of imported articles. The President may also impose quotas—whether or not there are existing
quotas—and with no limit on how much a reduction from an existing quota (or present or
historical level of imports) there can be for the
subject article. In addition, the President
could choose to impose licensing fees for the
subject article, either in lieu of or in addition
to any tariff or quota already in place. Conversely, the President may also reduce an existing tariff or increase a quota, whenever he
concludes that such a reduction or increase is
in the interest of national security, as elastically deﬁned. And for all these changes in
the law, the President may select the duration
of each such change without any limits on his
choice, and he may make any changes with no
advance notice or delay in implementation.
Pls.’ Br. at 6.8 Admittedly, the broad guideposts of subsections (c) and (d) of section 232 bestow ﬂexibility on
8

Plaintiffs emphasize the range of actions available to the
President under section 232 and reference speciﬁc acts that he

App. 40

has taken. See Pls.’ Br. at 12, 19–20; Pls.’ Reply Br. at 5–6, 12–
13. For example, on March 8, 2018, the President issued Proclamation 9705 imposing a 25% tariff on all imported steel articles,
other than those imported from Canada and Mexico. See Proclamation 9705 of March 8, 2018, 83 Fed. Reg. 11,625 (Mar. 15,
2018). The President also enacted Proclamation 9704 under section 232, which imposed a tariff of 10% on aluminum articles,
other than those imported from Canada and Mexico. See Proclamation 9704 of March 8, 2018, 83 Fed. Reg. 11,619 (Mar. 15,
2018). Subsequently, the President issued several amendments to
Proclamation 9705 under section 232, providing for various
country-based exemptions from the steel tariff. See Proclamation
9711 of March 22, 2018, 83 Fed. Reg. 13,361 (Mar. 28, 2018) (exempting, in addition to Canada and Mexico, the following countries from the steel tariff: the Commonwealth of Australia
(“Australia”), the Argentine Republic (“Argentina”), the Republic
of South Korea (“Korea”), the Federative Republic of Brazil (“Brazil”), and the European Union (“EU”) on behalf of its member
countries); Proclamation 9740 of April 30, 2018, 83 Fed. Reg.
20,683 (May 7, 2018) (announcing an agreement with Korea to
impose a quota on Korean imports of steel articles into the United
States, extending the temporary exemption from the steel tariff
for Argentina, Australia, and Brazil, and extending the temporary exemption for Canada, Mexico, and the EU); Proclamation
9759 of May 31, 2018, 83 Fed. Reg. 25,857 (June 5, 2018) (announcing agreements to exempt on a long-term basis Argentina,
Australia, and Brazil from the steel tariff announced in Proclamation 9705). Plaintiffs also note the President is not required to
apply his chosen remedy to imports from all countries but can pick
and choose a remedy. See Pls.’ Br. at 7, 19–20. Such discretion
was recently demonstrated, Plaintiffs note, when the President
doubled the tariff on steel imports from Turkey with no national
security justiﬁcation beyond that which is applicable to steel imports from other countries. See Proclamation 9772 of August 10,
2018, 83 Fed. Reg. 40,429 (Aug. 15, 2018) (raising the steel tariff
to 50% for Turkey); see also Pls.’ Reply Br. at 12 (reproducing the
proclamation as Exhibit 15 to Supp. Mem. Supp. Pls.’ Mot. Summary J., Aug. 16, 2018, ECF No. 24).

App. 41
the President and seem to invite the President to regulate commerce by way of means reserved for Congress, leaving very few tools beyond his reach. See 19
U.S.C. § 1862(c) (providing the President shall “determine the nature and duration of the action that, in the
judgment of the President, must be taken to adjust the
imports of the article and its derivatives so that such
imports will not threaten to impair the national security.”), and 19 U.S.C. § 1862(d) (providing that the President shall take into consideration “the close relation
of the economic welfare of the Nation to our national
security, . . . any substantial unemployment, decrease
in revenues of government, loss of skills or investment,
or other serious effects resulting from the displacement of any domestic products by excessive imports
. . . , without excluding other factors, in determining
whether such weakening of our internal economy may
impair the national security.”).
To be sure, section 232 regulation plainly unrelated to national security would be, in theory, reviewable as action in excess of the President’s section 232
authority. See, e.g., Indep. Gasoline Marketers Council,
Inc. v. Duncan, 492 F. Supp. 614, 620 (D.D.C. 1980)
(holding that the President’s imposition of a gasoline
“conservation fee” pursuant to section 232(b) of the
Trade Expansion Act was not authorized by the statute). However, identifying the line between regulation
of trade in furtherance of national security and an impermissible encroachment into the role of Congress
could be elusive in some cases because judicial review
would allow neither an inquiry into the President’s

App. 42
motives nor a review of his fact-ﬁnding. See George S.
Bush & Co., 310 U.S. at 379–80; Florsheim Shoe Co. v.
U.S., 744 F.2d 787, 796–97 (Fed. Cir. 1984). One might
argue that the statute allows for a gray area where the
President could invoke the statute to act in a manner
constitutionally reserved for Congress but not objectively outside the President’s statutory authority, and
the scope of review would preclude the uncovering of
such a truth. Nevertheless, such concerns are beyond
this court’s power to address, given the Supreme
Court’s decision in Algonquin, 426 U.S. at 558–60.
CONCLUSION
For the foregoing reasons, the Plaintiffs’ motion
for summary judgment is denied, and the Defendants’
motion for judgment on the pleadings is granted. Judgment will enter accordingly.
/s/ Claire R. Kelly
Claire R. Kelly, Judge
/s/ Jennifer Choe-Groves
Jennifer Choe-Groves, Judge
Dated: March 25, 2019
New York, New York

Katzmann, Judge, dubitante.1 Section 232 of the
Trade Expansion Act of 1962, as amended in 19 U.S.C.
1

“[E]xpressing the epitome of the common law spirit, there is
the opinion entered dubitante – the judge is unhappy about some

App. 43

aspect of the decision rendered, but cannot quite bring himself to
record an open dissent.” Lon Fuller, Anatomy of the Law 147
(1968). See generally Jason Czarnezki, The Dubitante Opinion,
39 Akron L. Rev. 1 (2006).
The dubitante opinion has a well-established place in American jurisprudence. See, e.g., Radio Corp. of America v. United
States, 341 U.S. 412, 421 (1951) (Frankfurter, J., dubitante)
(“Since I am not alone in entertaining doubts about this case they
had better be stated.”); O’Keefe v. Smith, Hinchman & Grylls Associates, 380 U.S. 359, 371–72 (1965) (Douglas, J., dubitante) (“I
would not be inclined to reverse a Court of Appeals that disagreed
with . . . ﬁndings as exotic as we have here.”); Kartell v. Blue
Shield of Mass., Inc., 592 F.2d 1191, 1195–96 (1st Cir. 1979) (Cofﬁn, C.J., dubitante) (“While I share the court’s desire to defer to
Massachusetts courts for all the help we can get . . . I confess to
some uneasiness about our privilege as an appellate court simply
to abstain when the district court has not seen ﬁt to do so . . . I
hope the court is correct.”); Feldman v. Allegheny Airlines, Inc.,
524 F.2d 384, 393 (2d Cir. 1975) (Friendly, J., concurring dubitante) (“Although intuition tells me that the Supreme Court of
Connecticut would not sustain the award made here, I cannot
prove it. I therefore go along with the majority, although with the
gravest doubts.”); Wi-LAN, Inc. v. Kilpatrick Townsend & Stockton LLP, 684 F.3d 1364, 1374 (Fed. Cir. 2012) (Reyna, J., dubitante) (“As I cannot prove or disprove our result, I go along with
the majority – but with doubt.”).
The dubitante opinion has also been issued where – as I do
in the case before us now – a judge considers himself or herself to
be constrained or bound by precedent, but wishes to suggest an
alternative view. See., e.g., Weaver v. Marine Bank, 683 F.2d 744,
749 (3rd Cir. 1982) (Sloviter, J., dubitante) (“With great deference
to my colleagues on the court when the [precedential] decision
was rendered, it appears to rest on a misapprehension and misapplication of the Supreme Court’s decision.”); United States v.
Jeffries, 692 F.3d 473, 483 (6th Cir. 2012) (Sutton, J., dubitante)
(“Sixth Circuit precedent compels this interpretation of § 875(c)
. . . I write separately because I wonder whether our initial decisions in this area (and those of other courts) have read the
statute the right way from the outset.”); PETA v. U.S. Dept. of

App. 44
§ 1862 (2012) (“section 232”), provides that if the Secretary of Commerce ﬁnds that an “article is being imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security,” the President is authorized to “determine the nature and duration of the action that, in
the judgment of the President, must be taken to adjust
the imports of the article and its derivatives so that
such imports will not threaten to impair the national
security.”
Section 232 was enacted pursuant to the power
granted exclusively to Congress by Article I, Section 8
of the Constitution, which provides: “The Congress
shall have Power To lay and collect Taxes, Duties, Imposts and Excises,” as well as “To regulate Commerce
with foreign Nations.” There is no provision in the Constitution that vests in the President the same “Power
To Lay and collect . . . Duties.” In short, the power to
impose duties is a core legislative function.
On March 18, 2018, after receiving the report of
the Secretary of Commerce, the President, invoking
section 232, issued two proclamations imposing tariffs
Agriculture, 797 F.3d 1087, 1099 (D.C. Cir. 2015) (Millett, J., dubitante) (“If the slate were clean, I would feel obligated to dissent
from the majority’s standing decision. But I am afraid that the
slate has been written upon, and this court’s . . . precedent will
not let me extricate this case from its grasp.”); Brenndoerfer v.
U.S. Postal Service, 693 Fed.Appx. 904, 906–07 (Fed. Cir. 2017)
(Wallach, J., concurring dubitante) (“Because I am bound by our
precedent, I agree with the majority that [Petitioner’s] petition
must be dismissed for lack of subject matter jurisdiction. However, I reiterate that ‘[i]t may be time’ [to revisit the issue] in ‘light
of recent Supreme Court precedent.’ ” (citations omitted)).

App. 45
of 25% on steel and 10% on aluminum imports effective
March 23, 2018,2 while providing for ﬂexibility with regard to country and product applicability of the tariffs.
The new tariffs were to be imposed in addition to duties already in place, including antidumping and countervailing duties under domestic laws designed to
preserve fair trade for the American economy.3 It appears that the March 18, 2018 proclamations were the
ﬁrst presidential actions based on section 232 in more
than thirty years.4

2

Proclamation 9704 of March 8, 2018, 83 Fed. Reg. 11,619
(Mar. 15, 2018) amended in Proclamation 9776 of August 29,
2018, 83 Fed. Reg. 45,019 (Sept. 4, 2018) and Proclamation 9705
of March 8, 2018, 83 Fed. Reg. 11,625 (Mar. 15, 2018) amended in
Proclamation 9777 of August 29, 2018, 83 Fed. Reg. 45,025 (Sept.
4, 2018).
3
“Dumping occurs when a foreign company sells a product
in the United States at a lower price than what it sells that same
product for in its home market. Such a product can be described
as being sold below ‘fair value.’ ” Sioux Honey Ass’n v. Hartford
Fire Ins. Co., 672 F.3d 1041, 1046 (Fed. Cir. 2012). “[A] countervailable subsidy exists where a foreign government provides a ﬁnancial contribution which confers a beneﬁt to the recipient.”
ATC Tires Private Ltd. v. United States, 42 CIT ___, ___, 322
F. Supp. 3d 1365, 1366–67 (2018). To empower the Department of
Commerce (“Commerce”) to offset harmful economic distortions
caused by countervailable subsidies and dumping, Congress enacted the Tariff Act of 1930. Sioux Honey, 672 F.3d at 1046. Under the Tariff Act’s framework, Commerce may investigate
potential countervailable subsidies or dumping and, if appropriate, issue orders imposing duties on the merchandise under investigation. 19 U.S.C. §§ 1671, 1673; see also Sioux Honey, 672
F.3d at 1046; ATC Tires, 322 F. Supp. 3d at 1366–67.
4
The Congressional Research Service has reported in a study
that “[p]rior to the [current] Administration, a President arguably
last acted under Section 232 in 1986. In that case, Commerce

App. 46
The question before us may be framed as follows:
Does section 232, in violation of the separation of powers, transfer to the President, in his virtually unbridled
discretion, the power to impose taxes and duties that
is fundamentally reserved to Congress by the Constitution? My colleagues, relying largely on a 1976 Supreme Court decision, conclude that the statute passes
constitutional muster. While acknowledging the binding force of that decision, with the beneﬁt of the fullness of time and the clarifying understanding borne of
recent actions, I have grave doubts. I write, respectfully, to set forth my concerns.
It was the genius of the Framers of the Constitution of this Nation, forged from the struggle against
tyranny, that they declared the essential importance of
the separation of the powers.5 In The Federalist No. 47,
James Madison wrote that “[n]o political truth is certainly of greater intrinsic value, or is stamped with the
authority of more enlightened patrons of liberty than”
the separation of powers. The Federalist No. 47, at
301 (James Madison) (Clinton Rossiter ed., 1961). “The
accumulation of all powers, legislative, executive and
judiciary in the same hands . . . must justly be
determined that imports of metal-cutting and metal-forming machine tools threatened to impair national security. . . . [T]he President sought voluntary export restraint agreements with leading
foreign exporters, and developed domestic programs to revitalize
the U.S. industry.” Cong. Research Serv., R45249, Section 232 Investigations: Overview and Issues for Congress 4 (2018).
5
See generally M.J.C. Vile, Constitutionalism and the Separation of Powers, 156–175 (1967) (reprinted in 1969); Keith E.
Whittington & Jason Iuliano, The Myth of the Nondelegation Doctrine, 165 U. Pa. L. Rev. 379 (2017).

App. 47
pronounced the very deﬁnition of tyranny.” Id. Although the Constitution does not have an explicit provision recognizing the separation of powers, the
Constitution does identify three distinct types of governmental power – legislative, executive and judicial –
and,
in
the Vesting Clauses, commits them to three distinct
branches of Government. Those clauses provide that
“[a]ll legislative Powers herein granted shall be vested
in a Congress of the United States, which shall consist
of a Senate and House of Representatives,” U.S. Const.
art. I, § 1; “[t]he executive Power shall be vested in a
President of the United States,” U.S. Const. art. II, § 1,
cl. 1; and “[t]he judicial Power of the United States[ ]
shall be vested in one supreme Court, and in such inferior Courts as the Congress may from time to time
ordain and establish,” U.S. Const. art. III, § 1. Insofar
as the Constitution departs from a pure separation of
powers model and allows some sharing of powers
across the branches of government, those exceptions
are set out in text. The President is given a share of the
legislative power through the prerogative of the presidential veto. U.S. Const. art. I, § 7. The Senate is given
a share of the executive power through the right to advise and consent to the appointment of government ofﬁcers. U.S. Const. art. II, § 2.
A review of Supreme Court jurisprudence, from
the early days of the Republic, evinces afﬁrmation of
the principle that the separation of powers must be
respected and that the legislative power over trade
cannot be abdicated or transferred to the Executive. Indeed, the ﬁrst case raising the question of

App. 48
unconstitutional delegation of legislative power was a
trade case, Cargo of the Brig Aurora v. United States,
11 U.S. (7 Cranch) 382, 382–85 (1813). That case involved the condemnation and seizure of cargo of the
brig Aurora in the Port of New Orleans, imported from
Great Britain in violation of the Non-Intercourse Act
of 1809 (“1809 Act”). Ch. 242, 2 Stat. 528 (1809). The
1809 Act, which sought to keep the United States from
entanglement in the war between Britain and France
by forbidding the importation of goods from either of
those nations, had authorized the President to lift the
embargo upon his declaration that either of those nations had ceased to violate the neutral commerce of the
United States. Id. When the 1809 Act expired, the NonIntercourse Act of 1810 extended its terms but temporarily suspended its implementation to permit each of
the two warring nations an opportunity to renounce
her policies against American shipping and to announce respect for American neutrality. The President
was again authorized to lift the embargo upon declaration by proclamation that the nation had “cease[d] to
violate the neutral commerce of the United States.”
Cargo of the Brig Aurora, 11 U.S. at 384. The President
issued a proclamation declaring that France had revoked her edicts such that she was now respectful of
America’s neutral commerce, thus lifting the embargo
against France. Id. The President, however, determined that Britain had not modiﬁed its offending
edicts, and thus the embargo against her remained in
place. Id. Counsel for the owner of the cargo contended
that Congress had impermissibly “transfer[red] the
legislative power to the President” and that Congress

App. 49
could not enact legislation which predicated the revival of an expired law upon a proclamation by the
President attesting to facts as articulated by Congress.
Id. at 386. In rejecting this argument and upholding
the act, the Court ruled that it could “see no sufﬁcient
reason[ ] why the legislature should not exercise it [sic]
discretion in reviving the act, . . . either expressly or
conditionally, as their judgment should direct . . . upon
the occurrence of any subsequent combination of
events.” Id. at 388. In other words, the law was constitutional because the President was acting as a factﬁnder, not a lawmaker.
By the time the Supreme Court addressed its next
nondelegation challenge in a trade case, Field v. Clark,
143 U.S. 649 (1892), it had previously observed that
“[t]he line has not been exactly drawn which separates
those important subjects, which must be entirely regulated by the legislature itself, from those of less interest, in which a general provision may be made, and
power given to those who are to act under such general
provisions to ﬁll up the details.” Wayman v. Southard,
23 U.S. (10 Wheat.) 1, 20 (1825). In the 1892 case, Field,
supra, importers brought a suit claiming that duties
imposed pursuant to the Tariff Act of 1890 should be
refunded because that act was an unconstitutional delegation of legislative power. The Tariff Act of 1890 provided:
That with a view to secure reciprocal trade
with countries producing [speciﬁed] articles
. . . whenever, and so often as the [P]resident
shall be satisﬁed that the [G]overnment of

App. 50
any country producing . . . such articles, imposes duties or other exactions upon the agricultural or other products of the United
States, which in view of the free introduction
of . . . [such articles] into the United States he
may deem to be reciprocally unequal and unreasonable, he shall have the power and it
shall be his duty to suspend, by proclamation
to that effect, the provisions of this act relating to the free introduction of [such articles]
. . . for such time as he shall deem just, and in
such case and during such suspension duties
shall be levied, collected, and paid upon [such
articles]. . . .
Field, 143 U.S. at 697–98. In rejecting the claim that
the Tariff Act of 1890 unconstitutionally delegated legislative power to the President, the Court stated:
That Congress cannot delegate legislative
power to the [P]resident is a principle universally recognized as vital to the integrity and
maintenance of the system of government ordained by the Constitution. The [A]ct of October 1, 1890, in the particular under
consideration, is not inconsistent with that
principle. It does not, in any real sense, invest
the [P]resident with the power of legislation.
. . . Congress itself prescribed, in advance, the
duties to be levied, collected and paid . . .
while the suspension lasted. Nothing involving the expediency or the just operation of
such legislation was left to the determination
of the [P]resident. . . . But when he ascertained the fact that duties and exactions, reciprocally unequal and unreasonable, were

App. 51
imposed upon the agricultural or other products of the United States by a country producing and exporting sugar, molasses, coffee, tea
or hides, it became his duty to issue a proclamation declaring the suspension, as to that
country, which [C]ongress had determined
should occur. He had no discretion in the
premises except in respect to the duration of
the suspension so ordered. But that related
only to the enforcement of the policy established by [C]ongress. As the suspension was
absolutely required when the [P]resident ascertained the existence of a particular fact, it
cannot be said that in ascertaining that fact,
and in issuing his proclamation, in obedience
to the legislative will, he exercised the function of making laws.
Id. at 692–93.
The next case adjudicating a challenge to a trade
statute on the grounds of unconstitutional delegation
of legislative power to the President was J.W. Hampton, Jr. & Co. v. United States, 276 U.S. 394 (1928). An
importer of barium dioxide challenged the tariff assessed on a shipment by virtue of the “ﬂexible tariff
provision” of the Tariff Act of 1922, enacted:
to secure by law the imposition of customs duties on articles of imported merchandise
which should equal the difference between
the cost of producing in a foreign country the
articles in question and laying them down for
sale in the United States, and the cost of producing and selling like or similar articles in
the United States, so that the duties not only

App. 52
secure revenue, but at the same time enable
domestic producers to compete on terms of
equality with foreign producers in the markets of the United States.
Id. at 404. In that provision, Congress authorized the
President to adjust the duties set by the statute if the
President determined after investigation that the duty
did not “equalize . . . differences in costs of production
in the United States and the principal competing country. . . . Provided, [t]hat the total increase or decrease
of such rates of duty shall not exceed 50 per centum of
the rates speciﬁed” by statute. Id. at 401. Noting that
the “difference which is sought in the statute is perfectly clear and perfectly intelligible,” the Court also
observed that it was difﬁcult for Congress to ﬁx the
rates in the statute. Id. at 404. Accordingly, the Tariff
Commission was assigned to “assist in . . . obtaining
needed data and ascertaining the facts justifying readjustments,” to “make an investigation and in doing so
must give notice to all parties interested and an opportunity to adduce evidence and to be heard.” Id. The
President would then “proceed to pursue his duties under the [A]ct and reach such conclusion as he might
ﬁnd justiﬁed by the investigation[,] and to proclaim the
same, if necessary.” Id. at 405.
Noting that the Federal Constitution “divide[s] the
governmental power into three branches,” the
Hampton Court stated that “it is a breach of the national fundamental law if Congress gives up its legislative powers and transfers it to the President. . . .” Id.
at 406. However, Congress could “invoke the action” of

App. 53
the Executive “in so far as the action invoked shall not
be an assumption of the constitutional ﬁeld of action of
[the Legislative] branch.” Id. “[I]n determining what it
may do in seeking assistance from [the Executive], the
extent and character of that assistance must be ﬁxed
according to common sense and the inherent necessities of the governmental co-ordination.” Id. Then the
Hampton court announced what has come to be known
as the “intelligible principle” formulation: “If Congress
shall lay down by legislative act an intelligible principle to which the person or body authorized to ﬁx such
rates is directed to conform, such legislative action is
not a forbidden delegation of legislative power.” Id. at
409. Citing to Field, supra, the Court pointed to the
limited and circumscribed nature of the Executive action, concluding the President was:
not in any real sense invest[ed] . . . with the
power of legislation, because nothing involving the expediency or just operation of such
legislation was left to the determination of the
President; that the legislative power was exercised when Congress declared that the suspension should take effect upon a named
contingency.
Id. at 410. The President “was the mere agent of the
law-making department.” Id. at 411. “What the President was required to do was merely in execution of the
act of Congress.” Id. at 410–11.
The “intelligible principle” standard is the standard which has since been applied to determine whether
there has been an impermissible delegation of

App. 54
legislative power. As my colleagues note, in the years
since the “intelligible principle” was announced, and in
cases involving numerous statutes, only twice has the
Court invalidated a statute because it impermissibly
delegated the power vested in the Congress to the Executive. “In the history of the Court we have found the
requisite ‘intelligible principle’ lacking in only two
statutes, one of which provided literally no guidance
for the exercise of discretion, and the other of which
conferred authority to regulate the entire economy on
the basis of no more precise a standard than stimulating the economy by assuring ‘fair competition.’ ” Whitman v. Am. Trucking Ass’ns, Inc., 531 U.S. 457, 474
(2001) (citing Panama Reﬁning Co. v. Ryan, 293 U.S.
388 (1935) and A.L.A. Schechter Poultry Corp. v.
United States, 295 U.S. 495 (1935)). Since 1935, the
Court has never invalidated a statute because of impermissible delegation of legislative power to the Executive. This deference “is a reﬂection of the necessities
of modern legislation dealing with complex economic
and social problems. . . . Necessity therefore ﬁxes a
point beyond which it is unreasonable and impracticable to compel Congress to prescribe detailed rules.”
American Power & Light Co. v. SEC, 329 U.S. 90, 105
(1946).
In the one trade case before the Court since Hampton where it was contended that the statute at issue
constituted an unconstitutional delegation of legislative power to the Executive, the statute in question
was the one before us now – section 232. See Fed. Energy Admin. v. Algonquin SNG, Inc., 426 U.S. 548

App. 55
(1976). In that case – after a determination that foreign petroleum was being imported into the United
States in such quantities and at such low costs as to
threaten to impair national security by inhibiting the
development of domestic production and reﬁnery capacity – the President imposed license fees upon the
exporters in an effort to control imports pursuant to
section 232. The Attorney General of the Commonwealth of Massachusetts and others brought suit, primarily making the narrow statutory claim that while
section 232 authorized the President to adjust the imports of petroleum and petroleum products by imposing quotas, the remedy that the President sought,
import licensing fees, was not authorized by the statute. Id. at 556. They also argued that unless this construction was adopted, the Court would have to reach
the constitutional question of whether section 232 was
an impermissible delegation of legislative power to the
President. Id. at 558–59. The Supreme Court opinion,
as my colleagues note, not only decided (in favor the
Federal Energy Administration) the statutory question as to whether licenses were permissible, but also
reached the constitutional question. Referencing the
“intelligible principle,” the Court ruled that “[e]ven if
§ 232(b) is read to authorize the imposition of a license
fee system, the standards that it provides the President in its implementation are clearly sufﬁcient to
meet any delegation doctrine attack.” Id. at 559.
Of course, as a lower court, it behooves us to follow
the decision of the highest court. It can also be observed that new developments and the record of

App. 56
history may supplement and inform our understanding of law. Indeed, the Algonquin court concluded with
the following:
Our holding today is a limited one. As respondents themselves acknowledge, a license
fee as much as a quota has its initial and direct impact on imports, albeit on their price as
opposed to their quantity. As a consequence,
our conclusion here, fully supported by the
relevant legislative history, that the imposition of a license fee is authorized by § 232(b)
in no way compels the further conclusion that
any action the President might take, as long
as it has even a remote impact on imports, is
also so authorized.
Id. at 571 (emphasis in original).
Analyzing the delegation question from the face of
the statute, the Algonquin court took note of “clear conditions to Presidential action” that established an intelligible principle restricting presidential action: The
Secretary is required to make a ﬁnding that “an article
is being imported into the United States in such quantities or under such circumstances as to threaten to impair the national security.” Id. at 559. “The President
can act only to the extent ‘he deems necessary to adjust
the imports of such article and its derivative so that
such imports will not threaten to impair the national
security.’ And § 232(c) articulates a series of speciﬁc
factors to be considered by the President in exercising
his authority under § 232(b).” Id. at 559. While section
232 states as the Court recited, there is no statutory

App. 57
requirement that the President’s actions match the
Secretary’s report or recommendations. The President
is not bound in any way by any recommendations made
by the Secretary, and he is not required to base his
remedy on the report or the information provided to
the Secretary through any public hearing or submission of public comments. There is no rationale provided
for how a tariff of 25% was derived in some situations,
and 10% in others. There is no guidance provided on
the remedies to be undertaken in relation to the expansive deﬁnition of “national security” in the statute – a
deﬁnition so broad that it not only includes national
defense but also encompasses the entire national economy. The record reveals, for example, that the Secretary of Defense stated that “the U.S. military
requirements for steel and aluminum each only represent about three percent of U.S. production.”6
As the preceding review of the trilogy of Aurora,
Field, and Hampton evinces, the trade statutes in
those cases did not impermissibly transfer the legislative function to the Executive because they provided
ascertainable standards to guide the President –
standards such that the congressional will had been
articulated and was thus capable of effectuation. What
we have come to learn is that section 232, however, provides virtually unbridled discretion to the President
with respect to the power over trade that is reserved
by the Constitution to Congress. Nor does the statute
6

Letter from James N. Mattis, Secretary of Defense, to Wilbur L. Ross Jr., Secretary of Commerce (2018), Pl.’s Mot. for Summary J. (July 19, 2018) at Exh. 8, ECF No. 20-7.

App. 58
require congressional approval of any presidential actions that fall within its scope.7 In short, it is difﬁcult
to escape the conclusion that the statute has permitted
the transfer of power to the President in violation of
the separation of powers.
To note these concerns is not to diminish in any
way the reality, sanctioned under established constitutional principles, that in the workings of an increasingly complex world, Congress may assign
responsibilities to the Executive to carry out and implement its policy. Nor is it to ignore the ﬂexibility that
can be allowed the President in the conduct of foreign
affairs. See United States v. Curtiss-Wright Export
Corp, 299 U.S. 304 (1936). However, that power is also
not unbounded, even in times of crisis. See Hamdi v.
Rumsfeld, 542 U.S. 507, 536 (2004) (citing Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 587 (1952)).8

7

Compare the Crude Oil Windfall Proﬁt Tax Act of 1980, creating a joint disapproval resolution provision under which Congress can override presidential actions in the case of adjustments
to petroleum or petroleum product imports). The Crude Oil Windfall Proﬁt Tax Act of 1980, § 402, Pub. L. 96-223, 19 U.S.C. § 1962,
94 Stat. 229, repealed by Omnibus Trade and Competitiveness
Act of 1988, Pub. L. No. 100-418, 102 Stat. 1107, 1322.
8
Regarding the interplay between the Constitution and statute, one commentator has observed:
The Constitution grants Congress the “Power To lay
and collect Taxes, Duties, Imposts and Excises” and
“To regulate Commerce with foreign Nations.” The
president has no similar grant of substantive authority
over economic policy, international or domestic. Consequently, international trade policy differs substantially
from other foreign affairs issues, such as war powers,

App. 59
In the end, I conclude that, as my colleagues hold,
we are bound by Algonquin, and thus I am constrained
to join the judgment entered today denying the Plaintiffs’ motion and granting the Defendants’ motion. I respectfully suggest, however, that the fullness of time
can inform understanding that may not have been
available more than forty years ago. We deal now with
real recent actions, not hypothetical ones. Certainly,
those actions might provide an empirical basis to revisit assumptions. If the delegation permitted by section 232, as now revealed, does not constitute excessive
delegation in violation of the Constitution, what
would?
/s/ Gary S. Katzmann
Gary S. Katzmann, Judge

where the president shares constitutional authority
with Congress. Where international trade policy is concerned, the president’s authority is almost entirely
statutory.
Timothy Meyer, Trade, Redistribution, and the Imperial Presidency, 44 Yale J. Int’l L. Online 16 (2018) (footnotes omitted) available at http://www.yjil.yale.edu/features-symposium-international
trade-in-the-trump-era/.

App. 60
UNITED STATES COURT OF
INTERNATIONAL TRADE
AMERICAN INSTITUTE
FOR INTERNATIONAL
STEEL, INC., SIM-TEX, LP,
and KURT ORBAN
PARTNERS, LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United
States Customs and
Border Protection,

Before: Claire R.
Kelly, Jennifer
Choe-Groves &
Gary S. Katzmann,
Judges
Court No. 18-00152

Defendants.
JUDGMENT
Upon consideration of Plaintiffs, American Institute for International Steel, Inc., Sim-Tex LP, and
Kurt Orban Partners, LLC’s motion for summary judgment and Defendants, United States and Kevin K.
McAleenan’s motion for judgment on the pleadings,
and all other papers ﬁled in this action, and in accordance with the opinions issued on this date, it is

App. 61
ORDERED that Plaintiffs’ motion is denied; it is
further
ORDERED that Defendants’ motion is granted;
and it is further
ORDERED that judgment is entered for Defendants.
/s/ Claire R. Kelly
Claire R. Kelly, Judge
/s/ Jennifer Choe-Groves
Jennifer Choe-Groves, Judge
/s/ Gary S. Katzmann
Gary S. Katzmann, Judge
Dated: March 25, 2019
New York, New York

App. 62
TITLE 19—CUSTOMS DUTIES
§ 1862. Safeguarding national security
(a) Prohibition on decrease or elimination of
duties or other import restrictions if such
reduction or elimination would threaten
to impair national security
No action shall be taken pursuant to section
1821(a) of this title or pursuant to section 1351 of this
title to decrease or eliminate the duty or other import
restrictions on any article if the President determines
that such reduction or elimination would threaten to
impair the national security.
(b) Investigations by Secretary of Commerce
to determine effects on national security
of imports of articles; consultation with
Secretary of Defense and other officials;
hearings; assessment of defense requirements; report to President; publication in
Federal Register; promulgation of regulations
(1)(A) Upon request of the head of any department or agency, upon application of an interested
party, or upon his own motion, the Secretary of Commerce (hereafter in this section referred to as the ‘‘Secretary’’) shall immediately initiate an appropriate
investigation to determine the effects on the national
security of imports of the article which is the subject of
such request, application, or motion.

App. 63
(B) The Secretary shall immediately provide notice to the Secretary of Defense of any investigation initiated under this section.
(2)(A) In the course of any investigation conducted under this subsection, the Secretary shall—
(i) consult with the Secretary of Defense regarding the methodological and policy questions
raised in any investigation initiated under paragraph (1),
(ii) seek information and advice from, and
consult with, appropriate ofﬁcers of the United
States, and
(iii) if it is appropriate and after reasonable
notice, hold public hearings or otherwise afford interested parties an opportunity to present information and advice relevant to such investigation.
(B) Upon the request of the Secretary, the Secretary of Defense shall provide the Secretary an assessment of the defense requirements of any article that is
the subject of an investigation conducted under this
section.
(3)(A) By no later than the date that is 270 days
after the date on which an investigation is initiated under paragraph (1) with respect to any article, the Secretary shall submit to the President a report on the
ﬁndings of such investigation with respect to the effect
of the importation of such article in such quantities or
under such circumstances upon the national security
and, based on such ﬁndings, the recommendations of
the Secretary for action or inaction under this section.

App. 64
If the Secretary ﬁnds that such article is being imported into the United States in such quantities or under such circumstances as to threaten to impair the
national security, the Secretary shall so advise the
President in such report.
(B) Any portion of the report submitted by the
Secretary under subparagraph (A) which does not contain classiﬁed information or proprietary information
shall be published in the Federal Register.
(4) The Secretary shall prescribe such procedural regulations as may be necessary to carry out the
provisions of this subsection.
(c) Adjustment of imports; determination by
President; report to Congress; additional
actions; publication in Federal Register
(1)(A) Within 90 days after receiving a report
submitted under subsection (b)(3)(A) in which the Secretary ﬁnds that an article is being imported into the
United States in such quantities or under such circumstances as to threaten to impair the national security,
the President shall—
(i) determine whether the President concurs
with the ﬁnding of the Secretary, and
(ii) if the President concurs, determine the
nature and duration of the action that, in the judgment of the President, must be taken to adjust the
imports of the article and its derivatives so that
such imports will not threaten to impair the national security.

App. 65
(B) If the President determines under subparagraph (A) to take action to adjust imports of an article
and its derivatives, the President shall implement that
action by no later than the date that is 15 days after
the day on which the President determines to take action under subparagraph (A).
(2) By no later than the date that is 30 days after
the date on which the President makes any determinations under paragraph (1), the President shall submit
to the Congress a written statement of the reasons why
the President has decided to take action, or refused to
take action, under paragraph (1). Such statement shall
be included in the report published under subsection
(e).
(3)(A)

If—

(i) the action taken by the President under
paragraph (1) is the negotiation of an agreement
which limits or restricts the importation into, or
the exportation to, the United States of the article
that threatens to impair national security, and
(ii)

either—

(I) no such agreement is entered into before the date that is 180 days after the date on
which the President makes the determination
under paragraph (1)(A) to take such action, or
(II) such an agreement that has been
entered into is not being carried out or is ineffective in eliminating the threat to the national security posed by imports of such
article,

App. 66
the President shall take such other actions as the President deems necessary to adjust the imports of such article so that such imports will not threaten to impair
the national security. The President shall publish in
the Federal Register notice of any additional actions
being taken under this section by reason of this subparagraph.
(B)

If—

(i) clauses (i) and (ii) of subparagraph (A) apply, and
(ii) the President determines not to take any
additional actions under this subsection,
the President shall publish in the Federal Register
such determination and the reasons on which such determination is based.
(d)1 Domestic production for national defense;
impact of foreign competition on economic
welfare of domestic industries
For the purposes of this section, the Secretary and
the President shall, in the light of the requirements of
national security and without excluding other relevant
factors, give consideration to domestic production
needed for projected national defense requirements,
the capacity of domestic industries to meet such requirements, existing and anticipated availabilities of
the human resources, products, raw materials, and
1

So in original. There are two subsecs. designated (d). Second subsec. (d) probably should be designated (e).

App. 67
other supplies and services essential to the national
defense, the requirements of growth of such industries
and such supplies and services including the investment, exploration, and development necessary to assure such growth, and the importation of goods in
terms of their quantities, availabilities, character, and
use as those affect such industries and the capacity of
the United States to meet national security requirements. In the administration of this section, the Secretary and the President shall further recognize the close
relation of the economic welfare of the Nation to our
national security, and shall take into consideration the
impact of foreign competition on the economic welfare
of individual domestic industries; and any substantial
unemployment, decrease in revenues of government,
loss of skills or investment, or other serious effects resulting from the displacement of any domestic products by excessive imports shall be considered, without
excluding other factors, in determining whether such
weakening of our internal economy may impair the national security.
(d)1 Report by Secretary of Commerce
(1) Upon the disposition of each request, application, or motion under subsection (b), the Secretary
shall submit to the Congress, and publish in the Federal Register, a report on such disposition.
(2)

Omitted.

App. 68
(f ) Congressional disapproval of Presidential
adjustment of imports of petroleum or petroleum products; disapproval resolution
(1) An action taken by the President under subsection (c) to adjust imports of petroleum or petroleum
products shall cease to have force and effect upon the
enactment of a disapproval resolution, provided for in
paragraph (2), relating to that action.
(2)(A)
gress—

This paragraph is enacted by the Con-

(i) as an exercise of the rulemaking power of
the House of Representatives and the Senate, respectively, and as such is deemed a part of the
rules of each House, respectively, but applicable
only with respect to the procedures to be followed
in that House in the case of disapproval resolutions and such procedures supersede other rules
only to the extent that they are inconsistent therewith; and
(ii) with the full recognition of the constitutional right of either House to change the rules (so
far as relating to the procedure of that House) at
any time, in the same manner, and to the same extent as any other rule of that House.
(B) For purposes of this subsection, the term ‘‘disapproval resolution’’ means only a joint resolution of
either House of Congress the matter after the resolving clause of which is as follows: ‘‘That the Congress
disapproves the action taken under section 232 of the
Trade Expansion Act of 1962 with respect to petroleum
imports under ______ dated ______.’’, the ﬁrst blank

App. 69
space being ﬁlled with the number of the proclamation,
Executive order, or other Executive act issued under
the authority of subsection (c) of this section for purposes of adjusting imports of petroleum or petroleum
products and the second blank being ﬁlled with the appropriate date.
(C)(i) All disapproval resolutions introduced in
the House of Representatives shall be referred to the
Committee on Ways and Means and all disapproval
resolutions introduced in the Senate shall be referred
to the Committee on Finance.
(ii) No amendment to a disapproval resolution
shall be in order in either the House of Representatives
or the Senate, and no motion to suspend the application of this clause shall be in order in either House nor
shall it be in order in either House for the Presiding
Ofﬁcer to entertain a request to suspend the application of this clause by unanimous consent.

App. 70
Federal Register/Vol. 83, No. 51/
Thursday, March 15, 2018
Proclamation 9705 of March 8, 2018
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel mill articles
(steel articles) on the national security of the United
States under section 232 of the Trade Expansion Act of
1962, as amended (19 U.S.C. 1862).
2. The Secretary found and advised me of his opinion
that steel articles are being imported into the United
States in such quantities and under such circumstances as to threaten to impair the national security
of the United States. The Secretary found that the present quantities of steel articles imports and the circumstances of global excess capacity for producing
steel are ‘‘weakening our internal economy,’’ resulting
in the persistent threat of further closures of domestic
steel production facilities and the ‘‘shrinking [of our]
ability to meet national security production requirements in a national emergency.’’ Because of these risks
and the risk that the United States may be unable to
‘‘meet [steel] demands for national defense and critical
industries in a national emergency,’’ and taking into
account the close relation of the economic welfare of
the Nation to our national security, see 19 U.S.C.
1862(d), the Secretary concluded that the present

App. 71
quantities and circumstances of steel articles imports
threaten to impair the national security as deﬁned in
section 232 of the Trade Expansion Act of 1962, as
amended.
3. In reaching this conclusion, the Secretary considered the previous U.S. Government measures and actions on steel articles imports and excess capacity,
including actions taken under Presidents Reagan,
George H.W. Bush, Clinton, and George W. Bush. The
Secretary also considered the Department of Commerce’s narrower investigation of iron ore and semiﬁnished steel imports in 2001, and found the recommendations in that report to be outdated given the dramatic changes in the steel industry since 2001,
including the increased level of global excess capacity,
the increased level of imports, the reduction in basic
oxygen furnace facilities, the number of idled facilities
despite increased demand for steel in critical industries, and the potential impact of further plant closures
on capacity needed in a national emergency.
4. In light of this conclusion, the Secretary recommended actions to adjust the imports of steel articles
so that such imports will not threaten to impair the
national security. Among those recommendations was
a global tariff of 24 percent on imports of steel articles
in order to reduce imports to a level that the Secretary
assessed would enable domestic steel producers to use
approximately 80 percent of existing domestic production capacity and thereby achieve long-term economic
viability through increased production. The Secretary
has also recommended that I authorize him, in

App. 72
response to speciﬁc requests from affected domestic
parties, to exclude from any adopted import restrictions those steel articles for which the Secretary
determines there is a lack of sufﬁcient U.S. production
capacity of comparable products, or to exclude steel articles from such restrictions for speciﬁc national security-based considerations.
5. I concur in the Secretary’s ﬁnding that steel articles are being imported into the United States in such
quantities and under such circumstances as to
threaten to impair the national security of the United
States, and I have considered his recommendations.
6. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
7. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of acts affecting import
treatment, and actions thereunder, including the removal, modiﬁcation, continuance, or imposition of any
rate of duty or other import restriction.
8. In the exercise of these authorities, I have decided
to adjust the imports of steel articles by imposing a 25
percent ad valorem tariff on steel articles, as deﬁned
below, imported from all countries except Canada and
Mexico. In my judgment, this tariff is necessary and

App. 73
appropriate in light of the many factors I have considered, including the Secretary’s report, updated import
and production numbers for 2017, the failure of countries to agree on measures to reduce global excess capacity, the continued high level of imports since the
beginning of the year, and special circumstances that
exist with respect to Canada and Mexico. This relief
will help our domestic steel industry to revive idled facilities, open closed mills, preserve necessary skills by
hiring new steel workers, and maintain or increase
production, which will reduce our Nation’s need to rely
on foreign producers for steel and ensure that domestic
producers can continue to supply all the steel necessary for critical industries and national defense. Under
current circumstances, this tariff is necessary and appropriate to address the threat that imports of steel
articles pose to the national security.
9. In adopting this tariff, I recognize that our Nation
has important security relationships with some countries whose exports of steel articles to the United
States weaken our internal economy and thereby
threaten to impair the national security. I also recognize our shared concern about global excess capacity, a
circumstance that is contributing to the threatened
impairment of the national security. Any country with
which we have a security relationship is welcome to
discuss with the United States alternative ways to address the threatened impairment of the national security caused by imports from that country. Should the
United States and any such country arrive at a satisfactory alternative means to address the threat to the

App. 74
national security such that I determine that imports
from that country no longer threaten to impair the national security, I may remove or modify the restriction
on steel articles imports from that country and, if necessary, make any corresponding adjustments to the
tariff as it applies to other countries as our national
security interests require.
10. I conclude that Canada and Mexico present a special case. Given our shared commitment to supporting
each other in addressing national security concerns,
our shared commitment to addressing global excess capacity for producing steel, the physical proximity of our
respective industrial bases, the robust economic integration between our countries, the export of steel articles produced in the United States to Canada and
Mexico, and the close relation of the economic welfare
of the United States to our national security, see 19
U.S.C. 1862(d), I have determined that the necessary
and appropriate means to address the threat to the national security posed by imports of steel articles from
Canada and Mexico is to continue ongoing discussions
with these countries and to exempt steel articles imports from these countries from the tariff, at least at
this time. I expect that Canada and Mexico will take
action to prevent transshipment of steel articles
through Canada and Mexico to the United States.
11. In the meantime, the tariff imposed by this proclamation is an important ﬁrst step in ensuring the economic viability of our domestic steel industry. Without
this tariff and satisfactory outcomes in ongoing negotiations with Canada and Mexico, the industry will

App. 75
continue to decline, leaving the United States at risk
of becoming reliant on foreign producers of steel to
meet our national security needs—a situation that is
fundamentally inconsistent with the safety and security of the American people. It is my judgment that the
tariff imposed by this proclamation is necessary and
appropriate to adjust imports of steel articles so that
such imports will not threaten to impair the national
security as deﬁned in section 232 of the Trade Expansion Act of 1962, as amended.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 301 of title
3, United States Code, section 604 of the Trade Act of
1974, as amended, and section 232 of the Trade Expansion Act of 1962, as amended, do hereby proclaim as
follows:
(1) For the purposes of this proclamation, ‘‘steel articles’’ are deﬁned at the Harmonized Tariff Schedule
(HTS) 6-digit level as: 7206.10 through 7216.50,
7216.99 through 7301.10, 7302.10, 7302.40 through
7302.90, and 7304.10 through 7306.90, including any
subsequent revisions to these HTS classiﬁcations.
(2) In order to establish increases in the duty rate on
imports of steel articles, subchapter III of chapter 99 of
the HTSUS is modiﬁed as provided in the Annex to this
proclamation. Except as otherwise provided in this
proclamation, or in notices published pursuant to
clause 3 of this proclamation, all steel articles imports

App. 76
speciﬁed in the Annex shall be subject to an additional
25 percent ad valorem rate of duty with respect to
goods entered, or withdrawn from warehouse for consumption, on or after 12:01 a.m. eastern daylight time
on March 23, 2018. This rate of duty, which is in addition to any other duties, fees, exactions, and charges
applicable to such imported steel articles, shall apply
to imports of steel articles from all countries except
Canada and Mexico.
(3) The Secretary, in consultation with the Secretary
of State, the Secretary of the Treasury, the Secretary of
Defense, the United States Trade Representative
(USTR), the Assistant to the President for National Security Affairs, the Assistant to the President for Economic Policy, and such other senior Executive Branch
ofﬁcials as the Secretary deems appropriate, is hereby
authorized to provide relief from the additional duties
set forth in clause 2 of this proclamation for any steel
article determined not to be produced in the United
States in a sufﬁcient and reasonably available amount
or of a satisfactory quality and is also authorized to
provide such relief based upon speciﬁc national security considerations. Such relief shall be provided for a
steel article only after a request for exclusion is made
by a directly affected party located in the United
States. If the Secretary determines that a particular
steel article should be excluded, the Secretary shall,
upon publishing a notice of such determination in the
Federal Register, notify Customs and Border Protection (CBP) of the Department of Homeland Security
concerning such article so that it will be excluded from

App. 77
the duties described in clause 2 of this proclamation.
The Secretary shall consult with CBP to determine
whether the HTSUS provisions created by the Annex
to this proclamation should be modiﬁed in order to ensure the proper administration of such exclusion, and,
if so, shall make such modiﬁcation to the HTSUS
through a notice in the Federal Register.
(4) Within 10 days after the date of this proclamation, the Secretary shall issue procedures for the requests for exclusion described in clause 3 of this
proclamation. The issuance of such procedures is exempt from Executive Order 13771 of January 30, 2017
(Reducing Regulation and Controlling Regulatory
Costs).
(5) (a) The modiﬁcations to the HTSUS made by the
Annex to this proclamation shall be effective with respect to goods entered, or withdrawn from warehouse
for consumption, on or after 12:01 a.m. eastern daylight time on March 23, 2018, and shall continue in effect, unless such actions are expressly reduced,
modiﬁed, or terminated.
(b) The Secretary shall continue to monitor imports of steel articles and shall, from time to time, in
consultation with the Secretary of State, the Secretary
of the Treasury, the Secretary of Defense, the USTR,
the Assistant to the President for National Security Affairs, the Assistant to the President for Economic Policy, the Director of the Ofﬁce of Management and
Budget, and such other senior Executive Branch ofﬁcials as the Secretary deems appropriate, review the

App. 78
status of such imports with respect to the national security. The Secretary shall inform the President of any
circumstances that in the Secretary’s opinion might indicate the need for further action by the President under section 232 of the Trade Expansion Act of 1962, as
amended. The Secretary shall also inform the President of any circumstance that in the Secretary’s opinion might indicate that the increase in duty rate
provided for in this proclamation is no longer necessary.
(6) Any provision of previous proclamations and Executive Orders that is inconsistent with the actions
taken in this proclamation is superseded to the extent
of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this eighth day of March, in the year of our Lord
two thousand eighteen, and of the Independence of the
United States of America the two hundred and fortysecond.
/s/ Donald J. Trump

App. 79
Federal Register/Vol. 83, No. 60/
Wednesday, March 28, 2018
Proclamation 9711 of March 22, 2018
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel mill articles on
the national security of the United States under section 232 of the Trade Expansion Act of 1962, as
amended (19 U.S.C. 1862).
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel mill articles are being
imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of steel mill articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of this proclamation (steel articles), by imposing a 25
percent ad valorem tariff on such articles imported
from all countries except Canada and Mexico.
3. In proclaiming this tariff, I recognized that our
Nation has important security relationships with some
countries whose exports of steel articles to the United
States weaken our internal economy and thereby
threaten to impair the national security. I also recognized our shared concern about global excess capacity,
a circumstance that is contributing to the threatened

App. 80
impairment of the national security. I further determined that any country with which we have a security
relationship is welcome to discuss with the United
States alternative ways to address the threatened impairment of the national security caused by imports
from that country, and noted that, should the United
States and any such country arrive at a satisfactory
alternative means to address the threat to the national
security such that I determine that imports from that
country no longer threaten to impair the national security, I may remove or modify the restriction on steel
articles imports from that country and, if necessary,
adjust the tariff as it applies to other countries as the
national security interests of the United States require.
4. The United States is continuing discussions with
Canada and Mexico, as well as the following countries,
on satisfactory alternative means to address the
threatened impairment to the national security by
imports of steel articles from those countries: the
Commonwealth of Australia (Australia), the Argentine
Republic (Argentina), the Republic of Korea (South
Korea), the Federative Republic of Brazil (Brazil), and
the European Union (EU) on behalf of its member
countries. Each of these countries has an important security relationship with the United States and I have
determined that the necessary and appropriate means
to address the threat to the national security posed by
imports from steel articles from these countries is to
continue these discussions and to exempt steel articles
imports from these countries from the tariff, at least at

App. 81
this time. Any country not listed in this proclamation
with which we have a security relationship remains
welcome to discuss with the United States alternative
ways to address the threatened impairment of the national security caused by imports of steel articles from
that country.
5. The United States has an important security relationship with Australia, including our shared commitment to supporting each other in addressing national
security concerns, particularly through our security,
defense, and intelligence partnership; the strong economic and strategic partnership between our countries; our shared commitment to addressing global
excess capacity in steel production; and the integration
of Australian persons and organizations into the national technology and industrial base of the United
States.
6. The United States has an important security relationship with Argentina, including our shared commitment to supporting each other in addressing national
security concerns in Latin America, particularly the
threat posed by instability in Venezuela; our shared
commitment to addressing global excess capacity in
steel production; the reciprocal investment in our respective industrial bases; and the strong economic integration between our countries.
7. The United States has an important security relationship with South Korea, including our shared commitment to eliminating the North Korean nuclear
threat; our decades-old military alliance; our shared

App. 82
commitment to addressing global excess capacity in
steel production; and our strong economic and strategic partnership.
8. The United States has an important security relationship with Brazil, including our shared commitment to supporting each other in addressing national
security concerns in Latin America; our shared commitment to addressing global excess capacity in steel
production; the reciprocal investment in our respective
industrial bases; and the strong economic integration
between our countries.
9. The United States has an important security relationship with the EU and its constituent member countries, including our shared commitment to supporting
each other in national security concerns; the strong
economic and strategic partnership between the
United States and the EU, and between the United
States and EU member countries; and our shared commitment to addressing global excess capacity in steel
production.
10. In light of the foregoing, I have determined that
the necessary and appropriate means to address the
threat to the national security posed by imports of
steel articles from these countries is to continue ongoing discussions and to increase strategic partnerships,
including those with respect to reducing global excess
capacity in steel production by addressing its root
causes. In my judgment, discussions regarding
measures to reduce excess steel production and excess
steel capacity, measures that will increase domestic

App. 83
capacity utilization, and other satisfactory alternative
means will be most productive if the tariff proclaimed
in Proclamation 9705 on steel articles imports from
these countries is removed at this time.
11. However, the tariff imposed by Proclamation
9705 remains an important ﬁrst step in ensuring the
economic viability of our domestic steel industry and
removing the threatened impairment of the national
security. Without this tariff and the adoption of satisfactory alternative means addressing long-term solutions in ongoing discussions with the countries listed
as excepted in clause 1 of this proclamation, the industry will continue to decline, leaving the United States
at risk of becoming reliant on foreign producers of steel
to meet our national security needs—a situation that
is fundamentally inconsistent with the safety and security of the American people. As a result, unless I determine by further proclamation that the United
States has reached a satisfactory alternative means to
remove the threatened impairment to the national security by imports of steel articles from a particular
country listed as excepted in clause 1 of this proclamation, the tariff set forth in clause 2 of Proclamation
9705 shall be effective May 1, 2018, for the countries
listed as excepted in clause 1 of this proclamation.
In the event that a satisfactory alternative means is
reached such that I decide to exclude on a long-term
basis a particular country from the tariff proclaimed
in Proclamation 9705, I will also consider whether it
is necessary and appropriate in light of our national

App. 84
security interests to make any corresponding adjustments to the tariff set forth in clause 2 of Proclamation
9705 as it applies to other countries. Because the current tariff exemptions are temporary, however, I have
determined that it is necessary and appropriate to
maintain the current tariff level at this time.
12. In the meantime, to prevent transshipment, excess production, or other actions that would lead to increased exports of steel articles to the United States,
the United States Trade Representative, in consultation with the Secretary and the Assistant to the President for Economic Policy, shall advise me on the
appropriate means to ensure that imports from countries exempt from the tariff imposed in Proclamation
9705 do not undermine the national security objectives
of such tariff. If necessary and appropriate, I will consider directing U.S. Customs and Border Protection
(CBP) of the Department of Homeland Security to implement a quota as soon as practicable, and will take
into account all steel articles imports since January 1,
2018, in setting the amount of such quota.
13. Section 232 of the Trade Expansion Act of 1962,
as amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
14. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United

App. 85
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) Imports of all steel articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of this proclamation, from the countries listed in this
clause shall be exempt from the duty established in
clause 2 of Proclamation 9705 until 12:01 a.m. eastern
daylight time on May 1, 2018. Further, clause 2 of Proclamation 9705 is amended by striking the last two sentences and inserting the following two sentences:
‘‘Except as otherwise provided in this proclamation, or
in notices published pursuant to clause 3 of this proclamation, all steel articles imports speciﬁed in the Annex shall be subject to an additional 25 percent ad
valorem rate of duty with respect to goods entered, or
withdrawn from warehouse for consumption, as follows: (a) on or after 12:01 a.m. eastern daylight time
on March 23, 2018, from all countries except Canada,
Mexico, Australia, Argentina, South Korea, Brazil, and
the member countries of the European Union, and (b)
on or after 12:01 a.m. eastern daylight time on May 1,

App. 86
2018, from all countries. This rate of duty, which is in
addition to any other duties, fees, exactions, and
charges applicable to such imported steel articles, shall
apply to imports of steel articles from each country as
speciﬁed in the preceding sentence.’’.
(2) Paragraph (a) of U.S. note 16, added to subchapter III of chapter 99 of the HTSUS by the Annex
to Proclamation 9705, is amended by replacing ‘‘Canada and of Mexico’’ with ‘‘Canada, of Mexico, of Australia, of Argentina, of South Korea, of Brazil, and of
the member countries of the European Union’’.
(3) The ‘‘Article description’’ for heading 9903.80.01
of the HTSUS is amended by replacing ‘‘Canada or
of Mexico’’ with ‘‘Canada, of Mexico, of Australia, of
Argentina, of South Korea, of Brazil, or of the member
countries of the European Union’’.
(4) The exemption afforded to steel articles from
Canada, Mexico, Australia, Argentina, South Korea,
Brazil, and the member countries of the EU shall apply
only to steel articles of such countries entered, or withdrawn from warehouse for consumption, through the
close of April 30, 2018, at which time Canada, Mexico,
Australia, Argentina, South Korea, Brazil, and the
member countries of the EU shall be deleted from paragraph (a) of U.S. note 16 to subchapter III of chapter
99 of the HTSUS and from the article description of
heading 9903.80.01 of the HTSUS.
(5) Any steel article that is admitted into a U.S.
foreign trade zone on or after 12:01 a.m. eastern daylight time on March 23, 2018, may only be admitted as

App. 87
‘‘privileged foreign status’’ as deﬁned in 19 CFR 146.41,
and will be subject upon entry for consumption to any
ad valorem rates of duty related to the classiﬁcation
under the applicable HTSUS subheading. Any steel article that was admitted into a U.S. foreign trade zone
under ‘‘privileged foreign status’’ as deﬁned in 19 CFR
146.41, prior to 12:01 a.m. eastern daylight time on
March 23, 2018, will likewise be subject upon entry for
consumption to any ad valorem rates of duty related to
the classiﬁcation under applicable HTSUS subheadings imposed by Proclamation 9705, as amended by
this proclamation.
(6) Clause 3 of Proclamation 9705 is amended by
inserting a new third sentence reading as follows:
‘‘Such relief may be provided to directly affected parties on a party-by-party basis taking into account the
regional availability of particular articles, the ability
to transport articles within the United States, and any
other factors as the Secretary deems appropriate.’’.
(7) Clause 3 of Proclamation 9705, as amended
by clause 6 of this proclamation, is further amended by
inserting a new ﬁfth sentence as follows: ‘‘For merchandise entered on or after the date the directly affected party submitted a request for exclusion, such
relief shall be retroactive to the date the request for
exclusion was posted for public comment.’’.
(8) The reference to ‘‘7304.10’’ in clause 1 of Proclamation 9705, is amended to read ‘‘7304.11’’.
(9) The Secretary, in consultation with CBP and
other relevant executive departments and agencies,

App. 88
shall revise the HTSUS so that it conforms to the
amendments and effective dates directed in this proclamation. The Secretary shall publish any such modiﬁcation to the HTSUS in the Federal Register.
(10) Any provision of previous proclamations
and Executive Orders that is inconsistent with the actions taken in this proclamation is superseded to the
extent of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this twenty-second day of March, in the year of
our Lord two thousand eighteen, and of the Independence of the United States of America the two hundred
and forty-second.
/s/ Donald J. Trump

App. 89
Federal Register/Vol. 83, No. 88/
Monday, May 7, 2018
Proclamation 9740 of April 30, 2018
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel mill articles
on the national security of the United States under
section 232 of the Trade Expansion Act of 1962, as
amended (19 U.S.C. 1862).
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel mill articles are being
imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of steel mill articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of Proclamation 9711 of March 22, 2018 (Adjusting Imports of Steel Into the United States) (steel articles),
by imposing a 25 percent ad valorem tariff on such articles imported from all countries except Canada and
Mexico. I further stated that any country with which
we have a security relationship is welcome to discuss
with the United States alternative ways to address the
threatened impairment of the national security caused
by imports from that country, and noted that, should
the United States and any such country arrive at a

App. 90
satisfactory alternative means to address the threat to
the national security such that I determine that imports from that country no longer threaten to impair
the national security, I may remove or modify the restriction on steel articles imports from that country
and, if necessary, adjust the tariff as it applies to other
countries, as the national security interests of the
United States require.
3. In Proclamation 9711, I noted the continuing discussions with the Argentine Republic (Argentina), the
Commonwealth of Australia (Australia), the Federative Republic of Brazil (Brazil), Canada, Mexico, the
Republic of Korea (South Korea), and the European
Union (EU) on behalf of its member countries, on satisfactory alternative means to address the threatened
impairment to the national security by imports of steel
articles from those countries. Recognizing that each of
these countries and the EU has an important security
relationship with the United States, I determined that
the necessary and appropriate means to address the
threat to national security posed by imports of steel articles from these countries was to continue the ongoing
discussions and to exempt steel articles imports from
these countries from the tariff proclaimed in Proclamation 9705 until May 1, 2018.
4. The United States has successfully concluded discussions with South Korea on satisfactory alternative
means to address the threatened impairment to our
national security posed by steel articles imports from
South Korea. The United States and South Korea have
agreed on a range of measures, including measures to

App. 91
reduce excess steel production and excess steel capacity, and measures that will contribute to increased capacity utilization in the United States, including a
quota that restricts the quantity of steel articles imported into the United States from South Korea. In my
judgment, these measures will provide an effective,
long-term alternative means to address South Korea’s
contribution to the threatened impairment to our national security by restraining steel articles exports to
the United States from South Korea, limiting transshipment, and discouraging excess capacity and excess
steel production. In light of this agreement, I have determined that steel articles imports from South Korea
will no longer threaten to impair the national security
and have decided to exclude South Korea from the tariff proclaimed in Proclamation 9705. The United States
will monitor the implementation and effectiveness of
the quota and other measures agreed upon with South
Korea in addressing our national security needs, and I
may revisit this determination, as appropriate.
5. The United States has agreed in principle with
Argentina, Australia, and Brazil on satisfactory alternative means to address the threatened impairment to
our national security posed by steel articles imported
from these countries. I have determined that the necessary and appropriate means to address the threat to
national security posed by imports of steel articles
from Argentina, Australia, and Brazil is to extend the
temporary exemption of these countries from the tariff
proclaimed in Proclamation 9705, in order to ﬁnalize
the details of these satisfactory alternative means to

App. 92
address the threatened impairment to our national security posed by steel articles imported from these
countries. In my judgment, and for the reasons I stated
in paragraph 10 of Proclamation 9711, these discussions will be most productive if steel articles from
Argentina, Australia, and Brazil remain exempt from
the tariff proclaimed in Proclamation 9705, until the
details can be ﬁnalized and implemented by proclamation. Because the United States has agreed in principle
with these countries, in my judgment, it is unnecessary
to set an expiration date for the exemptions. Nevertheless, if the satisfactory alternative means are not ﬁnalized shortly, I will consider re-imposing the tariff.
6. The United States is continuing discussions with
Canada, Mexico, and the EU. I have determined that
the necessary and appropriate means to address the
threat to the national security posed by imports of steel
articles from these countries is to continue these discussions and to extend the temporary exemption of
these countries from the tariff proclaimed in Proclamation 9705, at least at this time. In my judgment, and
for the reasons I stated in paragraph 10 of Proclamation 9711, these discussions will be most productive if
steel articles from these countries remain exempt from
the tariff proclaimed in Proclamation 9705.
7. For the reasons I stated in paragraph 11 of Proclamation 9711, however, the tariff imposed by Proclamation 9705 remains an important ﬁrst step in ensuring
the economic stability of our domestic steel industry
and removing the threatened impairment of the national security. As a result, unless I determine by

App. 93
further proclamation that the United States has
reached a satisfactory alternative means to remove the
threatened impairment to the national security by imports of steel articles from Canada, Mexico, and the
member countries of the EU, the tariff set forth in
clause 2 of Proclamation 9705 shall be effective June
1, 2018, for these countries.
8. In light of my determination to exclude, on a longterm basis, South Korea from the tariff proclaimed in
Proclamation 9705, I have considered whether it is
necessary and appropriate in light of our national security interests to make any corresponding adjustments to the tariff set forth in clause 2 of Proclamation
9705 as it applies to other countries. I have determined
that, in light of the agreed-upon quota and other
measures with South Korea, the measures being ﬁnalized with Argentina, Australia, and Brazil, and the ongoing discussions that may result in further long-term
exclusions from the tariff proclaimed in Proclamation
9705, it is necessary and appropriate, at this time, to
maintain the current tariff level as it applies to other
countries.
9. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
10. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody

App. 94
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) Imports of all steel articles from Argentina,
Australia, Brazil, and South Korea shall be exempt
from the duty established in clause 2 of Proclamation
9705, as amended by clause 1 of Proclamation 9711.
Imports of all steel articles from Canada, Mexico, and
the member countries of the EU shall be exempt from
the duty established in clause 2 of Proclamation 9705
until 12:01 a.m. eastern daylight time on June 1, 2018.
Further, clause 2 of Proclamation 9705, as amended by
clause 1 of Proclamation 9711, is also amended by
striking the last two sentences and inserting in lieu
thereof the following two sentences: ‘‘Except as otherwise provided in this proclamation, or in notices published pursuant to clause 3 of this proclamation, all
steel articles imports speciﬁed in the Annex shall be
subject to an additional 25 percent ad valorem rate of
duty with respect to goods entered for consumption,
or withdrawn from warehouse for consumption, as

App. 95
follows: (a) on or after 12:01 a.m. eastern daylight time
on March 23, 2018, from all countries except Argentina, Australia, Brazil, Canada, Mexico, South Korea,
and the member countries of the European Union, and
(b) on or after 12:01 a.m. eastern daylight time on June
1, 2018, from all countries except Argentina, Australia,
Brazil, and South Korea. This rate of duty, which is in
addition to any other duties, fees, exactions, and
charges applicable to such imported steel articles, shall
apply to imports of steel articles from each country as
speciﬁed in the preceding sentence.’’.
(2) In order to provide the quota treatment referred to in paragraph 4 of this proclamation to steel
articles imports from South Korea, U.S. Note 16 of subchapter III of chapter 99 of the HTSUS is amended as
provided for in Part A of the Annex to this proclamation. U.S. Customs and Border Protection (CBP) of the
Department of Homeland Security shall implement
this quota as soon as practicable, taking into account
all steel articles imports from South Korea since January 1, 2018.
(3) The exemption afforded to steel articles from
Canada, Mexico, and the member countries of the EU
shall apply only to steel articles of such countries entered for consumption, or withdrawn from warehouse
for consumption, through the close of May 31, 2018, at
which time such countries shall be deleted from the article description of heading 9903.80.01 of the HTSUS.
(4) Clause 5 of Proclamation 9711 is amended
by inserting the phrase ‘‘, except those eligible for

App. 96
admission under ‘‘domestic status’’ as deﬁned in 19
CFR 146.43, which is subject to the duty imposed pursuant to Proclamation 9705, as amended by Proclamation 9711,’’ after the words ‘‘Any steel article’’ in the
ﬁrst and second sentences.
(5) Steel articles shall not be subject upon entry
for consumption to the duty established in clause 2 of
Proclamation 9705, as amended by clause 1 of this
proclamation, merely by reason of manufacture in a
U.S. foreign trade zone. However, steel articles admitted to a U.S. foreign trade zone in ‘‘privileged foreign
status’’ pursuant to clause 5 of Proclamation 9711, as
amended by clause 4 of this proclamation, shall retain
that status consistent with 19 CFR 146.41(e).
(6) No drawback shall be available with respect
to the duties imposed on any steel article pursuant to
Proclamation 9705, as amended by clause 1 of this
proclamation.
(7) The Secretary, in consultation with CBP and
other relevant executive departments and agencies,
shall revise the HTSUS so that it conforms to the
amendments and effective dates directed in this proclamation. The Secretary shall publish any such modiﬁcation to the HTSUS in the Federal Register.
(8) Any provision of previous proclamations and
Executive Orders that is inconsistent with the actions
taken in this proclamation is superseded to the extent
of such inconsistency.

App. 97
IN WITNESS WHEREOF, I have hereunto set my
hand this thirtieth day of April, in the year of our Lord
two thousand eighteen, and of the Independence of the
United States of America the two hundred and fortysecond.
/s/ Donald J. Trump

App. 98
Federal Register/Vol. 83, No. 108/
Tuesday, June 5, 2018
Proclamation 9759 of May 31, 2018
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel mill articles on
the national security of the United States under section 232 of the Trade Expansion Act of 1962, as
amended (19 U.S.C. 1862).
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel mill articles are being
imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of steel mill articles, as deﬁned in
clause 1 of Proclamation 9705, as amended (steel articles), by imposing a 25 percent ad valorem tariff on
such articles imported from most countries, beginning
March 23, 2018. I further stated that any country with
which we have a security relationship is welcome to
discuss with the United States alternative ways to address the threatened impairment of the national security caused by imports from that country, and noted
that, should the United States and any such country
arrive at a satisfactory alternative means to address
the threat to the national security such that I

App. 99
determine that imports from that country no longer
threaten to impair the national security, I may remove
or modify the restriction on steel articles imports from
that country and, if necessary, adjust the tariff as it applies to other countries, as the national security interests of the United States require.
3. In Proclamation 9711 of March 22, 2018 (Adjusting
Imports of Steel Into the United States), I noted the
continuing discussions with the Argentine Republic
(Argentina), the Commonwealth of Australia (Australia), the Federative Republic of Brazil (Brazil), Canada, Mexico, the Republic of Korea (South Korea), and
the European Union (EU) on behalf of its member
countries, on satisfactory alternative means to address
the threatened impairment to the national security
posed by imports of steel articles from those countries.
Recognizing that each of these countries and the EU
has an important security relationship with the
United States, I determined that the necessary and appropriate means to address the threat to national security posed by imports of steel articles from these
countries was to continue the ongoing discussions and
to exempt steel articles imports from these countries
from the tariff proclaimed in Proclamation 9705, as
amended, until May 1, 2018.
4. In Proclamation 9740 of April 30, 2018 (Adjusting
Imports of Steel Into the United States), I noted
that the United States had agreed in principle with
Argentina, Australia, and Brazil on satisfactory alternative means to address the threatened impairment to
our national security posed by steel articles imports

App. 100
from these countries and extended the temporary exemption of these countries from the tariff proclaimed
in Proclamation 9705, as amended, in order to ﬁnalize
the details.
5. The United States has agreed on a range of
measures with these countries, including measures to
reduce excess steel production and excess steel capacity, measures that will contribute to increased capacity
utilization in the United States, and measures to prevent the transshipment of steel articles and avoid import surges. In my judgment, these measures will
provide effective, long-term alternative means to address these countries’ contribution to the threatened
impairment to our national security by restraining
steel articles exports to the United States from each of
them, limiting transshipment and surges, and discouraging excess steel capacity and excess steel production.
In light of these agreements, I have determined that
steel articles imports from these countries will no
longer threaten to impair the national security and
thus have decided to exclude these countries from the
tariff proclaimed in Proclamation 9705, as amended.
The United States will monitor the implementation
and effectiveness of the measures agreed upon with
these countries to address our national security needs,
and I may revisit this determination, as appropriate.
6. In light of my determination to exclude, on a longterm basis, these countries from the tariff proclaimed
in Proclamation 9705, as amended, I have considered
whether it is necessary and appropriate in light of our
national security interests to make any corresponding

App. 101
adjustments to such tariff as it applies to other countries. I have determined that, in light of the agreedupon measures with these countries, and the fact that
the tariff will now apply to imports of steel articles
from additional countries, it is necessary and appropriate, at this time, to maintain the current tariff level as
it applies to other countries.
7. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
8. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) The superior text to subheadings 9903.80.05
through 9903.80.58 of the HTSUS is amended by

App. 102
replacing ‘‘South Korea’’ with ‘‘Argentina, of Brazil, or
of South Korea’’.
(2) For the purposes of administering the quantitative limitations applicable to subheadings 9903.80.05
through 9903.80.58 for Argentina and Brazil, the annual aggregate limits for each country set out in the
Annex to this proclamation shall apply for the period
starting with calendar year 2018 and for subsequent
years, unless modiﬁed or terminated. The quantitative
limitations applicable to subheadings 9903.80.05
through 9903.80.58 for these countries, which for calendar year 2018 shall take into account all steel articles imports from each respective country since
January 1, 2018, shall be effective for steel articles entered for consumption, or withdrawn from warehouse
for consumption, on or after June 1, 2018, and shall be
implemented by U.S. Customs and Border Protection
(CBP) of the Department of Homeland Security as soon
as practicable, consistent with the superior text to subheadings 9903.80.05 through 9903.80.58. The Secretary of Commerce shall monitor the implementation of
the quantitative limitations applicable to subheadings
9903.80.05 through 9903.80.58 and shall, in consultation with the Secretary of Defense, the United States
Trade Representative, and such other senior Executive
Branch ofﬁcials as the Secretary deems appropriate,
inform the President of any circumstance that in the
Secretary’s opinion might indicate that an adjustment
of the quantitative limitations is necessary.
(3) The text of subdivision (e) of U.S. note 16 to
subchapter III of chapter 99 of the HTSUS is amended

App. 103
by striking the last sentence and inserting in lieu
thereof the following sentence: ‘‘Beginning on July 1,
2018, imports from any such country in an aggregate
quantity under any such subheading during any of the
periods January through March, April through June,
July through September, or October through December
in any year that is in excess of 500,000 kg and 30 percent of the total aggregate quantity provided for a calendar year for such country, as set forth on the internet
site of CBP, shall not be allowed.’’.
(4) The Secretary of Commerce, in consultation
with CBP and with other relevant executive departments and agencies, shall revise the HTSUS so that it
conforms to the amendments and effective dates directed in this proclamation. The Secretary shall publish any such modiﬁcation to the HTSUS in the Federal
Register.
(5) Clause 5 of Proclamation 9711, as amended,
is amended by striking the phrase ‘‘as amended by
Proclamation 9711,’’ in the ﬁrst and second sentences
and inserting in lieu thereof the following phrase: ‘‘as
amended, or to the quantitative limitations established by proclamation,’’. Clause 5 of Proclamation
9711, as amended, is further amended by inserting the
phrase ‘‘or quantitative limitations’’ after the words
‘‘ad valorem rates of duty’’ in the ﬁrst and second sentences.
(6) Clause 5 of Proclamation 9740 is amended by
striking the phrase ‘‘as amended by clause 1 of this
proclamation,’’ and inserting in lieu thereof the

App. 104
following phrase: ‘‘as amended, or to the quantitative
limitations established by proclamation,’’ in the ﬁrst
sentence. Clause 5 of Proclamation 9740 is further
amended by striking the words ‘‘by clause 4 of this
proclamation’’ from the second sentence.
(7) Any provision of previous proclamations and
Executive Orders that is inconsistent with the actions
taken in this proclamation is superseded to the extent
of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this thirty-ﬁrst day of May, in the year of our
Lord two thousand eighteen, and of the Independence
of the United States of America the two hundred and
forty-second.
/s/ Donald J. Trump

App. 105
Federal Register/Vol. 158, No. 83/
Wednesday, August 15, 2018
Proclamation 9772 of August 10, 2018
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel articles on the
national security of the United States under section
232 of the Trade Expansion Act of 1962, as amended
(19 U.S.C. 1862). The Secretary found and advised me
of his opinion that steel articles are being imported
into the United States in such quantities and under
such circumstances as to threaten to impair the national security of the United States.
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of Proclamation 9711 of March 22, 2018 (Adjusting Imports of Steel Into the United States), are being imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of these steel articles by imposing a
25 percent ad valorem tariff on such articles imported
from most countries.

App. 106
3. In Proclamation 9705, I also directed the Secretary
to monitor imports of steel articles and inform me of
any circumstances that in the Secretary’s opinion
might indicate the need for further action under section 232 with respect to such imports.
4. The Secretary has informed me that while capacity
utilization in the domestic steel industry has improved, it is still below the target capacity utilization
level the Secretary recommended in his report. Although imports of steel articles have declined since the
imposition of the tariff, I am advised that they are still
several percentage points greater than the level of imports that would allow domestic capacity utilization to
reach the target level.
5. In light of the fact that imports have not declined
as much as anticipated and capacity utilization has not
increased to that target level, I have concluded that it
is necessary and appropriate in light of our national
security interests to adjust the tariff imposed by previous proclamations.
6. In the Secretary’s January 2018 report, the Secretary recommended that I consider applying a higher
tariff to a list of speciﬁc countries should I determine
that all countries should not be subject to the same tariff. One of the countries on that list was the Republic
of Turkey (Turkey). As the Secretary explained in that
report, Turkey is among the major exporters of steel to
the United States for domestic consumption. To further reduce imports of steel articles and increase domestic capacity utilization, I have determined that it

App. 107
is necessary and appropriate to impose a 50 percent ad
valorem tariff on steel articles imported from Turkey,
beginning on August 13, 2018. The Secretary has advised me that this adjustment will be a signiﬁcant step
toward ensuring the viability of the domestic steel industry.
7. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
8. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) In order to establish increases in the duty
rate on imports of steel articles from Turkey, subchapter III of chapter 99 of the HTSUS is modiﬁed as

App. 108
provided in the Annex to this proclamation. Clause 2
of Proclamation 9705, as amended by clause 1 of Proclamation 9740 of April 30, 2018 (Adjusting Imports of
Steel Into the United States), is further amended
by striking the last two sentences and inserting in
lieu thereof the following three sentences: ‘‘Except as
otherwise provided in this proclamation, or in notices
published pursuant to clause 3 of this proclamation, all
steel articles imports speciﬁed in the Annex shall be
subject to an additional 25 percent ad valorem rate of
duty with respect to goods entered for consumption, or
withdrawn from warehouse for consumption, as follows: (a) on or after 12:01 a.m. eastern daylight time
on March 23, 2018, from all countries except Argentina, Australia, Brazil, Canada, Mexico, South Korea,
and the member countries of the European Union;
(b) on or after 12:01 a.m. eastern daylight time on June
1, 2018, from all countries except Argentina, Australia,
Brazil, and South Korea; and (c) on or after 12:01 a.m.
eastern daylight time on August 13, 2018, from all
countries except Argentina, Australia, Brazil, South
Korea, and Turkey. Further, except as otherwise provided in notices published pursuant to clause 3 of this
proclamation, all steel articles imports from Turkey
speciﬁed in the Annex shall be subject to a 50 percent
ad valorem rate of duty with respect to goods entered
for consumption, or withdrawn from warehouse for
consumption, on or after 12:01 a.m. eastern daylight
time on August 13, 2018. These rates of duty, which are
in addition to any other duties, fees, exactions, and
charges applicable to such imported steel articles, shall

App. 109
apply to imports of steel articles from each country as
speciﬁed in the preceding two sentences.’’.
(2) The text of U.S. note 16(a)(i) to subchapter III
of chapter 99 of the HTSUS is amended by deleting
‘‘Heading 9903.80.01 provides’’ and inserting the following in lieu thereof: ‘‘Except as provided in U.S. note
16(a)(ii), which applies to products of Turkey that are
provided for in heading 9903.80.02, heading 9903.80.01
provides’’.
(3) U.S. note 16(a)(ii) to subchapter III of chapter
99 of the HTSUS is re-designated as U.S. note 16(a)(iii)
to subchapter III of chapter 99 of the HTSUS.
(4) The following new U.S. note 16(a)(ii) to subchapter III of chapter 99 of the HTSUS is inserted in
numerical order: ‘‘(ii) Heading 9903.80.02 provides the
ordinary customs duty treatment of iron or steel products of Turkey, pursuant to the article description of
such heading. For any such products that are eligible
for special tariff treatment under any of the free trade
agreements or preference programs listed in general
note 3(c)(i) to the tariff schedule, the duty provided in
this heading shall be collected in addition to any special rate of duty otherwise applicable under the appropriate tariff subheading, except where prohibited by
law. Goods for which entry is claimed under a provision
of chapter 98 and which are subject to the additional
duties prescribed herein shall be eligible for and subject to the terms of such provision and applicable U.S.
Customs and Border Protection (‘‘CBP’’) regulations,
except that duties under subheading 9802.00.60 shall

App. 110
be assessed based upon the full value of the imported
article. No claim for entry or for any duty exemption or
reduction shall be allowed for the iron or steel products
enumerated in subdivision (b) of this note under a provision of chapter 99 that may set forth a lower rate of
duty or provide duty-free treatment, taking into account information supplied by CBP, but any additional
duty prescribed in any provision of this subchapter or
subchapter IV of chapter 99 shall be imposed in addition to the duty in heading 9903.80.02.’’.
(5) Paragraphs (b), (c), and (d) of U.S. note 16 to
subchapter III of chapter 99 of the HTSUS are each
amended by replacing ‘‘heading 9903.80.01’’ with
‘‘headings 9903.80.01 and 9903.80.02’’.
(6) The ‘‘Article description’’ for heading 9903.80.01
of the HTSUS is amended by replacing ‘‘of Brazil’’ with
‘‘of Brazil, of Turkey’’.
(7) The modiﬁcations to the HTSUS made by
clauses 2 through 6 of this proclamation and the Annex
to this proclamation shall be effective with respect to
goods entered for consumption, or withdrawn from
warehouse for consumption, on or after 12:01 a.m.
eastern daylight time on August 13, 2018, and shall
continue in effect, unless such actions are expressly reduced, modiﬁed, or terminated.
(8) The Secretary, in consultation with U.S. Customs and Border Protection of the Department of
Homeland Security and other relevant executive departments and agencies, shall revise the HTSUS so
that it conforms to the amendments directed by this

App. 111
proclamation. The Secretary shall publish any such
modiﬁcation to the HTSUS in the Federal Register.
(9) Any provision of previous proclamations and
Executive Orders that is inconsistent with the actions
taken in this proclamation is superseded to the extent
of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this tenth day of August, in the year of our Lord
two thousand eighteen, and of the Independence of the
United States of America the two hundred and fortythird.
/s/ Donald J. Trump

App. 112
Federal Register/Vol. 84, No. 98/
Tuesday, May 21, 2019
Proclamation 9886 of May 16, 2019
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel articles on the
national security of the United States under section
232 of the Trade Expansion Act of 1962, as amended
(19 U.S.C. 1862). The Secretary found and advised me
of his opinion that steel articles are being imported
into the United States in such quantities and under
such circumstances as to threaten to impair the national security of the United States.
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of Proclamation 9711 of March 22, 2018 (Adjusting Imports of Steel Into the United States), are being imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of these steel articles by imposing a
25 percent ad valorem tariff on such articles imported
from most countries.

App. 113
3. In Proclamation 9705, I also directed the Secretary
to monitor imports of steel articles and inform me of
any circumstances that in the Secretary’s opinion
might indicate the need for further action under section 232 of the Trade Expansion Act of 1962, as
amended, with respect to such imports.
4. In August 2018, the Secretary informed me that
while capacity utilization in the domestic steel industry had improved, it was still below the target capacity
utilization level recommended by the Secretary in his
report. Although imports of steel articles had declined
since the imposition of the tariff, I was advised that
they were still several percentage points greater than
the level of imports that would allow domestic capacity
utilization to reach the target level. Given that imports
had not declined as much as anticipated and capacity
utilization had not increased to that target level, I concluded that it was necessary and appropriate in light
of our national security interests to adjust the tariff
imposed by previous proclamations.
5. In the Secretary’s January 2018 report, the Secretary recommended that I consider applying a higher
tariff to a list of speciﬁc countries should I determine
that all countries should not be subject to the same tariff. One of the countries on that list was the Republic
of Turkey (Turkey). As the Secretary explained in that
report, Turkey was among the major exporters of steel
to the United States for domestic consumption. To
further reduce imports of steel articles and increase
domestic capacity utilization, I determined in Proclamation 9772 of August 10, 2018 (Adjusting Imports of

App. 114
Steel Into the United States), that it was necessary
and appropriate to impose a 50 percent ad valorem tariff on steel articles imported from Turkey, beginning on
August 13, 2018. The Secretary advised me that this
adjustment would be a signiﬁcant step toward ensuring the viability of the domestic steel industry.
6. The Secretary has now advised me that, since the
implementation of the higher tariff under Proclamation 9772, imports of steel articles have declined by 12
percent in 2018 compared to 2017 and imports of steel
articles from Turkey have declined by 48 percent in
2018, with the result that the domestic industry’s capacity utilization has improved at this point to approximately the target level recommended in the
Secretary’s report. This target level, if maintained for
an appropriate period, will improve the ﬁnancial viability of the domestic steel industry over the long term.
7. Given these improvements, I have determined that
it is necessary and appropriate to remove the higher
tariff on steel imports from Turkey imposed by Proclamation 9772, and to instead impose a 25 percent ad
valorem tariff on steel imports from Turkey, commensurate with the tariff imposed on such articles imported from most countries. Maintaining the existing
25 percent ad valorem tariff on most countries is necessary and appropriate at this time to address the
threatened impairment of the national security that
the Secretary found in the January 2018 report.
8. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the

App. 115
imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
9. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) Clause 2 of Proclamation 9705, as amended,
is revised to read as follows:
“(2)(a) In order to establish certain modiﬁcations
to the duty rate on imports of steel articles, subchapter III of chapter 99 of the HTSUS is modiﬁed
as provided in the Annex to this proclamation and
any subsequent proclamations regarding such
steel articles.
(b) Except as otherwise provided in this proclamation, or in notices published pursuant to clause 3 of
this proclamation, all steel articles imports covered by

App. 116
heading 9903.80.01, in subchapter III of chapter 99 of
the HTSUS, shall be subject to an additional 25 percent ad valorem rate of duty with respect to goods entered for consumption, or withdrawn from warehouse
for consumption, as follows: (i) on or after 12:01 a.m.
eastern daylight time on March 23, 2018, from all
countries except Argentina, Australia, Brazil, Canada,
Mexico, South Korea, and the member countries of the
European Union; (ii) on or after 12:01 a.m. eastern daylight time on June 1, 2018, from all countries except
Argentina, Australia, Brazil, and South Korea; (iii) on
or after 12:01 a.m. eastern daylight time on August 13,
2018, from all countries except Argentina, Australia,
Brazil, South Korea, and Turkey; and (iv) on or after
12:01 a.m. eastern daylight time on May 21, 2019, from
all countries except Argentina, Australia, Brazil, and
South Korea. Further, except as otherwise provided in
notices published pursuant to clause 3 of this proclamation, all steel articles imports from Turkey covered
by heading 9903.80.02, in subchapter III of chapter 99
of the HTSUS, shall be subject to a 50 percent ad valorem rate of duty with respect to goods entered for
consumption, or withdrawn from warehouse for consumption, on or after 12:01 a.m. eastern daylight time
on August 13, 2018 and prior to 12:01 a.m. eastern daylight time on May 21, 2019. All steel articles imports
covered by heading 9903.80.61, in subchapter III of
chapter 99 of the HTSUS, shall be subject to the additional 25 percent ad valorem rate of duty established
herein with respect to goods entered for consumption,
or withdrawn from warehouse for consumption, on or
after 12:01 a.m. eastern daylight time on the date

App. 117
speciﬁed in a determination by the Secretary granting
relief. These rates of duty, which are in addition to any
other duties, fees, exactions, and charges applicable to
such imported steel articles, shall apply to imports of
steel articles from each country as speciﬁed in the preceding three sentences.”.
(2) The text of U.S. note 16(a)(i) to subchapter III
of chapter 99 of the HTSUS is amended by deleting “Except as provided in U.S. note 16(a)(ii),
which applies to products of Turkey that are provided for in heading 9903.80.02, heading
9903.80.01 provides” and inserting the following
in lieu thereof: “Heading 9903.80.01 provides”.
(3) Heading 9903.80.02, in subchapter III of
chapter 99 of the HTSUS, and its accompanying
material, and U.S. note 16(a)(ii) to subchapter III
of chapter 99 of the HTSUS, are deleted.
(4) Paragraphs (b), (c), and (d) of U.S. note 16 to
subchapter III of chapter 99 of the HTSUS are
each amended by replacing “headings 9903.80.01
and 9903.80.02” with “heading 9903.80.01”.
(5) The “Article description” for heading
9903.80.01 in subchapter III of chapter 99 of the
HTSUS is amended by replacing “of Brazil, of Turkey” with “of Brazil”.
(6) The modiﬁcations to the HTSUS made by
clauses 1 through 5 of this proclamation shall be
effective with respect to goods entered for consumption, or withdrawn from warehouse for consumption, on or after 12:01 a.m. eastern daylight
time on May 21, 2019 and shall continue in effect,

App. 118
unless such actions are expressly reduced, modiﬁed, or terminated.
(7) Any steel articles imports from Turkey that
were admitted into a United States foreign trade
zone under “privileged foreign status” as deﬁned
in 19 CFR 146.41, prior to 12:01 a.m. eastern daylight time on May 21, 2019, shall be subject upon
entry for consumption on or after such time and
date to the ad valorem rate of duty in heading
9903.80.01 in subchapter III of chapter 99 of the
HTSUS.
(8) Any provision of previous proclamations and
Executive Orders that is inconsistent with the actions taken in this proclamation is superseded to
the extent of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this sixteenth day of May, in the year of our Lord
two thousand nineteen, and of the Independence of the
United States of America the two hundred and fortythird.
/s/ Donald J. Trump

App. 119
Federal Register/Vol. 84, No. 100/
Thursday, May 23, 2019
Proclamation 9894 of May 19, 2019
Adjusting Imports of Steel Into the United States
By the President of the United States of America
A Proclamation
1. On January 11, 2018, the Secretary of Commerce
(Secretary) transmitted to me a report on his investigation into the effect of imports of steel articles on the
national security of the United States under section
232 of the Trade Expansion Act of 1962, as amended
(19 U.S.C. 1862). The Secretary found and advised me
of his opinion that steel articles were being imported
into the United States in such quantities and under
such circumstances as to threaten to impair the national security of the United States.
2. In Proclamation 9705 of March 8, 2018 (Adjusting
Imports of Steel Into the United States), I concurred in
the Secretary’s ﬁnding that steel articles, as deﬁned in
clause 1 of Proclamation 9705, as amended by clause 8
of Proclamation 9711 of March 22, 2018 (Adjusting Imports of Steel Into the United States), were being imported into the United States in such quantities and
under such circumstances as to threaten to impair the
national security of the United States, and decided to
adjust the imports of these steel articles by imposing a
25 percent ad valorem tariff on such articles imported
from most countries.

App. 120
3. As stated in the Proclamation dated May 16, 2019
(Adjusting Imports of Steel Into the United States),
the Secretary has now advised me that the domestic
industry’s capacity utilization has improved to approximately the target level recommended in the Secretary’s report. This target level, if maintained for an
appropriate period, will improve the ﬁnancial viability
of the domestic steel industry over the long term.
4. In Proclamation 9705, I further stated that any
country with which we have a security relationship is
welcome to discuss with the United States alternative
ways to address the threatened impairment of the national security caused by imports from that country,
and noted that, should the United States and any such
country arrive at a satisfactory alternative means to
address the threat to the national security such that I
determine that imports from that country no longer
threaten to impair the national security, I may remove
or modify the restriction on steel articles imports from
that country and, if necessary, adjust the tariff as it applies to other countries, as the national security interests of the United States require.
5. The United States has successfully concluded discussions with Canada and Mexico on satisfactory
alternative means to address the threatened impairment of the national security posed by steel articles
imports from Canada and Mexico. The United States
has agreed on a range of measures with Canada and
Mexico to prevent the importation of steel articles that
are unfairly subsidized or sold at dumped prices, to
prevent the transshipment of steel articles, and to

App. 121
monitor for and avoid import surges. These measures
are expected to allow imports of steel articles from
Canada and Mexico to remain stable at historical levels without meaningful increases, thus permitting the
domestic industry’s capacity utilization to continue at
approximately the target level recommended in the
Secretary’s report. In my judgment, these measures
will provide effective, long-term alternative means to
address the contribution of these countries’ imports to
the threatened impairment of the national security.
6. In light of these agreements, I have determined
that, under the framework in the agreements, imports
of steel articles from Canada and Mexico will no longer
threaten to impair the national security, and thus I
have decided to exclude Canada and Mexico from the
tariff proclaimed in Proclamation 9705, as amended.
The United States will monitor the implementation
and effectiveness of these measures in addressing our
national security needs, and I may revisit this determination as appropriate.
7. In light of my determination to exclude, on a longterm basis, Canada and Mexico from the tariff proclaimed in Proclamation 9705, as amended, I have considered whether it is necessary and appropriate in
light of our national security interests to make any corresponding adjustments to such tariff as it applies to
other countries. I have determined that, in light of the
agreed-upon measures with Canada and Mexico, it is
necessary and appropriate, at this time, to maintain
the current tariff level as it applies to other countries.

App. 122
8. Section 232 of the Trade Expansion Act of 1962, as
amended, authorizes the President to adjust the imports of an article and its derivatives that are being
imported into the United States in such quantities or
under such circumstances as to threaten to impair the
national security.
9. Section 604 of the Trade Act of 1974, as amended
(19 U.S.C. 2483), authorizes the President to embody
in the Harmonized Tariff Schedule of the United
States (HTSUS) the substance of statutes affecting import treatment, and actions thereunder, including the
removal, modiﬁcation, continuance, or imposition of
any rate of duty or other import restriction.
NOW, THEREFORE, I, DONALD J. TRUMP, President
of the United States of America, by the authority
vested in me by the Constitution and the laws of the
United States of America, including section 232 of the
Trade Expansion Act of 1962, as amended, section 301
of title 3, United States Code, and section 604 of the
Trade Act of 1974, as amended, do hereby proclaim as
follows:
(1) Proclamation 9705, as amended, is further
amended by revising clause 2 to read as follows:
“(2)(a) In order to establish certain modiﬁcations
to the duty rate on imports of steel articles, subchapter III of chapter 99 of the HTSUS is modiﬁed
as provided in the Annex to this proclamation and
any subsequent proclamations regarding such
steel articles.

App. 123
(b) Except as otherwise provided in this proclamation, or in notices published pursuant to clause 3 of
this proclamation, all steel articles imports covered by
heading 9903.80.01, in subchapter III of chapter 99 of
the HTSUS, shall be subject to an additional 25 percent ad valorem rate of duty with respect to goods entered for consumption, or withdrawn from warehouse
for consumption, as follows: (i) on or after 12:01 a.m.
eastern daylight time on March 23, 2018, from all
countries except Argentina, Australia, Brazil, Canada,
Mexico, South Korea, and the member countries of the
European Union; (ii) on or after 12:01 a.m. eastern daylight time on June 1, 2018, from all countries except
Argentina, Australia, Brazil, and South Korea; (iii) on
or after 12:01 a.m. eastern daylight time on August 13,
2018, from all countries except Argentina, Australia,
Brazil, South Korea, and Turkey; (iv) on or after 12:01
a.m. eastern daylight time on May 20, 2019, from all
countries except Argentina, Australia, Brazil, Canada,
Mexico, South Korea, and Turkey; and (v) on or after
12:01 a.m. eastern daylight time on May 21, 2019, from
all countries except Argentina, Australia, Brazil, Canada, Mexico, and South Korea. Further, except as otherwise provided in notices published pursuant to
clause 3 of this proclamation, all steel articles imports
from Turkey covered by heading 9903.80.02, in subchapter III of chapter 99 of the HTSUS, shall be subject
to a 50 percent ad valorem rate of duty with respect to
goods entered for consumption, or withdrawn from
warehouse for consumption, on or after 12:01 a.m.
eastern daylight time on August 13, 2018, and prior to
12:01 a.m. eastern daylight time on May 21, 2019. All

App. 124
steel articles imports covered by heading 9903.80.61,
in subchapter III of chapter 99 of the HTSUS, shall be
subject to the additional 25 percent ad valorem rate of
duty established herein with respect to goods entered
for consumption, or withdrawn from warehouse for
consumption, on or after 12:01 a.m. eastern daylight
time on the date speciﬁed in a determination by the
Secretary granting relief. These rates of duty, which
are in addition to any other duties, fees, exactions, and
charges applicable to such imported steel articles, shall
apply to imports of steel articles from each country as
speciﬁed in the preceding three sentences.”
(2) The “Article description” for heading
9903.80.01, in subchapter III of chapter 99 of the
HTSUS, is amended by deleting “of South Korea,
of Brazil, of Turkey” and inserting “of Brazil, of
Canada, of Mexico, of South Korea, of Turkey”.
(3) The modiﬁcations made by clauses 1 and 2 of
this proclamation shall be effective with respect to
goods entered for consumption, or withdrawn from
warehouse for consumption, on or after 12:01 a.m.
eastern daylight time on May 20, 2019, and shall
continue in effect, unless such actions are expressly reduced, modiﬁed, or terminated.
(4) The Proclamation dated May 16, 2019 (Adjusting Imports of Steel Into the United States), is
amended by revising clause 5 to read as follows:
“The ‘Article description’ for heading 9903.80.01 in
subchapter III of chapter 99 of the HTSUS is
amended by replacing ‘of South Korea, of Turkey’
with ‘of South Korea’.”.

App. 125
(5) Any imports of steel articles from Canada
and Mexico that were admitted into a U.S. foreign
trade zone under “privileged foreign status” as deﬁned in 19 CFR 146.41, prior to 12:01 a.m. eastern
daylight time on May 20, 2019, shall not be subject
upon entry for consumption made after 12:01 a.m.
eastern daylight time on May 20, 2019, to the additional 25 percent ad valorem rate of duty as imposed by Proclamation 9705, as amended.
(6) Any provision of previous proclamations and
Executive Orders that is inconsistent with the actions taken in this proclamation is superseded to
the extent of such inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this nineteenth day of May, in the year of our
Lord two thousand nineteen, and of the Independence
of the United States of America the two hundred and
forty-third.
/s/ Donald J. Trump

App. 126
IN THE UNITED STATES COURT
OF INTERNATIONAL TRADE
)
)
)
)
)
)
Plaintiffs,
) Court No. 18-00152
v.
)
)
UNITED STATES and
)
KEVIN K. MCALEENAN,
Commissioner, United States )
Customs and Border Protection, )
)
Defendants.
)
AMERICAN INSTITUTE
FOR INTERNATIONAL
STEEL, INC., SIM-TEX, LP,
and KURT ORBAN
PARTNERS, LLC

COMPLAINT
Plaintiffs American Institute for International
Steel, Inc. (“AIIS”), Sim-Tex LP (“Sim-Tex”), and Kurt
Orban Partners, LLC (“Orban”), by and through their
attorneys, hereby submit their complaint in this action
seeking a declaratory judgment that section 232 of the
Trade Expansion Act of 1962, as amended, 19 U.S.C.
§ 1862 (“section 232”), is unconstitutional as an improper delegation of legislative power to the President,
in violation of Article I, section 1 of the Constitution
and the doctrine of separation of powers and the system of checks and balances that the Constitution protects. Plaintiffs also seek an order of this Court
enjoining defendants from enforcing the 25% tariff

App. 127
increase for imports of steel products and other trade
barriers imposed by Presidential Proclamation 9705 of
March 8, 2018 (the “25% tariff increase”), as subsequently amended. Plaintiffs’ claims arise under the
Constitution, and this Court has jurisdiction over this
action under 28 U.S.C. § 1581(i)(2) and (4). Because
this action raises an issue of the constitutionality of an
Act of Congress and the constitutionality of a proclamation of the President, and because this action has
signiﬁcant implications for the administration of the
customs laws, Plaintiffs request that the Chief Judge
of this Court designate three judges of this Court to
hear and determine this action in accordance with 28
U.S.C. § 255.
PARTIES
1. Plaintiff AIIS is a non-proﬁt membership corporation that brings this action on behalf of its more
than 100 members. AIIS is incorporated in the District
of Columbia and has its principal place of business in
Alexandria, Virginia. It is the only steel-related trade
association that supports free trade. AIIS’s members,
which include the Plaintiffs Sim-Tex and Orban, have
various business connections with the imported steel
products that are subject to the 25% tariff increase
challenged in this action. Those members include companies that use imported steel in the manufacture of
their own products, traders in steel, importers, exporters, freight forwarders, stevedores, shippers, railroads,
port authorities, unions, and many other logistics companies, all of which have been and will continue to be

App. 128
adversely affected by the 25% tariff increase on imported steel products. AIIS’s members handle, import,
ship, transport, or store approximately 80% of all imported basic steel products in the United States.
Through its international trade counsel, AIIS testiﬁed
in opposition to the use of section 232 at the public
hearing at the U.S. Department of Commerce during
the investigation held on May 24, 2017.
2. Plaintiff Sim-Tex is a limited liability company organized under the laws of Texas, with its principal place of business in Waller, Texas. Sim-Tex is an
importer and the leading wholesaler in the United
States of Oil Country Tubular Goods (OCTG) casing
and tubing, which are carbon and alloy steel pipe and
tube products used in the production and distribution
of oil and gas. Sim-Tex imports directly, as the importer
of record, and indirectly, through traders, approximately 40,000 – 45,000 tons per month from Korea,
Taiwan, Brazil, Germany, Italy and other sources. SimTex also purchases and sells OCTG tubing (sizes 2”
through 3 1/2”) produced in the United States. Domestic OCTG producers generally do not produce these
smaller sizes in sufﬁcient quantities to fulﬁll Sim-Tex’s
needs of approximately 20,000 – 25,000 tons of tubing
per month because they can make larger diameter pipe
on the same equipment at much higher proﬁt margins.
Sim-Tex’s domestic allocation of smaller size OCTG
tubing is less than 3,000 tons per month, and the balance must be made up with imports.
3. Plaintiff Orban is a limited liability company
organized under the laws of California, with its

App. 129
principal place of business in Burlingame, California.
Orban is a specialty steel trader that purchases globally from leading carbon, alloy, and stainless and high
nickel alloy manufacturers and sells to manufacturers
in the United States. It is a member of Plaintiff AIIS,
and it purchases between 200,000 and 250,000 tons of
imported steel per year, all of which is subject to the
25% tariff increase. As the importer of record on most
of these purchases, it is directly responsible for paying
all tariffs, including the 25% tariff increase. Among the
products that Orban imports and sells are the following:
•

Oil country tubular goods and line pipe for the
oil, gas and energy industries;

•

Oil country couplings and ﬁttings as well as
standard pipe;

•

Hot-rolled coil for the production of downhole
tubing and casing as well as general durable
goods manufacturing;

•

Cold rolled and coated ﬂat steels for residential construction as well as the manufacture
of steel drums and barrels that serve the U.S.
chemical sector;

•

Wire rod that is drawn into a multitude of ﬁnished wire products for agricultural, durable
and non-durable goods applications;

•

Stainless steel tubes, bars and wire for specialty applications where corrosion resistance
is required;

App. 130
•

Reinforcing bars for residential, non-residential and certain civil construction applications; and

•

Hot-rolled bars and grating used in various
construction applications.

Many of these products are available in the United
States, but the prices globally for the same or even
higher quality products are much more competitive
than the prices for those products from domestic mills.
4. The defendant United States of America is the
entity to which the 25% tariff increases are being paid
and is the statutory defendant under section 1581(i)(2)
and (4).
5. The defendant Kevin K. McAleenan is the
Commissioner of U.S. Customs and Border Protection.
He is responsible for collecting the payments made on
account of the 25% tariff increase imposed by the President. He is sued in his ofﬁcial capacity only and is a
defendant solely to assure that the injunctive relief
sought in the complaint can be directed to an individual as well as the United States.
OPERATION OF SECTION 232
6. Section 232 was enacted pursuant to the
power granted to Congress in Article I, Section 8 of
the Constitution “to lay and collect [t]axes, [d]uties,
[i]mposts and [e]xcises” as well as its authority “[t]o
regulate [c]ommerce with foreign [n]ations.” Section
232(b) directs the Secretary of Commerce (the

App. 131
“Secretary”), on the application of any department or
agency, the request of an interested party, or on his own
motion, to undertake an investigation to determine the
effects of imports of a particular article of commerce on
the national security (the “subject article”). After following certain procedural steps, and within 270 days
of initiating the investigation, the Secretary is required to submit a report to the President, which includes his ﬁndings on whether the subject article is
being imported into the United States in such quantities or under such circumstances as to threaten to impair the national security, and his recommendations
for action by the President.
7. Under section 232(c), the President has 90
days to determine whether to concur with the ﬁndings
of the Secretary, and if he concurs, to “determine the
nature and duration of the action that, in the judgment
of the President, must be taken to adjust the imports
of the [subject] article and its derivatives so that such
imports will not threaten to impair the national security.”
8. Although the initial determination by the Secretary under section 232(b) and the President’s action
under section 232(c) are tied to “national security,” section 232(d) includes an essentially limitless deﬁnition
of national security and directions as to how that term
is to be applied:
the Secretary and the President shall further
recognize the close relation of the economic
welfare of the Nation to our national security,

App. 132
and shall take into consideration the impact
of foreign competition on the economic welfare
of individual domestic industries; and any
substantial unemployment, decrease in revenues of government, loss of skills or investment, or other serious effects resulting from
the displacement of any domestic products by
excessive imports shall be considered, without
excluding other factors, in determining
whether such weakening of our internal economy may impair the national security.
Because section 232(d) allows the Secretary and the
President to consider, in essence, anything in the
Nation’s economy that imports might affect, there is
nothing that the President may or may not take into
account in determining whether the national security,
as elastically deﬁned, may be threatened or impaired
by the imports of the subject article and no limit on the
import adjustments that he may impose to remedy the
threat to section 232(d)’s unbounded meaning of national security.
9. After having made these determinations, the
President has an unlimited menu of options that he
may employ. These include imposing tariffs on goods
that are currently duty-free and increasing tariffs
above those currently existing under the law for the
subject article—with no limit on the level of the tariff—
and/or the imposition of quotas—whether or not there
are existing quotas—and with no limit on how much a
reduction from an existing quota (or present level of
imports) there can be for the subject article. In addition, the President could choose to impose licensing

App. 133
fees for the subject article, either in lieu of or in addition to any tariff or quota already in place. Conversely,
the President may also reduce an existing tariff or increase a quota, whenever he concludes that such a reduction or increase is in the interest of the national
security. And for all these changes in the law, the President may select the duration of each such change
without any limits on his choice, and he may make any
changes with no advance notice or delay in implementation.
10. Under section 232(c) the President has a virtually unlimited range of other choices in determining
what adjustments to imports he wishes to make, with
no guidance from Congress as to how to make them.
(a) There is no requirement in section 232 that
the President treat imports from all countries on a
non-discriminatory basis with regard to such matters
as the amount of the tariff or level of quota to be imposed, or whether to exempt some countries, but not
others from an otherwise applicable tariff or quota.
Nor is there any prohibition on such discriminatory
treatment.
(b) As more fully described below, although imported steel products vary widely in their uses, quality,
speciﬁcations, availability in the United States, and relation to national security, the President is permitted
to disregard those differences, or take them into account, in his unfettered discretion;
(c) There is no requirement that the President
take into account adverse consequences from a

App. 134
proposed tariff, although he may, if he chooses, do so
for any or all such consequences. Those consequences
include (1) raising the prices of domestic products;
(2) causing workers outside the domestic industry of
the subject article to lose their jobs or work fewer
hours; (3) favoring imported products that contain the
subject article and that can be sold at lower prices in
the United States because the tariff does not apply to
them; or (4) reducing foreign markets for U.S. exports
as a result of higher domestic input prices.
(d) There is no requirement that the President
be consistent in his interpretation and implementation
of section 232, even for the same articles from one proceeding to the next.
11. Because section 232 allows the President a
virtually unlimited range of options if he concludes, in
his unfettered discretion, that imports of an article
such as steel threaten to impair the national security,
as expansively deﬁned, section 232 lacks the intelligible principle that decisions of the United States Supreme Court have required for a law not to constitute
a delegation of legislative authority, which would violate Article I, section 1 of the Constitution.
12. Section 232 also lacks procedural protections
that might limit the unbridled discretion that the President has under it. The range of omitted procedural
protections include the following:
(a) Although the President may order a remedy
under section 232 only if he concurs with a ﬁnding by
the Secretary that imports of the subject article may

App. 135
threaten to impair the national security, the President
is not bound in any way by any remedial recommendations of the Secretary, and he is not required to base
his remedy on the report or the information provided
to the Secretary through any public hearing or submission of public comments.
(b) The President is not required to provide an
opportunity for the public to comment on the actual
tariff or quota that he is considering imposing, and the
Secretary’s request for comments in this case did not
identify any speciﬁc remedies that he or the President
were considering;
(c) The President is not required to explain his
decision in light of what prior presidents have done
with the same article under section 232, or in light of
the Secretary’s report or the information provided at
the public hearing or from public submissions; and
(d) No one is required to prepare an environmental impact statement or a cost beneﬁt analysis under
Executive Order No. 12866 (Sept. 30, 1993), as
amended from time to time, or make any kind of rigorous analysis of the positive and negative effects of a
proposed tariff or quota.
13. Section 232 does not have a provision for judicial review of orders by the President under it, and
because the President is not an agency, judicial review
is not available under the Administrative Procedure
Act, 5 U.S.C. § 706. Furthermore, the Department of
Justice, on behalf of the United States, in a lawsuit
challenging the 25% steel tariff increase on the ground

App. 136
that the President exceeded his statutory authority
under section 232, Severstal Export GMBH, et al. v.
United States, et al., No. 18-00057 (Ct. Int’l Trade
2018), has taken the position, with which Plaintiffs
agree, that once
the President received the report that constitutes the single precondition for his exercise
of discretion under Section 232(c), concurred
in its ﬁndings, and took the action to adjust
imports that was appropriate “in the judgment of the President.” 19 U.S.C. § 1862(c).
[The] decision to take action was the President’s to make, and his exercise of discretion
is not subject to challenge [in court].
Defendants’ Mot. to Dismiss at 16-17. Id. at 19 (“the
President’s exercise of discretion pursuant to Section
232 is nonjusticiable”).
THE PRESIDENT’S 25% TARIFF INCREASE
14. On April 19, 2017, the Secretary opened an
investigation into the impact of steel imports on U.S.
national security. As part of that investigation, the
Secretary held a public hearing on May 24, 2017, and
provided for the submission of written statements by
interested persons. On January 11, 2018, the Secretary
sent the President his report entitled “The Effects of
Imports of Steel on the National Security” (hereinafter,
the “Steel Report”) (available at https://www.commerce.gov/
sites/commerce.gov/files/the_effect_of_imports_of_steel_
on_the_national_security_-_with_redactions_-_20180111.pdf ).
The Steel Report, which was released to the public on

App. 137
February 16, 2018, recommended a range of alternative actions, including global tariffs, each of which had
the objective of maintaining 80 percent capacity utilization for the U.S. steel industry. Steel Report at 58–
61. At the same time, the Secretary issued a report
with similar conclusions regarding imports of aluminum.
15. On February 18, 2018, the Secretary of Defense sent a memorandum to the Secretary, with copies
to various individuals who work directly for the President, stating that the Defense Department “does not
believe that the ﬁndings” in the reports on steel and
aluminum “impact the ability of DoD programs to
acquire the steel and aluminum necessary to meet
national defense requirements.” (available at https://
www.commerce.gov/sites/commerce.gov/ﬁles/department_
of_defense_memo_response_to_steel_and_aluminum_
policy_recommendations.pdf ).
16. On March 8, 2018, the President issued Proclamation 9705, which imposed the 25% tariff increase
at issue in this action, applicable to all imported steel
articles from all countries except Canada and Mexico,
effective March 23, 2018. Proclamation No. 9705, 83
Fed. Reg. 11,625 (Mar. 15, 2018). On the same date, the
President imposed a similar tariff, but in the lesser
amount of 10%, on aluminum imports, also based on
section 232. Proclamation No. 9704, 83 Fed. Reg.
11,619 (Mar. 15, 2018).
17. Section (3) of Proclamation 9705 authorized
the Secretary “to provide relief from the additional

App. 138
duties [the 25% tariff increase] set forth in clause 2 of
this proclamation for any steel article determined not
to be produced in the United States in a sufﬁcient and
reasonably available amount or of a satisfactory quality and is also authorized to provide such relief based
upon speciﬁc national security considerations.” 83 Fed.
Reg. at 11,627. On March 16, 2018, the Secretary issued an interim ﬁnal rule setting forth the requirements for obtaining such relief. Requirements for
Submissions Requesting Exclusions From the Remedies Instituted in Presidential Proclamations Adjusting Imports of Steel Into the United States and
Adjusting Imports of Aluminum Into the United States;
and the Filing of Objections to Submitted Exclusion Requests for Steel and Aluminum, 83 Fed. Reg. 12,106
(Mar. 19, 2018).
18. The 25% tariff increase imposed under section 232 is not based on any showing of illegal or unfair
trade practices by steel producers in other countries.
Those practices are already the basis of additional tariffs and/or quotas issued under the antidumping and
countervailing duty laws of the United States. According to the Steel Report, as of January 11, 2018, for
the steel industry alone, there were 164 such orders
in effect, and there were an additional 20 publicly
announced investigations underway. Steel Report at
Appendix K, pp.1-3.
19. In Proclamation 9711, issued on March 22,
2018, the President noted the continuing discussions
with Argentina, Australia, Brazil, Canada, Mexico,
South Korea, and the European Union (EU) on behalf

App. 139
of its member countries, on alternative means to address the threatened impairment to the national security posed by imports of steel articles from those
countries. He determined that the preferred means to
address the threat to national security posed by imports of steel articles from these countries was to continue the ongoing discussions on such alternatives
and, in the interim, to exempt steel imports from these
countries from the tariff in Proclamation 9705, which
he did until May 1, 2018. Proclamation No. 9711, 83
Fed. Reg. 13,361 (Mar. 28, 2018).
20. On April 30, 2018, in Proclamation 9740, 83
Fed. Reg. 20,683 (May 7, 2018), the President noted
that the United States had agreed in principle with
Argentina, Australia, and Brazil on alternative means
to address the threatened impairment to the national
security posed by steel articles imports from those
countries and extended the temporary exemption of
those countries, as well as Canada, Mexico, and the
countries of the EU, until June 1, 2018. The Proclamation also excluded South Korea from the 25% tariff
increase, without an end date, based on a quota negotiated with South Korea, subject to further monitoring
by the United States.
21. On May 31, 2018, the President issued his
most recent Proclamation applicable to the 25% tariff
increase. Proclamation No. 9759, 83 Fed. Reg. 25,857
(June 5, 2018). That Proclamation excluded Argentina,
Australia, Brazil, and South Korea from the 25% tariff
increase without an end date, and, at the same time,

App. 140
the President terminated the temporary exemptions
for Canada, Mexico, and the countries of the EU.
22. Since May 31, the President has made no
further changes in the application of the 25% tariff
increase for steel imports, but as Secretary Wilbur
Ross stated on May 31, 2018, “The president has the
authority unilaterally . . . to do anything he wishes at
any point subsequent to today.” Trump has ofﬁcially
put more tariffs on U.S. allies than on China, Wash.
Post, June 1, 2018, at A13 (available at https://www.
washingtonpost.com/news/wonk/wp/2018/05/31/trumphas-officially-put-more-tariffs-on-u-s-allies-than-on-china/
?utm_term=.98551855c7ba) (last visited June 26,
2018).
23. To date, the President has applied section
232 only to imports of steel and aluminum, but on May
23, 2018, the Secretary, at the request of the President,
announced that he has commenced an investigation
into whether imports of automobiles, including SUVs,
vans, light trucks, and automotive parts threaten to impair the national security. Press Release, U.S. Dept. of
Commerce (May 23, 2019 [sic]) (available at https://www.
commerce.gov/news/press-releases/2018/05/us-departmentcommerce-initiates-section-232-investigation-auto-imports)
(last visited June 26, 2018). In addition, in April 2017,
the Secretary stated that in addition to steel and
aluminum, “core industries” for the Administration’s
trade agenda include “vehicles, aircraft, shipbuilding,
and semiconductors.” Commerce Secretary Ross:
Trade ‘National Security’ Probes Could Extend to
Semiconductors, Aluminum, Dow Jones, Apr. 25, 2017

App. 141
(available at https://www.dowjones.com/scoops/commercesecretary-ross-trade-national-security-probes-extendsemiconductors-aluminum/) (last visited June 26,
2018).
THE FAILURE OF SECTION 232
TO PROVIDE AN INTELLIGIBLE
PRINCIPLE TO GUIDE DECISIONS OF
THE PRESIDENT ON ADJUSTING IMPORTS
24. Under the current tariff regime, there are
ﬁve general categories of steel products— ﬂat products,
long products, pipe & tube products, semi-ﬁnished
products, and stainless products —and within those
ﬁve categories, there are separate tariff lines of 61, 25,
27, 8, and 36 sub-products, respectively. Many of the
submissions to the Secretary focused on the differences
among these 157 sub-products, but the President
treated them all identically, except for the possibility
of obtaining relief on a product-by-product basis,
which, as described in paragraph 25 infra, is quite limited. Among the product differences which the President chose to disregard, although he was not legally
required to take them into account, nor was he forbidden from doing so, are the following:
(a) U.S. companies supply all the defense needs
for the product;
(b)

There is no defense use for the product;

(c) U.S. companies do not make the product,
do not make it in sufficient quantities to fill the

App. 142
non-defense needs for the product, and/or do not make
it with the quality required by the purchaser of the
product and/or its customers;
(d) The product is not available from U.S. companies in the portion of the United States where the purchaser is located and the transportation cost of sending
it there is prohibitive; and
(e) Because of the highly specialized nature of
the product, and the relatively limited uses, it is not
economical for U.S. steel companies to produce it, or the
ability to increase supplies of the product can only occur over a number of years and then only if demand for
the product can be assured.
25. The possibility of obtaining relief pursuant to
the Secretary’s interim rule set forth in paragraph 17,
supra, is quite limited because: (a) each application
for an exclusion must be submitted by a single entity;
(b) each application can only be for a single product;
(c) “[o]nly individuals or organizations using steel in
business activities (e.g., construction, manufacturing
or supplying steel product to users) in the United
States may submit exclusion requests,” 83 Fed. Reg. at
12,110 (which excludes importers and traders in steel
such as Plaintiffs Sim-Tex and Orban); (d) there is a
mandatory waiting period of 30 days during which objections may be ﬁled; (e) there is no process to respond
to or rebut objections ﬁled, whether accurate or not,
and (f ) there is no ﬁxed time within which applications
must be decided, although the Secretary has stated
that the review “normally will not exceed 90 days.” 83

App. 143
Fed. Reg. at 12,111. The Secretary has acknowledged
that there have been nearly 20,000 applications for exclusions ﬁled, most of which have not been decided.
There is no provision for judicial review of the denial
of an exclusion application, and given the highly discretionary nature of exclusion decisions, success on judicial review would almost certainly be very difﬁcult if
not impossible.
26. Although the rationale for tariffs and quotas
under section 232 is to provide protection from imports
for articles such as steel needed for national security,
the President is not required to take into account
(although he could if he chose to do so) whether supplies from particular countries are or are not likely to
be available to provide for U.S. national security needs.
Because section 232 does not embody an intelligible
principle, even as applied to which countries should be
excluded from any tariff or quota because they are reliable sources of steel during a conﬂict, the President
is free to exclude certain countries or not, without regard to whether they are or are not likely to be able to
supply steel when required by national security. On
that question, the following facts are uncontested
based on the Steel Report, public submissions, and/or
statements by the President:
(a) Canada and Mexico are, respectively, the
largest and fourth largest current sources of steel imports, totally 25.2% of 2017 imports according to the
Steel Report. Steel Report at 28. They are close U.S.
allies and trading partners, and, because the United
States shares borders with them, there is virtually no

App. 144
chance that their steel imports will be unavailable in
the event of a conﬂict, yet section 232 does not either
compel the President to take those facts into account
or forbid him from doing so in deciding whether to apply the 25% tariff increase to those countries;
(b) The countries of the EU are among our closest allies, so that, in the event of an armed conﬂict, we
would expect them to join us and work together to assure that there is sufﬁcient steel available to protect
their national security and ours, yet section 232 does
not compel the President to take those facts into account, nor does it forbid him from doing so, in deciding
whether to apply the 25% tariff increase to the EU
countries; and
(c) The President appears to be using the imposition of the 25% tariff increase as a bargaining chip in
his trade negotiations with steel producing countries,
including Canada, Mexico, South Korea, Brazil, Argentina, Australia, and the EU countries, regarding trade
matters unrelated to steel imports. Section 232 neither
authorizes nor forbids the President from using the
threat to impose tariffs on imported products for that
purpose.
27. The submissions to the Secretary produced
credible evidence of signiﬁcant adverse consequences,
examples of which are set forth below. Section 232 did
not require the President to take those consequences
into account when he imposed the 25% tariff increase,
although it also did not forbid him from doing so.
Among the most signiﬁcant adverse effects on which

App. 145
there is no intelligible principle to guide the President
are the following:
(a) Reduced competition from imported steel will
increase the price of domestic steel;
(b) Increased steel prices will increase the costs
to purchasers of products containing steel, including
both ultimate consumers and those that use steel products to produce other products;
(c) Increased prices of products using steel products for which the tariff is paid will make those products less competitive (1) against foreign products
imported into the United States, and (2) against foreign competitors when U.S. businesses export their
products, in both cases widening the trade deﬁcit;
(d) Increased tariffs provide an incentive for U.S.
manufacturers of products containing steel to shift
some of their facilities abroad in order to avoid paying
the 25% tariff, thereby reducing investments in the
United States and lowering our total national output;
(e) Reductions in imported steel will not only reduce the jobs in U.S. companies that depend on nonU.S. steel for products that they make, but will also
cost jobs in industries such as transportation that deliver foreign steel products, including delivery by water
through our major ports;
(f ) Encourage retaliation by countries whose
products are subject to the 25% tariff increase, by imposing tariffs and/or quotas on U.S. products or services unrelated to the steel industry, thereby harming

App. 146
U.S. providers of those products or services, including
farm products for which the United States is a major
exporter;
(g) Creating uncertainty, with the potential to interrupt delivery of steel products to, among others,
businesses directly serving the Department of Defense;
(h) Threatening the economic livelihood of small
and mid-size businesses that depend on foreign steel,
but that have ﬁxed-price contracts with larger companies, such as those in the automobile industry, and for
which they cannot re-negotiate the price at which they
have agreed to provide ﬁxed quantities, to take into account the tariff-increased price of the steel in their
product;
(i) The inability to obtain specialized steel products in the United States may make it very expensive,
if not impossible, to provide products needed to comply
with Department of Energy efﬁciency rules;
(j) For certain products, such as tin mill steel
used to make food containers, the increase in price may
cause food companies to shift to other materials for
their containers, such as paper, plastic, and aluminum,
and potentially drive the producers of the metal for
cans out of business;
(k) Imposing signiﬁcant delays when foreign specialty steel is not available because of the time (and
money) required to have substitute supplies of steel

App. 147
tested and certiﬁed by the ultimate purchasers that
have very exacting standards; and
(l) Eliminating foreign sources of a product may
result in there being only a single source for a product
which, in addition to the potential for monopoly pricing, may, in the event of a natural or economic disaster,
eliminate even that sole source.
INJURIES TO PLAINTIFFS
28. For Plaintiffs Sim-Tex and Orban and other
members of Plaintiff AIIS that purchase imported steel
or products that contain imported steel, the 25% tariff
increase has already and will continue to increase the
cost of imported steel and, unless those members increase their sales prices, the added tariff costs will reduce their proﬁt. Alternatively, those members can
attempt to maintain their proﬁt margins by raising the
prices they charge, which will likely reduce their sales
in the United States and abroad, and may require
them to lay off workers or reduce their wages. The 25%
tariff increase will also have a negative effect on their
cash ﬂow and on their bank borrowing lines.
29. If section 232 and therefore the 25% tariff increase are held unconstitutional, the companies described in paragraph 28 that actually paid the 25%
tariff increase may be able to recover that increase
from the United States. But those companies will not
be able to recover their lost proﬁts from reduced sales
or lower proﬁt margins, and those lost proﬁts constitute irreparable harm to those companies. Moreover,

App. 148
for those workers at those companies who will have
their incomes reduced because there is less work for
their companies as a result of the impact of the 25%
tariff increase, those lost wages cannot be recovered
and therefore constitute further irreparable harm.
30. Many AIIS members do not themselves purchase imported steel or products containing imported
steel, but their businesses are involved in various
phases of the transportation of imported steel. The
25% tariff increase was intended to, has had, and will
continue to have the effect of, reducing the total volume of imported steel, which adversely affects these
members in the following ways:
(a) Those members that transport imported steel
are paid by the volume of imported steel that they
transport; the 25% tariff increase will reduce that volume and thereby reduce their revenue;
(b) The unions that are members of AIIS represent workers who are paid, in part, by the volume of
imported steel that they handle in moving that steel
from one location to another; the 25% tariff increase
will reduce that volume and thereby reduce the income
of the unions’ members who handle imported steel or
possibly eliminate their jobs;
(c) The port authorities, customs brokers, insurance companies, and logistics companies that are
members of AIIS derive signiﬁcant portions of their
revenue from their handling of imported steel; the 25%
tariff increase will reduce the amount of imported steel

App. 149
and thereby reduce the revenue of those ports and logistics companies.
Because none of the members of AIIS described in
this paragraph will have paid the 25% tariff increase,
directly or indirectly, they will have sustained irreparable damage because they will have no claim for monetary damages from the United States even if the 25%
tariff increase is held to be unconstitutional.
CLAIMS FOR RELIEF
31. On its face, section 232 does not contain an
intelligible principle from the Congress that the President must use when imposing tariffs or quotas under
it. Speciﬁcally, subsection 232(c) simply authorizes him
to “determine the nature and duration of the action
that, in [his] judgment . . . must be taken to adjust the
imports of [steel products] so that such imports will not
threaten to impair the national security.”
32. As shown by the submissions to the Secretary described in paragraphs 26 and 27, supra, the lack
of an intelligible principle in section 232 presents more
than a theoretical problem. That absence permitted
the President, in his unfettered discretion, to make
countless very signiﬁcant policy choices in implementing section 232 as applied to imports of steel products
for which there was no guidance. Under section 232,
the President became a lawmaker for tariffs, rather
than a law administrator for tariffs. As applied to the
25% tariff increase, section 232 constitutes an unconstitutional delegation of the legislative authority given

App. 150
to Congress to “lay and collect Taxes, Duties, Imposts
and Excises” and to “regulate Commerce with foreign
Nations.” U.S. Const. art. I, § 8. Therefore, section 232
violates Article I, section 1 of the Constitution under
which “All legislative Powers granted herein shall be
vested in a Congress of the United States.” By contrast,
the President does not have the authority to write the
laws; rather his duties under Article II, section 3 are to
“take Care that the Laws be faithfully executed.”
33. Section 232 also violates the doctrine of separation of powers and the system of checks and balances that the Constitution protects because there is
no judicial review of the President’s determinations
under section 232. Given the absence of an intelligible
principle to govern section 232, judicial review would
be largely meaningless even if it were available. Moreover, there are no other procedural protections against
misuse of section 232 which would apply to orders by
federal agencies reviewable under the Administrative
Procedure Act, such as those described in paragraph
12, supra. Furthermore, unlike the process by which a
bill becomes a law, which requires approval of both
Houses of Congress, after full consideration of the speciﬁc language being proposed, and signature by the
President (or a congressional two-thirds override of his
veto), orders under section 232 are based on the sole
determination of the President as to whether the particular form of the tariff or other import adjustment
that he has selected will prevent the impairment of the
national security, as expansively deﬁned in section
232(d).

App. 151
34. The result is that the President is permitted
by the open-ended grant of power in section 232 to do
as he did here regarding steel tariffs: to read section
232 however he pleases, to pick and choose among the
alternatives presented, with no limits based on the evidence presented, and with no need to explain his
changing decisions or to defend them in a court of law.
Presidential lawmaking of that kind is simply not provided for in the United States Constitution and its system of separation of powers and checks and balances
created by the Framers, and accordingly, section 232 is
unconstitutional on its face for that reason as well.
35. As a result of the unconstitutional 25% tariff
increase, each of the Plaintiffs has been and will continue to be irreparably injured as set forth in paragraphs 28-30 above. For these reasons, Plaintiffs lack
an adequate remedy at law and are therefore entitled
to both a declaratory judgment that section 232 is unconstitutional and an injunction against its continuing
application.
DEMAND FOR JUDGMENT
AND PRAYER FOR RELIEF
WHEREFORE, Plaintiffs request the following:
a.

That the Chief Judge of this Court designate
three judges of this Court to hear and determine this action;

b.

That the Court enter a declaratory judgment
that section 232 and Proclamation 9705, together with the subsequent amendments to it,

App. 152
are unconstitutional as a violation of Article I,
section 1 of the Constitution and the doctrine
of separation of powers and the system of
checks and balances that the Constitution
protects;
c.

That the Court permanently enjoin the defendants from enforcing Proclamation 9705
and the subsequent amendments to it;

d.

That the Court award Plaintiffs their costs
and a reasonable attorneys’ fee; and

e.

That the Court grant such other and further
relief as may be just and proper.
Respectfully submitted,
/s/Donald B. Cameron
Donald B. Cameron
R. Will Planert
MORRIS MANNING & MARTIN LLP
1401 Eye Street, NW, Suite 600
Washington, D.C. 20005
(202) 216-4811
dcameron@mmmlaw.com
/s/Alan B. Morrison
Alan B. Morrison
George Washington
University Law School
2000 H Street, NW
Washington, D.C. 20052
(202) 994-7120
abmorrison@law.gwu.edu

App. 153
/s/Gary N. Horlick
Gary N. Horlick
Law Ofﬁces of Gary N. Horlick
1330 Connecticut Ave., NW,
Suite 499c
Washington, D.C. 20036
(202) 429-4790
gary.horlick@ghorlick.com
/s/Timothy Meyer
Timothy Meyer
Vanderbilt Law School
131 21st Avenue South
Nashville, TN 37203
(615) 936-8394
tim.meyer@law.vanderbilt.edu
(Application for admission to
this Court pending)
Counsel to Plaintiffs
June 27, 2018

App. 154
[SEAL]
SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301·1000
MEMORANDUM FOR SECRETARY OF COMMERCE
SUBJECT: Response to Steel and Aluminum Policy
Recommendations
This memo provides a consolidated position from
the DoD on the investigation of the effect of steel mill
imports and the effects of imports of aluminum on national security, conducted by the Department of Commerce under Section 232 of the Trade Expansion Act of
1962 (hereinafter “Section 232 Report”).
Regarding the December 15, 2017 reports on steel
and aluminum, DoD believes that the systematic use
of unfair trade practices to intentionally erode our innovation and manufacturing industrial base poses a
risk to our national security. As such, DoD concurs with
the Department of Commerce’s conclusion that imports of foreign steel and aluminum based on unfair
trading practices impair the national security. As
noted in both Section 232 reports, however, the U.S.
military requirements for steel and aluminum each
only represent about three percent of U.S. production.
Therefore, DoD does not believe that the ﬁndings in
the reports impact the ability of DoD programs to acquire the steel or aluminum necessary to meet national defense requirements.

App. 155
DoD continues to be concerned about the negative
impact on our key allies regarding the recommended
options within the reports. However, DoD recognizes
that among these reports’ alternatives, targeted tariffs
are more preferable than a global quota or global tariff.
In addition, we recommend an inter-agency group further reﬁne the targeted tariffs, so as to create incentives for trade partners to work with the U.S. on
addressing the underlying issue of Chinese transshipment.
If the Administration moves forward with targeted tariffs or quotas on steel, DoD recommends that
the management and labor leaders of the respective industries be convened by the President, so that they
may understand that these tariffs and quotas are conditional. Moreover, if the Administration takes action
on steel, DoD recommends waiting before taking further steps on aluminum. The prospect of trade action
on aluminum may be sufﬁcient to coerce improved behavior of bad actors. In either case, it remains important for the President to continue to communicate
the negative consequences of unfair trade practices.
This is an opportunity to set clear expectations
domestically regarding competitiveness and rebuild
economic strength at home while preserving a fair and
reciprocal international economic system as outlined
in the National Security Strategy. It is critical that
we reinforce to our key allies that these actions are

App. 156
focused on correcting Chinese overproduction and
countering their attempts to circumvent existing antidumping tariffs – not the bilateral U.S. relationship.
/s/ James N. Mattis
cc:
Secretary of the Treasury
Secretary of State
Chief of Staff to the President
Assistant to the President for National
Security Affairs
Chairman, National Economic Council
United States Trade Representative

App. 157
IN THE UNITED STATES COURT
OF INTERNATIONAL TRADE
AMERICAN INSTITUTE FOR
INTERNATIONAL STEEL,
INC., SIM-TEX, LP, and
KURT ORBAN PARTNERS,
LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United States
Customs and Border
Protection,
Defendants.

)
)
)
)
)
) Court No. 18-00152
)
)
)
)
)
)
)
)
)
)

STATEMENT OF UNDISPUTED FACTS
Plaintiffs American Institute for International
Steel, Inc. (“AIIS”), Sim-Tex, LP (“Sim-Tex”), and Kurt
Orban Partners, LLC (“Orban”) hereby submit, pursuant to Rule 56.3 of the Rules of this Court, this Statement of Undisputed Facts in support of their Motion
for Summary Judgment, and state as follows:
1. Plaintiff American Institute for International
Steel, Inc. (“AIIS”) is a non-proﬁt membership corporation that brings this action on behalf of its 120 members. AIIS’s members, which include the Plaintiffs
Sim-Tex, LP (“Sim-Tex”) and Kurt Orban Partners,
LLC (“Orban”), have various business connections

App. 158
with the imported steel products that are subject to the
25% tariff challenged in this action. Exhibit 1.
2. Plaintiff Sim-Tex is a limited liability partnership organized under the laws of Texas, with its principal place of business in Waller, Texas. Sim-Tex is an
importer and the leading wholesaler in the United
States of oil country tubular goods (OCTG) casing and
tubing, which are carbon and alloy steel pipe and tube
products used in the production and distribution of oil
and gas. Sim-Tex is a member of Plaintiff AIIS, and imports directly, as an importer of record, and indirectly,
through traders, substantial volumes of steel products
from Taiwan, Germany, Italy and other sources that
are subject to the 25% tariff. Exhibit 2.
3. Plaintiff Orban is a limited liability company
organized under the laws of California, with its principal place of business in Burlingame, California. Orban
is an importer and specialty steel trader that purchases globally from leading carbon, alloy, and stainless and high nickel alloy manufacturers and sells to
manufacturers in the United States. Orban is a member of Plaintiff AIIS, and imports directly, as an importer of record, and indirectly, through traders,
substantial volumes of imported steel from a number
of sources including Czech Republic, Indonesia, Italy,
Mexico, South Africa, Taiwan, Turkey, UAE, Belarus,
India, Pakistan, and Poland that are subject to the 25%
tariff. Exhibit 3.
4. The members of the Plaintiff AIIS and the
Plaintiffs Sim-Tex and Orban have been irreparably

App. 159
injured by the 25% tariff and continue to be irreparably injured by the 25% tariff. The nature of this injury,
including lost sales, lost revenues and lost proﬁts, is
detailed in the accompanying declarations of Richard
Chriss, President of AIIS, Charles Scianna, President
of Sim-Tex, and John Foster, President of Orban, provided in Exhibits 1, 2, and 3, respectively.
5. On April 19, 2017, the Secretary of Commerce
(the “Secretary”) opened an investigation into the impact of steel imports on the U.S. national security. As
part of that investigation, the Secretary held a public
hearing on May 24, 2017, the transcript of which is provided in Exhibit 4, and provided for the submission of
written statements by interested persons.
6. On January 11, 2018, the Secretary sent the
President his report entitled “The Effect of Imports of
Steel on the National Security” (hereinafter, “Steel Report”) which was released to the public on February 16,
2018. The Steel Report is attached hereto as Exhibit
5. The testimony of persons appearing at the public
hearing and other written submissions ﬁled with the
Secretary in connection with Commerce Department
investigation are provided in Exhibits 6 and 7, respectively. The letter submitted to the Secretary by the Secretary of Defense, which was required to be requested
by the statute but which was not made part of the Steel
Report, is provided in Exhibit 8.
7. On March 8, 2018, the President issued Proclamation 9705, which concurred in the ﬁnding in the
Secretary’s Report and imposed the 25% tariff at issue

App. 160
in this action, applicable to all imported steel articles
from all countries except Canada and Mexico, effective
March 23, 2018. Proclamation No. 9705, 83 Fed. Reg.
11,625 (Mar. 8, 2018). See Exhibit 9.
8. On March 16, 2018, pursuant to Proclamation
9705, the Secretary issued an interim ﬁnal rule setting
forth the requirements for obtaining relief from the
25% tariff for any steel article “determined not to be
produced in the United States in a sufﬁcient and reasonably available amount or of a satisfactory quality.”
Requirements for Submissions Requesting Exclusions,
83 Fed. Reg. 12,106 (Dep’t Commerce Mar. 19, 2018)
(interim ﬁnal rule). See Exhibit 10.
9. The President subsequently amended the order based on Proclamation 9705 in a series of proclamations to provide for country-based exclusions, some
for limited durations and others indeﬁnite. See Proclamation No. 9711, 83 Fed. Reg. 13,361 (Mar. 22, 2018)
(Exhibit 11); Proclamation No. 9740, 83 Fed. Reg.
20,683 (Apr. 30, 2018) (Exhibit 12); and Proclamation
No. 9759, 83 Fed. Reg. 25,857 (May 31, 2018) (Exhibit
13). As a result, as of this date, Argentina, Brazil, and
South Korea, are not subject to the 25% tariff on steel
imports, but are covered by section 232 absolute quotas. Section 232 Tariffs on Aluminum and Steel: Duty
on Imports of Steel and Aluminum Articles under Section 232 of the Trade Expansion Act of 1962, U.S. Customs and Border Protection, available at https://www.
cbp.gov/trade/programs-administration/entry-summary/
232-tariffs-aluminum-and-steel (last visited July 18,

App. 161
2018) (Exhibit 14). Australia is not subject to either
the tariff or any quotas on steel imports.
Respectfully submitted,
/s/Donald B. Cameron
Donald B. Cameron
R. Will Planert
Julie C. Mendoza
Brady W. Mills
Morris Manning & Martin LLP
1401 Eye Street, NW, Suite 600
Washington, D.C. 20005
(202) 216-4811
dcameron@mmmlaw.com
/s/Alan B. Morrison
Alan B. Morrison
George Washington University
Law School
2000 H Street, NW
Washington, D.C. 20052
(202) 994-7120
abmorrison@law.gwu.edu
/s/Gary N. Horlick
Gary N. Horlick
Law Ofﬁces of Gary N. Horlick
1330 Connecticut Ave., NW,
Suite 499c
Washington, D.C. 20036
(202) 429-4790
gary.horlick@ghorlick.com
/s/Timothy Meyer
Timothy Meyer
Vanderbilt Law School
131 21st Avenue South

App. 162
Nashville, TN 37203
(615) 936-8394
tim.meyer@law.vanderbilt.edu
/s/ Steve Charnovitz
Steve Charnovitz
George Washington University
Law School
2000 H Street, NW
Washington, D.C. 20052
(202) 994-7808
scharnovitz@law.gwu.edu
Counsel to Plaintiffs
July 19, 2018

App. 163
IN THE UNITED STATES COURT
OF INTERNATIONAL TRADE
AMERICAN INSTITUTE FOR
INTERNATIONAL STEEL,
INC., SIM-TEX, LP, and
KURT ORBAN PARTNERS,
LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United States
Customs and Border
Protection,
Defendants.

)
)
)
)
)
) Court No. 18-00152
)
)
)
)
)
)
)
)
)
)

DECLARATION OF RICHARD CHRISS
I, Richard Chriss, President of the Plaintiff American Institute for International Steel, Inc., hereby declare as follows:
1. I am the President of the Plaintiff American
Institute for International Steel, Inc. (“AIIS”). I have
held this position since December 1, 2016, and before
that I was Executive Director at AIIS since November
2013. I am thoroughly familiar with the operations and
membership of AIIS, and the statements in this declaration are based on my knowledge of the organization
and its members.

App. 164
2. AIIS is a non-proﬁt membership organization,
incorporated in the District of Columbia, and has its
principal place of business in Alexandria, Virginia. It
is one of the very few steel-related trade associations
that supports free trade. Through its international
trade counsel, AIIS testiﬁed in opposition to the use of
section 232 at the public hearing held on May 24, 2017
at the U.S. Department of Commerce (“Commerce Department”) during the investigation. AIIS represents
its 120 members in this action, which include the
Plaintiffs Sim-Tex, LP, and Kurt Orban Partners, LLC,
all of whom have business connections with the imported steel products that are subject to the 25% tariff
on imported steel products challenged in this action.
3. The members of AIIS include companies that
use imported steel in the manufacture of their own
products, traders in steel, importers, exporters, freight
forwarders, union and non-union stevedores, shippers,
railroads, trucking companies, barge and tugboat operators, port authorities, union locals, customs brokers,
surveyors, and logistics companies, all of which have
been and will continue to be adversely affected by the
25% tariff on imported steel products. AIIS’s members
handle, import, ship, transport, or store approximately
80% of all imported basic steel products in the United
States. These various business connections are more
fully described below.
4. There are three important principal aspects of
the imported steel business that are essential to understand the impact of the 25% tariff on AIIS’s members and the many other businesses in the U.S.

App. 165
economy affected by them. The principal goal of the
25% tariff is to reduce the level of imports of steel products into the United States, and that effect has already
been realized, even though the tariff has only been
fully effective since June 1, 2018, when the temporary
exclusions for major imports from Mexico, Canada, and
the EU countries were lifted. As a result, the reduction
in imports will reduce the level of steel products that
importers handle, which will reduce their revenues,
even if their proﬁts per ton remain constant. The same
effect applies to AIIS’s other members whose incomes
depend in large part on the number of tons of imported
steel they handle.
5. A second important feature of the imported
steel industry is that it is not one industry, but a large
number of separate sub-industries. For example, the
Commerce Department divides steel products into ﬁve
major categories, and within them there are 177 subcategories of products. In addition, some manufacturers have very speciﬁc qualiﬁcations and tolerances,
and not all suppliers can satisfy them. These differences are quite signiﬁcant because not all U.S. suppliers can provide the type and grade of product currently
being supplied by imported steel from a variety of different countries.
6. Third, because the price of imported steel has
risen, domestic steel producers have raised the prices
charged to domestic steel users who manufacture ﬁnished products, without fear that imports will undercut
their prices. This increase in the cost of steel to users
will raise the price of their ﬁnished products, which

App. 166
will make them less competitive against foreign products which are unaffected by the 25% tariff and
thereby increase our trade deﬁcit by increasing higher
value-added imports and decreasing exports.
7. Importers: These companies are the entities
that are the party of record for imported steel. They
purchase the steel abroad and arrange to have it enter
the United States. They then sell it to third parties,
who may be traders or may be manufacturers of products containing imported steel. They are legally obligated to pay any duties, including the 25% tariff at
issue in this case. Depending on their contractual arrangements with the companies to which they sell imported steel, they may be able to pass on some or all of
the tariff to their purchasers. If they are not able to
pass on the cost of the tariff, their proﬁts will be drastically reduced or eliminated entirely. In addition, and
perhaps more signiﬁcantly, their revenues will be diminished because there will be less imported steel for
them to import and sell. The 25% tariff will also have
a negative effect on their cash ﬂows and on their lines
of credit.
8. Traders: Some traders are also importers,
while others purchase from importers. They make
their proﬁts by purchasing steel at one price and selling it at a higher price. Steel tariffs impact their business in two ways. They add a cost on the purchase side,
which puts a squeeze on the selling side, either reducing proﬁt or eliminating a sale. In addition, like virtually all of AIIS’s members, the 25% tariff will reduce

App. 167
the level of steel imports, which reduces the total volume of their business and hence their total proﬁts.
9. Manufacturers: These members purchase
imported steel to use in the products that they make.
The 25% tariff will be passed on to them, and if they
purchase domestic steel, the price of that has also
risen, making it even harder to make a proﬁt.
10. Transportation: AIIS’s members include
those who earn their livings by transporting imported
steel. These include railroads, shipping companies,
barge operators, trucking companies, logistics companies (who arrange for transportation and other related
services), union and non-union stevedores, and the
port authorities through which much imported steel
arrives in the United States. All of them depend heavily for their revenue on imported steel, because their
revenue is based upon volume.
11. Workers: They fall into two categories: employees of the different member companies described
above and members of local longshore unions. The former suffer when their companies lose business, which
costs them hours of work and wages, and possibly their
jobs; the latter do not work for particular companies,
but are harmed when there are reduced volumes of
steel being imported and hence less work for them to
do and therefore less pay.
12. Exporters: A further effect of increased
steel tariffs is that the prices of ﬁnished products containing steel will rise, thereby making those products
less competitive in the global markets, injuring AIIS

App. 168
members who export their products, as well as AIIS
members who are not manufacturers, but trade in
products containing steel and are able to export fewer
of them (or at reduced proﬁts) because of the higher
prices for those products.
13. Steel Supply Chain Service Providers:
They include customs brokers, insurance carriers, and
surveyors, all of whom lose business when the volume
of imports falls.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 16th day of July 2018.
/s/ Richard Chriss
Richard Chriss

App. 169
IN THE UNITED STATES COURT
OF INTERNATIONAL TRADE
AMERICAN INSTITUTE FOR
INTERNATIONAL STEEL,
INC., SIM-TEX, LP, and
KURT ORBAN PARTNERS,
LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United States
Customs and Border
Protection,
Defendants.

)
)
)
)
)
) Court No. 18-00152
)
)
)
)
)
)
)
)
)
)

DECLARATION OF CHARLES SCIANNA
I, Charles Scianna, President of Plaintiff Sim-Tex,
LP (“Sim-Tex”), hereby declare as follows:
1. I am the President of the Plaintiff Sim-Tex. I
have held this position since 1986. I am thoroughly familiar with the operations of Sim-Tex, and the statements in this declaration are based on my knowledge
of the company.
2. Sim-Tex is a limited liability partnership organized under the laws of Texas, with its principal
place of business in Waller, Texas. Sim-Tex is an importer and the leading wholesaler in the United States

App. 170
of oil country tubular goods (OCTG) casing and tubing,
which are carbon and alloy steel pipe and tube products used in the production and distribution of oil and
gas. Sim-Tex is a member of Plaintiff American Institute for International Steel, Inc. (AIIS). Sim-Tex imports directly, as an importer of record, and indirectly,
through traders, approximately 40,000 – 45,000 tons of
steel products per month from Korea, Taiwan, Brazil,
Germany, Italy and other sources. Imports from Korea
and Brazil are subject to quotas imposed pursuant to
Section 232, and imports from Sim-Tex’s other sources
are subject to the 25% additional tariff imposed pursuant to section 232.
3. Sim-Tex also purchases and sells OCTG tubing (sizes 2” through 3 ½”) produced in the United
States. Domestic OCTG producers generally do not
produce these smaller sizes in sufﬁcient quantities to
fulﬁll Sim Tex’s needs of approximately 20,000 –
25,000 tons of tubing because they can make larger diameter pipe on the same equipment at much higher
proﬁt margins. Sim-Tex’s allocation of OCTG tubing is
less than 3,000 tons per month, and the balance must
be made up with imports.
4. Sim-Tex has been and continues to be adversely affected by the 25% tariff on imported steel
products.
5. As the importer of record for a signiﬁcant portion of the OCTG products that it sells, Sim-Tex purchases the steel abroad and arranges to have it enter
the United States. Sim-Tex then sells the OCTG to

App. 171
third parties, who are generally in the oil and gas drilling, transmission and distribution business. Sim-Tex is
legally obligated to pay any duties, including the 25%
tariff at issue in this case. Depending on its contractual
arrangements with its customers, Sim-Tex may or may
not be able to pass on some or all of the tariff to its
purchasers. If we are not able to pass on the cost of the
tariff, our proﬁts are commensurately reduced or eliminated entirely. In most cases, if the customer cannot
absorb the cost of the increased tariff, we cannot make
the sale, resulting in lost sales revenues and lost profits. The 25% tariff is also having a negative effect on
Sim-Tex’s cash ﬂow and lines of credit.
6. Sim-Tex also effectively pays the 25% tariff on
transactions on which it is the wholesaler. The traders
who import the steel and pay the duties to the government add the cost of the duties to the price they charge
to Sim-Tex. Again, Sim-Tex may or may not be able to
pass on some or all of this additional cost to its customers. If we are not able to pass on the cost of the tariff,
our proﬁts are commensurately reduced or eliminated
entirely. The 25% tariff is also having a negative effect
on Sim-Tex’s cash ﬂow and lines of credit.
Pursuant to 28 U.S.C. § 1746, I hereby declare under penalty of perjury that the foregoing is true and
correct. Executed on this 19th day of July 2018.
/s/ Charles Scianna
Charles Scianna

App. 172
IN THE UNITED STATES COURT
OF INTERNATIONAL TRADE
AMERICAN INSTITUTE FOR
INTERNATIONAL STEEL,
INC., SIM-TEX, LP, and
KURT ORBAN PARTNERS,
LLC,
Plaintiffs,
v.
UNITED STATES and
KEVIN K. MCALEENAN,
Commissioner, United States
Customs and Border
Protection,
Defendants.

)
)
)
)
)
) Court No. 18-00152
)
)
)
)
)
)
)
)
)
)

DECLARATION OF JOHN FOSTER
I, John Foster, President of Plaintiff Kurt Orban
Partners, LLC (“Orban”), hereby declare as follows:
1. I have held this position since 2012. I am thoroughly familiar with the operations of Orban, and the
statements in this declaration are based on my
knowledge of the company and its business operations.
2. Orban is a limited liability company organized
under the laws of California, with its principal place of
business in Burlingame, California. Orban is an importer and specialty steel trader that purchases globally from leading carbon, alloy, and stainless and high

App. 173
nickel alloy manufacturers and sells to manufacturers
in the United States. Orban is a member of Plaintiff
American Institute for International Steel, Inc. (AIIS),
and it purchases between 200,000 and 250,000 tons of
imported steel per year, and Orban is the importer of
record for most of these purchases.
3. Most of Orban’s purchases of imported steel
are subject to the 25% tariff. When Orban is the importer of record, it is responsible for paying all duties,
including the 25% tariff. Orban may or may not be able
to pass on all or part of this tariff.
4. Among the products that Orban imports and
sells are the following:
•

Oil country tubular goods (OCTG) and line
pipe for the oil, gas and energy industries;

•

Oil country couplings and ﬁttings;

•

Other welded steel pipe;

•

Hot-rolled steel coil for the production of
OCTG tubing and casing as well as for general
durable goods manufacturing;

•

Cold-rolled and coated ﬂat steels for residential construction as well as the manufacture
of steel drums and barrels that serve the U.S.
chemical sector;

•

Wire rod that is drawn into a multitude of ﬁnished wire products for agricultural, durable
and non-durable goods applications;

App. 174
•

Stainless steel tubes, bars and wire for specialty applications where corrosion resistance
is required;

•

Reinforcing bars for residential, nonresidential and certain civil construction applications; and

•

Hot-rolled bars and grating used in various
construction applications.

5. Orban has been and continues to be adversely
affected by the 25% tariff on imported steel products.
As the importer of record for a signiﬁcant portion of the
steel products that it sells, Orban purchases the steel
abroad and arranges to have it enter the United States.
Orban then sells those steel products to third parties.
Orban is legally obligated to pay any duties, including
the 25% tariff at issue in this case. Depending on its
contractual arrangements with its customers, Orban
may or may not be able to pass on some or all of the
tariff to its purchasers. If it is not able to pass on the
cost of the tariff, its proﬁts are commensurately reduced or may be eliminated entirely. In most cases, if
we cannot pass on the 25% tariff, we cannot make the
sale, resulting in lost sales revenues and lost proﬁts.
The 25% tariff is also having a negative effect on
Orban’s cash ﬂow and lines of credit.
6. Orban also effectively pays the 25% tariff on
transactions in which it purchases the steel from importers. As a trader, the countries vary widely according to global pricing and availability, but the following
countries we have worked with in the last 12-18

App. 175
months: Czech Republic, Indonesia, Italy, Mexico,
South Africa, Taiwan, Turkey, UAE, Belarus, India, Korea, Pakistan, and Poland. The traders who import the
steel and pay the duties to the government add the cost
of the duties to the price they charge to Orban. Again,
Orban may or may not be able to pass on some or all of
this additional cost to its customers.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th day of July 2018.
/s/ John Foster
John Foster

